-•«

*
(

AFFENBIX

"S'

*
JE*

Case: 18-14637

Date Filed: 04/27/2020

Page: 1 of 20

^3* ;
I

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS

rH
I

<

i

FOR THE ELEVENTH CIRCUIT

i
i &

Nos. 18-14637; 19-10865
Non-Argument Calendar
D.C. Docket No. 8:15-cv-02787-EAK-AEP

ANGELA W. DEBOSE,
Plaintiff-Appellant,
versus
USF BOARD OF TRUSTEES, et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
ELLUCIAN COMPANY, L.P.,
Defendants-Appellees.

Appeals from the United States District Court
for the Middle District of Florida
(April 27,2020)
Before JILL PRYOR, NEWSOM, and BRANCH, Circuit Judges.
PER CURIAM:

Case: 18-14637

Date Filed: 04/27/2020

Page: 2 of 20

Following her termination by the University of South Florida, Angela
DeBose, an African American woman, filed suit under Title VII, 42 U.S.C.
§ 2000e et seq. (“Title VII”), and the Florida Civil Rights Act, Fla. Stat. § 760.01
et seq. (“FCRA”), against both the University and Ellucian Company, L.P., a
software developer whose products are used for academic and administrative
recordkeeping. The district court granted summary judgment to Defendants on
several counts, including all counts against Ellucian. After a jury found for
DeBose on the remaining counts, the court granted judgment as a matter of law to
Defendants and denied DeBose’s post-trial motions. After review of the
complicated procedural posture and record, we affirm the district court’s
disposition.
I
DeBose worked as the University Registrar at the University of South
Florida. Her position was renewed annually. In 2014, the University began
receiving complaints from other employees that DeBose was difficult to
collaborate with and unprofessional. On July 15,2014, DeBose’s supervisor, Paul
Dosal, informed her that he had promoted another University employee, Billie Jo
Hamilton, to an open Assistant Vice President role. Two weeks later, DeBose filed
an internal complaint alleging discrimination, and a second complaint the
following month. In January 2015, she filed a discrimination complaint with the
2

Case: 18-14637

Date Filed: 04/27/2020

Page: 3 of 20

EEOC. In February, Dosal issued DeBose a written reprimand for calling a
coworker a “little girl” during a meeting.
During this same timeframe, the University was implementing a new
software program from Ellucian, Degree Works, which helps students and faculty
monitor progress toward graduation. As part of its implementation, an Ellucian
consultant met with DeBose in April 2015 and issued a report criticizing the
Registrar’s implementation of the software, saying the office was uncollaborative
and resistant to change. After receiving the Ellucian report, on May 19,2015,
University Provost Ralph Wilcox gave DeBose three months’ notice that her
employment would not be renewed in August 2015. Wilcox subsequently received
a call from the Provost of the University of North Florida asking for his
professional opinion of DeBose—Wilcox repeated the Ellucian report’s conclusion
that DeBose was uncollaborative and resistant to change.
These events—the promotion of another employee, the written reprimand,
her termination, and the bad reference—formed the basis of DeBose’s complaint.
She accused the University of race and gender discrimination and retaliation in
violation of Title VII and state law based on its failure to promote, termination, and
bad job reference, as well as breach of contract for the termination and tortious
interference in a business relationship for the bad reference. She also accused

3

Case: 18-14637

Date Filed: 04/27/2020

Page: 4 of 20

Ellucian of tortious interference in her business relationship with the University,
and accused both Defendants of a civil conspiracy to violate her rights.
Following discovery, the University and Ellucian moved for summary
judgment. The district court granted defendants summary judgment on all counts
except the discrimination and retaliation claims associated with DeBose’s
termination and bad reference by the University. Those claims proceeded to trial.
Considering the discrimination claim, the jury found that race was a motivating
factor in the Provost’s decision not to renew the employment contract, but that
DeBose would have been terminated regardless of race and was therefore not
entitled to damages. As to her retaliation claim, the jury found that the University
had taken adverse employment action against DeBose because of her protected
activity, and awarded $310,500 in damages.
Following trial, DeBose moved for attorney’s fees, costs, and front pay. The
district court denied her request for fees, because pro se litigants are not entitled to
recover attorney fees, and denied her request for costs because she had not
provided sufficient information on them. It scheduled an evidentiary hearing to
establish a front-pay amount, to which DeBose was presumptively entitled as the
prevailing party.
The district court subsequently granted the University’s motion for judgment
as a matter of law and overturned the jury’s verdict on the retaliation claim, finding
4

Case: 18-14637

Date Filed: 04/27/2020

Page: 5 of 20

insufficient evidence from which a reasonable jury could find causation. The
district court concluded that DeBose had failed as a matter of law to establish
causation, a required element of a retaliation claim. Because DeBose was no
longer the prevailing party, the district court denied her request for a front-pay
award. It also denied a motion for sanctions DeBose had filed in the interim.
DeBose then filed her own motion for a new trial, which the district court denied.
*

*

*

We are therefore confronted on appeal by DeBose’s challenge to the district
court’s orders: (1) granting in part and denying in part the University’s motion for
summary judgment and granting Ellucian’s motion for summary judgment;
(2) denying her post-trial motion for attorney’s fees and costs; (3) granting the
University’s post-trial motion for judgment as a matter of law and denying her
motion for sanctions; (4) denying her motion for front pay; and (5) denying her
motion for a new trial.
II
After a de novo review of the evidence1 in the light most favorable to
DeBose as the nonmoving party, Moton v. Cowart, 631 F.3d 1337, 1341 (11th Cir.
i

DeBose also challenges the district court’s refusal to consider 550 unauthenticated documents.
She is correct that Federal Rule of Civil Procedure 56 does not require authentication of
documents at the summary-judgment stage, and that neither defendant objected to the documents
as inadmissible. The court’s error in excluding these documents, however, did not affect
DeBose’s substantial rights, as a review of the documents shows that they would not have
affected the outcome. Any error was therefore harmless. See Fed. R. Civ. P. 61. Although
5

Case: 18-14637

Date Filed: 04/27/2020

Page: 6 of 20

2011), we affirm the district court’s grant of summary judgment to Ellucian on
each count against it, and to the University on several counts.
A
The district court granted the University’s summary judgment motion with
regard to DeBose’s race- and gender-discrimination and retaliation claims
stemming from the alleged failure to promote her and the written reprimand she
received after insulting a coworker.
Title YD and the FCRA prohibit an employer from discharging an employee
because of the employee’s sex or race. 42 U.S.C. § 2000e-2(a)(l); Fla. Stat.
760.10(l)(a). Title VII and the FCRA also prohibit an employer from retaliating
against an employee for protesting allegedly unlawful discriminatory practices. 42
U.S.C. § 2000e-3(a); Fla. Stat. 760.10(7). Claims under Title VII and the FCRA
are analyzed under the same framework and do not require separate analysis.
Alvarez v. Royal Atl. Developers, Inc., 610 F.3d 1253, 1271 (11th Cir. 2010).
“To prevail on a claim for discrimination under Title VII based on
circumstantial evidence, [DeBose] must show that: (1) [s]he is a member of a
protected class; (2) [s]he was qualified for the position; (3) [s]he suffered an
adverse employment action; and (4) [s]he was replaced by a person outside h[er]

DeBose claims that “the outcome of the case would have been substantially different” if the
documents were considered, she does not cite any specific document to substantiate that claim.
6

Case: 18-14637

Date Filed: 04/27/2020

Page: 7 of 20

protected class or was treated less favorably than a similarly-situated individual
outside h[er] protected class.” Maynard v. Bd. ofRegents, 342 F.3d 1281, 1289
(11th Cir. 2003).
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973), provides the
archetypal burden-shifting framework for evaluating a Title VII case based on
circumstantial evidence. Id. at 802-04. If an employee successfully makes a
prima facie case of discrimination or retaliation, the burden shifts to the employer
to provide a legitimate, nondiscriminatory or non-retaliatory reason for the adverse
employment action. Alvarez, 610 F.3d at 1264. The employer’s burden is
“exceedingly light” and is one of production only; “the employer need not
persuade the court that it was actually motivated by the proffered reasons.” Tipton
v. Canadian Imperial Bank of Commerce, 872 F.2d 1491, 1495 (11th Cir. 1989)
(quotations omitted).
If the employer meets this burden, the burden shifts back to the employee to
produce evidence that the employer’s proffered reasons are merely a pretext for
discrimination. Alvarez, 610 F.3d at 1264. To show pretext, the employee must
specifically respond to the employer’s explanation and produce evidence directly
rebutting the employer’s proffered nondiscriminatory reason. Crawford v. City of
Fairburn, 482 F.3d 1305, 1309 (11th Cir. 2007). This Court does not inquire into
whether the employer’s reason for the adverse employment action “is a correct
7

Case: 18-14637

Date Filed: 04/27/2020

Page: 8 of 20

one, but whether it is an honest one.” Rojas v. Florida, 285 F.3d 1339,1342 (11th
Cir. 2002) (“We are not in the business of adjudging whether employment
decisions are prudent or fair. Instead, our sole concern is whether unlawful
discriminatory animus motivates a challenged employment decision.” (quotation
omitted)).
We can quickly dispense with the written-reprimand claim. DeBose offered
no evidence that Dosal’s reprimand caused any serious or material change in her
employment. Crawford v. Carroll, 529 F.3d 961,970-71 (11th Cir. 2008) (“[W]e
require[ ] an employee to demonstrate she suffered a serious and material change
in the terms, conditions, or privileges of employment to show an adverse
employment action” (emphasis and quotation omitted)). It was merely a warning
that such behavior was unacceptable, but carried no disciplinary effect. DeBose
therefore failed to establish a prima facie case of discrimination. Maynard, 342
F.3d at 1289. The district court did not err in granting summary judgment to the
University with respect to that claim.
Concerning the failure-to-promote claim, even if DeBose made out a prima
facie case of discrimination, she has failed to rebut the University’s proffered nondiscriminatory reason for Hamilton’s appointment. The undisputed evidence
showed that Hamilton was highly qualified for the position, and Dosal, who made
the appointment, had received several complaints about DeBose’s professionalism
8

Case: 18-14637

Date Filed: 04/27/2020

Page: 9 of 20

from coworkers before the position even became available. DeBose has failed to
show that this explanation is pretextual. See City ofFairbum, 482 F.3d at 1309.
DeBose alternatively raises a disparate-impact discrimination claim, alleging
that the internal appointment of an employee rather than an open search
disadvantages minority candidates. The district court correctly found that she
failed to make a prima facie disparate-impact case because she had not supported
her allegations with any statistical evidence to demonstrate a discriminatory effect.
SeeE.E.O.C. v. Joe’s Stone Crab, Inc., 220 F.3d 1263, 1274-75 (11th Cir. 2000).
We agree, and affirm.
Nor can the failure to promote be considered retaliatory—DeBose did not
engage in any protected activity until after learning of Hamilton’s promotion.
DeBose learned of Hamilton’s promotion on July 15, 2014, and her first complaint
of discrimination was made July 28,2014. Therefore the promotion cannot have
been retaliation for DeBose’s protected activity.
Accordingly, we affirm the district court’s partial grant of summary
judgment to the University concerning DeBose’s race- and gender-discrimination
and retaliation claims stemming from the alleged failure to promote and written
reprimand.

9

Case: 18-14637

Date Filed: 04/27/2020

Page: 10 of 20

B
DeBose also brought a breach of contract claim against the University for
her termination, alleging that she was not given a required three months’ paid
notice of her termination. This claim is without merit, and we affirm the district
court’s grant of summary judgment to the University.
First, the record contains no evidence of any express employment contract.
Second, to the extent that any such contract existed, the University gave DeBose
three months’ notice. It informed her on May 19, 2015 that her employment would
not be renewed, effective August 19, 2019.
C
The district court also granted summaiy judgment to both defendants on
DeBose’s claims of tortious interference with business relationships. DeBose first
alleges that Ellucian interfered with her relationship with the University by
intentionally making false statements about her in its report in order to cause her
termination. Second, DeBose alleges that after her termination the University
tortiously interfered with her relationship with the University of North Florida,
claiming that she had received a job offer there which was rescinded based upon
Provost Wilcox’s poor reference. She did not, however, present any evidence that
she had in fact received such an offer, such as an affidavit from a prospective
supervisor at North Florida.
10

Case: 18-14637

Date Filed: 04/27/2020

Page: 11 of 20

To prove a claim for tortious interference, DeBose must show “(1) the
existence of a business relationship that affords the plaintiff existing or prospective
legal rights; (2) the defendant’s knowledge of the business relationship; (3) the
defendant’s intentional and unjustified interference with the relationship; and
(4) damage to the plaintiff.” Int 7 Sales & Serv., Inc. v. Austral Insulated Prods.,
Inc., 262 F.3d 1152,1154 (11th Cir. 2001).
With regard to the University, DeBose has failed to show any relationship
with the University of North Florida or damage from the rescission of an unproven
job offer. She presented no evidence that she had been offered employment there
or what Provost Wilcox said in the phone call with the UNF Provost, other than
Wilcox’s own account of the call. With respect to Ellucian, there was no evidence
in the record that it intentionally interfered with her employment at the University.
See Int’l Sales & Serv., Inc., 262 F.3d at 1154. DeBose’s testimony that Ellucian’s
consultant acted with hostility is insufficient to show intent, and her speculation is
insufficient to withstand summary judgment. See Marshall v. City of Cape Coral,
797 F.2d 1555,1559 (11th Cir. 1986).
Accordingly, we agree with the district court that summary judgment is
appropriate in favor of Defendants with regard to the tortious interference claims,
and affirm.

11

Case: 18-14637

Date Filed: 04/27/2020

Page: 12 of 20

D
Finally, the district court also granted summary judgment to defendants on
DeBose’s civil-conspiracy claim. She alleges that the University and Ellucian
conspired to terminate her in violation of Title VII and state law.
To prove a claim for civil conspiracy under Florida law, the plaintiff must
show: (1) the existence of an agreement between two or more parties; (2) to do an
unlawful act; (3) the doing of some overt act in furtherance of the conspiracy; and
(4) damages. United Techs. Corp. v. Mazer, 556 F.3d 1260, 1271 (11th Cir. 2009).
Because the record shows no evidence of any agreement between defendants
to do an unlawful act, DeBose failed to make a prima facie case. See id. DeBose’s
assertions to the contrary are based upon speculation and are not sufficient to
withstand summary judgment. See Marshall, 797 F.2d at 1559. The district court
correctly granted summary judgment on this claim, and we affirm.
Ill
DeBose’s remaining claims—that the University discriminated and retaliated
against her on the basis of race by terminating her and giving a bad reference in
violation of Title VII and state law—proceeded to trial. The jury found for her on
both claims, but the damages awarded for each claim diverged significantly.
Despite concluding that race was a motivating factor in her termination, the jury
also found that the University would have fired her even without taking race into
12

Case: 18-14637

Date Filed: 04/27/2020

Page: 13 of 20

account; accordingly, DeBose was not entitled to damages on her discrimination
claim. As to her retaliation claim, however, the jury found that DeBose had
engaged in protected activity and that the University took adverse employment
action against her because of that activity, and it awarded her damages in the
amount of S310,500.00.
DeBose then moved for attorney’s fees in the amount of $712,500.00 for
hours she spent litigating the case on her own behalf, costs in the amount of
$102,520.00, and front pay for five years in the amount of at least $170,000.00.
She submitted an affidavit as to her hourly rate and a one-page list of costs. The
district court denied DeBose’s request for attorney’s fees, concluding that a pro se
party cannot recover attorney’s fees for representing herself, even if she is a
licensed attorney. It also denied her request for costs, finding that she had failed to
provide sufficient information as to whether they were appropriately taxable
against the University. Her request for front pay was sent to a magistrate judge to
determine her annual salary, as DeBose presented no evidence at trial other than
her own testimony on that point.
DeBose now appeals the denial of the requested attorney’s fees and costs.
She also raises, for the first, time, fees that she paid to several attorneys before
becoming a pro se litigant.

13

Case: 18-14637

Date Filed: 04/27/2020

Page: 14 of 20

A court may, in its discretion, allow the prevailing party in a discrimination
suit to recover reasonable attorney’s fees as part of the costs of litigation. 42
U.S.C. § 2000e-5(k). A pro se plaintiff cannot recover attorney’s fees for
representing herself, even if she is a licensed attorney. See Kay v. Ehrler, 499 U.S.
432,435-38 (1991) (analyzing the similar attorney’s fees provision in 42 U.S.C.
§ 1988); Hensley v. Eckerhart, 461 U.S. 424,433 n. 7 (1983) (noting that an award
of attorney’s fees under §§ 1988 and 2000e-5 are governed by the same standards).
In addition to attorney’s fees, prevailing party may also recover the costs
enumerated in 28 U.S.C. § 1920. See Fed. R. Civ. P. 54(d). We have held,
however, that the party seeking costs and expenses must submit a request that
would enable the district court to determine an award. Loranger v. Stierheim, 10
F.3d 776, 784 (11th Cir. 1994).
Because she is a pro se litigant, DeBose is not entitled to attorney’s fees for
her own work. See Kay, 499 U.S. at 435-38. Although she claims on appeal that
she is entitled to attorneys’ fees for the work of her retained counsel prior to
proceeding pro se, she did not ask for those attorneys’ fees in the district court.
We will not consider the merits of issues not raised before the district court. Narey
v. Dean, 32 F.3d 1521,1526-27 (11th Cir. 1994).
DeBose’s costs were also not itemized sufficiently to permit a district court
to determine an award. She did not support the amount of costs requested with any
14

Case: 18-14637

Date Filed: 04/27/2020

Page: 15 of 20

evidence. We therefore affirm the district court’s refusal to allow DeBose to
recover. See Loranger, 10 F.3d at 784.
IV
The district court subsequently overturned the jury’s verdict on the
retaliation claim—granting the University’s post-trial motion for judgment as a
matter of law on the ground that DeBose had not presented sufficient evidence to
show a causal connection between her protected activities and the adverse
employment actions.
Judgment as a matter of law “is appropriate when a plaintiff presents no
legally sufficient evidentiary basis for a reasonable jury to find for h[er] on a
material element of h[er] cause of action.” Christopher v. Florida, 449 F.3d 1360,
1364 (11th Cir. 2006). This Court reviews de novo a district court’s grant of
judgment as a matter of law. Id.
In addition to establishing a statutorily protected activity and adverse
employment action, in order to prevail on a retaliation claim a Title VII plaintiff
must show a causal connection between the two events. Carroll, 529 F.3d at 970.
“Title VII retaliation claims require proof that the desire to retaliate was the but-for
cause of the challenged employment action.” Univ. of Tex. Sw. Med. Ctr. v.
Nassar, 570 U.S. 338, 352 (2013). “If there is a substantial delay between the
protected expression and the adverse action in the absence of other evidence
15

Case: 18-14637

Date Filed: 04/27/2020

Page: 16 of 20

tending to show causation, the complaint of retaliation fails as a matter of law.”
Higdon v. Jackson, 393 F.3d 1211,1220 (11th Cir. 2004). We have held that a
three-to-four-month delay is too large a gap, standing alone, to satisfy the
plaintiffs burden to prove causation. Thomas v. Cooper Lighting, Inc., 506 F.3d
1361,1364 (11th Cir. 2007).
DeBose’s earliest protected activity, an internal discrimination complaint,
was filed on July 28,2014. Her difficulties at work had been building for months
before this. In the spring and summer of 2014, multiple coworkers complained to
Dosal about DeBose’s professionalism and difficulty in collaborating, and Dosal
informed Provost Wilcox of these complaints. The Ellucian assessment, which
took place in April of 2015, was planned prior to DeBose’s first complaint.
After receiving the critical Ellucian report (dated May 7, 2015), and having
received complaints about DeBose the previous year, Provost Wilcox decided not
to renew DeBose’s employment in May of 2015—approximately five months after
DeBose’s EEOC complaint and ten months after her internal complaint. The
negative reference to the University of North Florida took place shortly thereafter.
In its judgment-as-a-matter-of-law order, the district court found that this
timeline did not give rise to proof of causation. We agree, and affirm. DeBose
presented no evidence from which a reasonable jury could conclude that her
protected activities—the complaints of discrimination—were the but-for cause of
16

Case: 18-14637

Date Filed: 04/27/2020

Page: 17 of 20

her termination and poor reference. See Nassar, 570 U.S. at 360. And, even
assuming causation, she also did not present any evidence directly rebutting the
University’s proffered nondiscriminatory reason. See City ofFairburn, 482 F.3d at
1309.

In addition to opposing the University’s motion for judgment as a matter of
law, DeBose also filed a posttrial motion for sanctions, arguing that the University
had intentionally destroyed her personnel files and lied about their contents,
contending they would have contained an employment contract. We agree with the
district court that she failed to produce any evidence that the University destroyed
evidence or that she had an employment contract. On the contrary, the record
evidence showed that the University had not used employment contracts since
2005. We therefore affirm the denial of sanctions.
V
Having affirmed the district court’s award of judgment as a matter of law to
the University on the retaliation claim, we turn to DeBose’s motion for front pay.
As the prevailing party following the jury verdict, DeBose was, at least
presumptively, entitled to front pay. See E.E.O.C. v. W&O, Inc., 213 F.3d 600,
619 (11th Cir. 2000) (“In addition to back pay, prevailing Title VII plaintiffs are
presumptively entitled to either reinstatement or front pay.” (quotation omitted)).
17

Case: 18-14637

Date Filed: 04/27/2020

Page: 18 of 20

Following the district court’s judgment-as-a-matter-of-law order, though, she is no
longer the prevailing party on her retaliation claim. Accordingly, the district court
did not err in denying DeBose’s motion for front pay on this basis.
Nor is DeBose entitled to front pay on the basis of her discrimination claim.
Although the jury found that DeBose had proven that the University took her race
into account when it terminated her, the jury also found that the University had
proved its “same decision” affirmative defense. When a defendant proves a “same
decision” defense, the court may only grant declaratory relief, injunctive relief, and
attorney’s fees and costs. See 42 U.S.C. §2000e-5(g)(2)(B)(i); see also Quigg v.
Thomas Cty. School Dist, 814 F.3d 1227, 1239 n.9 (11th Cir. 2016) (noting that
the “same decision” defense allows an employer to avoid damages and certain
forms of equitable relief in a Title VII case). Front pay is a form of equitable
relief. See Ramsey v. Chrysler First, Inc., 861 F.2d 1541, 1545 (11th Cir. 1988).
We therefore affirm the district court’s denial of front pay on this basis as well.
VI
Finally, we turn to DeBose’s motion for a new trial. She argues that the
court substituted its own credibility determinations for those of the jury when
granting the University’s motion for judgment as a matter of law, and that a new
trial should have been granted. She also argues that the court erred in denying her

18

Case: 18-14637

Date Filed: 04/27/2020

Page: 19 of 20

continuance of trial, which left her with inadequate time to prepare for trial, and by
denying reopening of discovery.
To the extent that DeBose’s motion for a new trial challenged the entry of
judgment as a matter of law on her retaliation claim, her arguments are without
merit, as already explained.
To the extent that it challenged the jury’s discrimination verdict, her motion
for a new trial was untimely. After the jury’s verdict, the district court entered an
amended judgment on October 5,2018. Although this judgment was later vacated
and amended to reflect the court’s subsequent grant ofjudgment as a matter of law
on DeBose’s retaliation claim, the verdict as to her discrimination claim was not
amended and went unchallenged until February 24, 2019, when DeBose filed the
instant motion. Thus, her motion for a new trial as to this claim was filed well
outside the 28-day time frame provided for in Federal Rule of Civil Procedure
59(b) and is untimely.
And as to the court’s refusal to continue the trial and/or reopen discovery,
none of DeBose’s notices of appeal or amended notices of appeal challenge this
ruling. It is thus not properly before this Court on appeal. See Fed. R. App. P.
3(c)(1)(B); White v. State Farm Fire and Cas. Co., 664 F.3d 860, 863-64 (11th
Cir. 2011).

19

Case: 18-14637

Date Filed: 04/27/2020

Page: 20 of 20

We therefore affirm the denial of the motion for new trial and the denial of
DeBose’s motion for continuance and reopening of discovery.
AFFIRMED.

20

%
I

V

I
No. 18-14637
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

DeBose v. USF Bd. of Trs.
Decided Apr 27,2020

No. 18-14637 No. 19-10865
04-27-2020
ANGELA W. DEBOSE, Plaintiff-Appellant, v. USF BOARD OF TRUSTEES, et al., Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES, ELLUC1AN COMPANY, L.P., DefendantsAppellees.
PER CURIAM

2

[DO NOT PUBLISH] Non-Argument Calendar D.C. Docket No. 8:15-cv-02787-EAK-AEP Appeals from the
United States District Court for the Middle District of Florida Before JILL PRYOR, NEWSOM, and
BRANCH, Circuit Judges. PER CURIAM: *2
Following her termination by the University of South Florida, Angela DeBose, an African American woman,
filed suit under Title VII, 42 U.S.C. § 2000e et seq. ("Title VII"), and the Florida Civil Rights Act, Fla. Stat. §
760.01 et seq. ("FCRA"), against both the University and Ellucian Company, L.P., a software developer whose
products are used for academic and administrative recordkeeping. The district court granted summary judgment
to Defendants on several counts, including all counts against Ellucian. After a jury found for DeBose on the
remaining counts, the court granted j udgment as a matter of law to Defendants and denied DeBose's post-trial
motions. After review of the complicated procedural posture and record, we affirm the district court's
disposition.

I

3

DeBose worked as the University Registrar at the University of South Florida. Her position was renewed
annually. In 2014, the University began receiving complaints from other employees that DeBose was difficult
to collaborate with and unprofessional. On July 15,2014, DeBose's supervisor, Paul Dosal, informed her that
he had promoted another University employee, Billie Jo Hamilton, to an open Assistant Vice President role.
Two weeks later, DeBose filed an internal complaint alleging discrimination, and a second complaint the
following month. In January 2015, she filed a discrimination complaint with the *3 EEOC. In February, Dosal
issued DeBose a written reprimand for calling a coworker a "little girl" during a meeting.
During this same timeframe, the University was implementing a new software program from Ellucian, Degree
Works, which helps students and faculty monitor progress toward graduation. As part of its implementation, an
Ellucian consultant met with DeBose in April 2015 and issued a report criticizing the Registrar's
implementation of the software, saying the office was uncollaborative and resistant to change. After receiving
the Ellucian report, on May 19, 2015, University Provost Ralph Wilcox gave DeBose three months' notice that

ills casetext

1

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

her employment would not be renewed in August 2015. Wilcox subsequently received a call from the Provost
of the University of North Florida asking for his professional opinion of DeBose—Wilcox repeated the
Ellucian report's conclusion that DeBose was uncollaborative and resistant to change.

4

These events—the promotion of another employee, the written reprimand, her termination, and the bad
reference—formed the basis of DeBose's complaint. She accused the University of race and gender
discrimination and retaliation in violation of Title Vll and state law based on its failure to promote, termination,
and bad job reference, as well as breach of contract for the termination and tortious interference in a business
relationship for the bad reference. She also accused *4 Ellucian of tortious interference in her business
relationship with the University, and accused both Defendants of a civil conspiracy to violate her rights.
Following discovery, the University and Ellucian moved for summary judgment. The district court granted
defendants summary judgment on all counts except the discrimination and retaliation claims associated with
DeBose's termination and bad reference by the University. Those claims proceeded to trial. Considering the
discrimination claim, the jury found that race was a motivating factor in the Provost's decision not to renew the
employment contract, but that DeBose would have been terminated regardless of race and was therefore not
entitled to damages. As to her retaliation claim, the jury found that the University had taken adverse
employment action against DeBose because of her protected activity, and awarded $310,500 in damages.
Following trial, DeBose moved for attorney's fees, costs, and front pay. The district court denied her request for
fees, because pro se litigants are not entitled to recover attorney fees, and denied her request for costs because
she had not provided sufficient information on them. It scheduled an evidentiary hearing to establish a frontpay amount, to which DeBose was presumptively entitled as the prevailing party.

5

The district court subsequently granted the University's motion for judgment as a matter of law and overturned
the jury's verdict on the retaliation claim, finding *5 insufficient evidence from which a reasonable jury could
find causation. The district court concluded that DeBose had failed as a matter of law to establish causation, a
required element of a retaliation claim. Because DeBose was no longer the prevailing party, the district court
denied her request for a front-pay award. It also denied a motion for sanctions DeBose had filed in the interim.
DeBose then filed her own motion for a new trial, which the district court denied.
* * *
We are therefore confronted on appeal by DeBose's challenge to the district court's orders: (1) granting in part
and denying in part the University’s motion for summary judgment and granting Ellucian's motion for summary
judgment; (2) denying her post-trial motion for attorney's fees and costs; (3) granting the University's post-trial
motion for judgment as a matter of law and denying her motion for sanctions; (4) denying her motion for front
pay; and (5) denying her motion for a new trial.

II
After a de novo review of the evidence1 in the light most favorable to DeBose as the nonmoving party, Moton
6

v. Cowart, 631 F.3d 1337, 1341 (11th Cir. *6 2011), we affirm the district court's grant of summary judgment to
Ellucian on each count against it, and to the University on several counts.
l DeBose also challenges the district court's refusal to consider 550 unauthenticated documents. She is correct that

Federal Rule of Civil Procedure 56 does not require authentication of documents at the summary-judgment stage, and
that neither defendant objected to the documents as inadmissible. The court's error in excluding these documents,
however, did not affect DeBose's substantial rights, as a review of the documents shows that they would not have

| casetext

2

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

affected the outcome. Any error was therefore harmless. See Fed. R. Civ. P. 61. Although DeBose claims that "the
outcome of the case would have been substantially different" if the documents were considered, she does not cite any
specific document to substantiate that claim.-------

A
The district court granted the University's summary judgment motion with regard to DeBose's race- and
gender-discrimination and retaliation claims stemming from the alleged failure to promote her and the written
reprimand she received after insulting a coworker.
Title Vll and the FCRA prohibit an employer from discharging an employee because of the employee's sex or
race. 42 U.S.C. § 2000e-2(a)(l); Fla. Stat. 760.10(l)(a). Title VII and the FCRA also prohibit an employer from
retaliating against an employee for protesting allegedly unlawful discriminatory practices. 42 U.S.C. § 2000e3(a); Fla. Stat. 760.10(7). Claims under Title VII and the FCRA are analyzed under the same framework and do
not require separate analysis. Alvarez v. Royal Atl. Developers, Inc., 610 F.3d 1253,1271 (11th Cir. 2010).

7

"To prevail on a claim for discrimination under Title VII based on circumstantial evidence, [DeBose] must
show that: (1) [s]he is a member of a protected class; (2) [s]he was qualified for the position; (3) [s]he suffered
an adverse employment action; and (4) [s]he was replaced by a person outside h[er] *7 protected class or was
treated less favorably than a similarly-situated individual outside h[er] protected class." Maynard v. Bd. of
Regents, 342 F.3d 1281, 1289 (11th Cir. 2003).
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973), provides the archetypal burden-shifting framework
for evaluating a Title Vll case based on circumstantial evidence. Id. at 802-04. If an employee successfully
makes a prima facie case of discrimination or retaliation, the burden shifts to the employer to provide a
legitimate, nondiscriminatory or non-retaliatory reason for the adverse employment action. Alvarez, 610 F.3d at
1264. The employer's burden is "exceedingly light" and is one of production only; "the employer need not
persuade the court that it was actually motivated by the proffered reasons." Tipton v. Canadian Imperial Bank
ofCommerce, 872 F.2d 1491, 1495 (11th Cir. 1989) (quotations omitted).

8

If the employer meets this burden, the burden shifts back to the employee to produce evidence that the
employer's proffered reasons are merely a pretext for discrimination. Alvarez, 610 F.3d at 1264. To show
pretext, the employee must specifically respond to the employer's explanation and produce evidence directly
rebutting the employer's proffered nondiscriminatory reason. Crawford v. City ofFairburn, 482 F.3d 1305,
1309 (11th Cir. 2007). This Court does not inquire into whether the employer's reason for the adverse
employment action "is a correct *8 one, but whether it is an honest one." Rojas v. Florida, 285 F.3d 1339, 1342
(11th Cir. 2002) ("We are not in the business of adjudging whether employment decisions are prudent or fair,
instead, our sole concern is whether unlawful discriminatory animus motivates a challenged employment
decision." (quotation omitted)).
We can quickly dispense with the written-reprimand claim. DeBose offered no evidence that Dosal's reprimand
caused any serious or material change in her employment. Crawford v. Carroll, 529 F.3d 961, 970-71 (11th Cir.
2008) ("[W]e require[ ] an employee to demonstrate she suffered a serious and material change in the terms,
conditions, or privileges of employment to show an adverse employment action" (emphasis and quotation
omitted)). It was merely a warning that such behavior was unacceptable, but carried no disciplinary effect.
DeBose therefore failed to establish a prima facie case of discrimination. Maynard, 342 F.3d at 1289. The
district court did not err in granting summary judgment to the University with respect to that claim.

casetext

3

DeBose v. USF Bd. of Trs.

9

No. 18-14637 (11th Cir. Apr. 27, 2020)

Concerning the failure-to-promote claim, even if DeBose made out a prima facie case of discrimination, she
has failed to rebut the University's proffered non-discriminatory reason for Hamilton's appointment. The
undisputed evidence showed that Hamilton was highly qualified for the position, and Dosal, who made the
appointment, had received several complaints about DeBose's professionalism *9 from coworkers before the
position even became available. DeBose has failed to show that this explanation is pretextual. See City of
Fairburn, 482 F.3d at 1309.
DeBose alternatively raises a disparate-impact discrimination claim, alleging that the internal appointment of
an employee rather than an open search disadvantages minority candidates. The district court correctly found
that she failed to make a prima facie disparate-impact case because she had not supported her allegations with
any statistical evidence to demonstrate a discriminatory effect. See E.E.O.C. v. Joe's Stone Crab, Inc., 220 F.3d
1263, 1274-75 (11th Cir. 2000). We agree, and affirm.
Nor can the failure to promote be considered retaliatory—DeBose did not engage in any protected activity until
after learning of Hamilton's promotion. DeBose learned of Hamilton's promotion on July 15, 2014, and her first
complaint of discrimination was made July 28,2014. Therefore the promotion cannot have been retaliation for
DeBose's protected activity.

Accordingly, we affirm the district court's partial grant of summary judgment to the University concerning
DeBose's race- and gender-discrimination and retaliation claims stemming from the alleged failure to promote
10 and written reprimand. *10

B
DeBose also brought a breach of contract claim against the University for her termination, alleging that she was
not given a required three months' paid notice of her termination. This claim is without merit, and we affirm the
district court's grant of summary judgment to the University.
First, the record contains no evidence of any express employment contract. Second, to the extent that any such
contract existed, the University gave DeBose three months' notice. It informed her on May 19,2015 that her
employment would not be renewed, effective August 19,2019.

c
The district court also granted summary judgment to both defendants on DeBose's claims of tortious
interference with business relationships. DeBose first alleges that Ellucian interfered with her relationship with
the University by intentionally making false statements about her in its report in order to cause her termination.
Second, DeBose alleges that after her termination the University tortiously interfered with her relationship with
the University of North Florida, claiming that she had received a job offer there which was rescinded based
upon Provost Wilcox's poor reference. She did not, however, present any evidence that she had in fact received
ll such an offer, such as an affidavit from a prospective supervisor at North Florida. * ll
To prove a claim for tortious interference, DeBose must show "(1) the existence of a business relationship that
affords the plaintiff existing or prospective legal rights; (2) the defendant's knowledge of the business
relationship; (3) the defendant's intentional and unjustified interference with the relationship; and (4) damage to
the plaintiff." Int'l Sales & Serv., Inc. v. Austral Insulated Prods., Inc., 262 F.3d 1152, 1154 (11th Cir. 2001).
With regard to the University, DeBose has failed to show any relationship with the University of North Florida
or damage from the rescission of an unproven job offer. She presented no evidence that she had been offered
employment there or what Provost Wilcox said in the phone call with the UNF Provost, other than Wilcox's

casetext

4

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

own account of the call. With respect to Ellucian, there was no evidence in the record that it intentionally
interfered with her employment at the University. See Int'l Sales & Serv., Inc., 262 F.3d at 1154. DeBose's
testimony that Ellucian's consultant acted with hostility is insufficient to show intent, and her speculation is
insufficient to withstand summary judgment. See Marshall v. City of Cape Coral, 797 F.2d 1555, 1559 (11th
Cir. 1986).
Accordingly, we agree with the district court that summary judgment is appropriate in favor of Defendants with
12 regard to the tortious interference claims, and affirm. *12

D
Finally, the district court also granted summary judgment to defendants on DeBose's civil-conspiracy claim.
She alleges that the University and Ellucian conspired to terminate her in violation of Title Vll and state law.
To prove a claim for civil conspiracy under Florida law, the plaintiff must show: (1) the existence of an
agreement between two or more parties; (2) to do an unlawful act; (3) the doing of some overt act in
furtherance of the conspiracy; and (4) damages. United Techs. Corp. v. Mazer, 556 F.3d 1260, 1271 (11th Cir.
2009).
Because the record shows no evidence of any agreement between defendants to do an unlawful act, DeBose
failed to make a prima facie case. See id. DeBose's assertions to the contrary are based upon speculation and
are not sufficient to withstand summary judgment. See Marshall, 797 F.2d at 1559. The district court correctly
granted summary judgment on this claim, and we affirm.

Ill
DeBose's remaining claims—that the University discriminated and retaliated against her on the basis of race by
terminating her and giving a bad reference in violation of Title VII and state law—proceeded to trial. The jury
found for her on both claims, but the damages awarded for each claim diverged significantly. Despite
concluding that race was a motivating factor in her termination, the jury also found that the University would
13 have fired her even without taking race into *13 account; accordingly, DeBose was not entitled to damages on
her discrimination claim. As to her retaliation claim, however, the jury found that DeBose had engaged in
protected activity and that the University took adverse employment action against her because of that activity,
and it awarded her damages in the amount of $310,500.00.
DeBose then moved for attorney's fees in the amount of $712,500.00 for hours she spent litigating the case on
her own behalf, costs in the amount of $102,520.00, and front pay for five years in the amount of at least
$170,000.00. She submitted an affidavit as to her hourly rate and a one-page list of costs. The district court
denied DeBose's request for attorney's fees, concluding that a pro se party cannot recover attorney's fees for
representing herself, even if she is a licensed attorney. It also denied her request for costs, finding that she had
failed to provide sufficient information as to whether they were appropriately taxable against the University.
Her request for front pay was sent to a magistrate judge to determine her annual salary, as DeBose presented no
evidence at trial other than her own testimony on that point.
DeBose now appeals the denial of the requested attorney's fees and costs. She also raises, for the first, time,
14 fees that she paid to several attorneys before becoming a pro se litigant. * 14
A court may, in its discretion, allow the prevailing party in a discrimination suit to recover reasonable attorney's
fees as part of the costs of litigation. 42 U.S.C. § 2000e-5(k). A pro se plaintiff cannot recover attorney's fees
for representing herself, even if she is a licensed attorney. See Kay v. Ehrler, 499 U.S. 432,435-38 (1991)

H||P casetext

5

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

(analyzing the similar attorney's fees provision in 42 U.S.C. § 1988); Hensley v. Eckerhart, 461 U.S. 424, 433
n. 7 (1983) (noting that an award of attorney's fees under §§ 1988 and 2000e-5 are governed by the same
standards), in addition to attorney's fees, prevailing party may also recover the costs enumerated in 28 U.S.C. §
1920. See Fed. R. Civ. P. 54(d). We have held, however, that the party seeking costs and expenses must submit
a request that would enable the district court to determine an award. Loranger v. Stierheim, 10 F.3d 776, 784
(11th Cir. 1994).
Because she is a pro se litigant, DeBose is not entitled to attorney's fees for her own work. See Kay, 499 U.S. at
435-38. Although she claims on appeal that she is entitled to attorneys' fees for the work of her retained counsel
prior to proceeding pro se, she did not ask for those attorneys' fees in the district court. We will not consider the
merits of issues not raised before the district court. Narey v. Dean, 32F.3d 1521, 1526-27 (11th Cir. 1994).
DeBose's costs were also not itemized sufficiently to permit a district court to determine an award. She did not
15 support the amount of costs requested with any *15 evidence. We therefore affirm the district court's refusal to
allow DeBose to recover. See Loranger, 10 F.3d at 784.

IV
The district court subsequently overturned the jury's verdict on the retaliation claim—granting the University's
post-trial motion for judgment as a matter of law on the ground that DeBose had not presented sufficient
evidence to show a causal connection between her protected activities and the adverse employment actions.
Judgment as a matter of law "is appropriate when a plaintiff presents no legally sufficient evidentiary basis for
a reasonable jury to find for h[er] on a material element of h[er] cause of action." Christopher v. Florida, 449
F.3d 1360, 1364 (11th Cir. 2006). This Court reviews de novo a district court's grant ofjudgment as a matter of
law. Id.
In addition to establishing a statutorily protected activity and adverse employment action, in order to prevail on
a retaliation claim a Title Vll plaintiff must show a causal connection between the two events. Carroll, 529
F.3d at 970. "Title VII retaliation claims require proof that the desire to retaliate was the but-for cause of the
challenged employment action." Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 352 (2013). "if there is a
16 substantial delay between the protected expression and the adverse action in the absence of other evidence *16
tending to show causation, the complaint of retaliation fails as a matter of law." Higdon v. Jackson, 393 F.3d
1211, 1220 (11th Cir. 2004). We have held that a three-to-four-month delay is too large a gap, standing alone, to
satisfy the plaintiffs burden to prove causation. Thomas v. Cooper Lighting, Inc., 506 F.3d 1361, 1364 (11th
Cir. 2007).
DeBose's earliest protected activity, an internal discrimination complaint, was filed on July 28,2014. Her
difficulties at work had been building for months before this. In the spring and summer of 2014, multiple
coworkers complained to Dosal about DeBose's professionalism and difficulty in collaborating, and Dosal
informed Provost Wilcox of these complaints. The Ellucian assessment, which took place in April of 2015, was
planned prior to DeBose's first complaint.
After receiving the critical Ellucian report (dated May 7,2015), and having received complaints about DeBose
the previous year, Provost Wilcox decided not to renew DeBose's employment in May of 2015—approximately
five months after DeBose's EEOC complaint and ten months after her internal complaint. The negative
reference to the University of North Florida took place shortly thereafter.

casetext

6

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

In its judgment-as-a-matter-of-law order, the district court found that this timeline did not give rise to proof of
causation. We agree, and affirm. DeBose presented no evidence from which a reasonable jury could conclude
17 that her protected activities—the complaints of discrimination—were the but-for cause of *17 her termination
and poor reference. See Nassar, 570 U.S. at 360. And, even assuming causation, she also did not present any
evidence directly rebutting the University's proffered nondiscriminatory reason. See City ofFairbum, 482 F.3d
at 1309.
* * %
In addition to opposing the University's motion for judgment as a matter of law, DeBose also filed a posttrial
motion for sanctions, arguing that the University had intentionally destroyed her personnel files and lied about
their contents, contending they would have contained an employment contract. We agree with the district court
that she failed to produce any evidence that the University destroyed evidence or that she had an employment
contract. On the contrary, the record evidence showed that the University had not used employment contracts
since 2005. We therefore affirm the denial of sanctions.

V
Having affirmed the district court's award ofjudgment as a matter of law to the University on the retaliation
claim, we turn to DeBose's motion for front pay.
As the prevailing party following the jury verdict, DeBose was, at least presumptively, entitled to front pay. See
E.E.O.C. v. W&O, Inc., 213 F.3d 600,619 (11th Cir. 2000) ("In addition to back pay, prevailing Title VTI
18 plaintiffs are presumptively entitled to either reinstatement or front pay." (quotation omitted)). *18 Following
the district court's judgment-as-a-matter-of-law order, though, she is no longer the prevailing party on her
retaliation claim. Accordingly, the district court did not err in denying DeBose's motion for front pay on this
basis.
Nor is DeBose entitled to front pay on the basis of her discrimination claim. Although the jury found that
DeBose had proven that the University took her race into account when it terminated her, the jury also found
that the University had proved its "same decision" affirmative defense. When a defendant proves a "same
decision" defense, the court may only grant declaratory relief, injunctive relief, and attorney's fees and costs.
See 42 U.S.C. §2000e-5(g)(2)(B)(i); see also Quiggv. Thomas Cty. School Dist., 814 F.3d 1227, 1239 n.9 (11th
Cir. 2016) (noting that the "same decision" defense allows an employer to avoid damages and certain forms of
equitable relief in a Title VII case). Front pay is a form of equitable relief. See Ramsey v. Chrysler First, Inc.,
861 F.2d 1541, 1545 (11th Cir. 1988). We therefore affirm the district court's denial of front pay on this basis as
well.

VI
Finally, we turn to DeBose's motion for a new trial. She argues that the court substituted its own credibility
determinations for those of the jury when granting the University's motion for judgment as a matter of law, and
19 that a new trial should have been granted. She also argues that the court erred in denying her * 19 continuance of
trial, which left her with inadequate time to prepare for trial, and by denying reopening of discovery.
To the extent that DeBose's motion for a new trial challenged the entry ofjudgment as a matter of law on her
retaliation claim, her arguments are without merit, as already explained.

^ casetext

7

DeBose v. USF Bd. of Trs.

No. 18-14637 (11th Cir. Apr. 27, 2020)

To the extent that it challenged the jury's discrimination verdict, her motion for a new trial was untimely. After
the jury's verdict, the district court entered an amended judgment on October 5,2018. Although this judgment
was later vacated and amended to reflect the court's subsequent grant ofjudgment as a matter of law on
DeBose's retaliation claim, the verdict as to her discrimination claim was not amended and went unchallenged
until February 24,2019, when DeBose filed the instant motion. Thus, her motion for a new trial as to this claim
was filed well outside the 28-day time frame provided for in Federal Rule of Civil Procedure 59(b) and is
untimely.
And as to the court's refusal to continue the trial and/or reopen discovery, none of DeBose's notices of appeal or
amended notices of appeal challenge this ruling. It is thus not properly before this Court on appeal. See Fed. R.
20 App. P. 3(c)(1)(B); White v. State Farm Fire and Cas. Co., 664 F.3d 860, 863-64 (11th Cir. 2011). *20
We therefore affirm the denial of the motion for new trial and the denial of DeBose's motion for continuance
and reopening of discovery.
AFFIRMED.

casetext

8

' i
i

Case: 18-14637

CO

Date Filed: 09/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS

I

FOR THE ELEVENTH CIRCUIT
No. 18-14637-DD
ANGELA W. DEBOSE,
Plaintiff - Appellant,
versus
USF BOARD OF TRUSTEES, et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
Defendant - Appellee,
ELLUCIAN COMPANY, L.P.,
Defedant-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONfSl FOR REHEARING AND PETITION!SI FOR REHEARING EN BANC
Before JELL PRYOR, NEWSOM, and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

* ,

USCA11 Case: 18-14637

I

;

Date Filed: 01/02/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS

<

FOR THE ELEVENTH CIRCUIT
&

No. 18-14637-DD; 19-10865-DD
■

ANGELA W.DEBOSE,
Plaintiff - Appellant, '
versus
USFBOARD OF TRUSTEES,et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
ELLUCIAN COMPANY, L.P.,
Defendants - Appellees.

Appeals from the United States District Court
for the Middle District of Florida
ORDER:
“Appellant’s Motion to Consolidate or Alternatively Amend Reply Briefs” is
GRANTED, IN PART, to the extent that the Clerk is DIRECTED to accept the second reply
attached to Appellant’s motion, in addition to the reply brief received by the Court on October 4,
2019.

UNITED STATES CIRCUIT JUDGE

USCA11 Case: 18-14637

Date Filed: 06/03/2019

Page: 1 of 1

W
IN THE UNITED STATES COURT OF APPEALS

I

i <

FOR THE ELEVENTH CIRCUIT

i &

Nos. 18-14637-DD; 19-10865-DD

'5t*

i.

ANGELA W. DEBOSE,
Plaintiff - Appellant,
versus
USE BOARD OF TRUSTEES, et al.,
Defendants,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES,
ELLUCIAN COMPANY, L.P.,
Defendants - Appellees.

Appeals from the United States District Court
for the Middle District of Florida
ORDER:
Before the Court are (1) “Appellant’s Objection to Clerical Consolidation;’’ and (2)
“Appellant’s Request for Judicial Notice.”
The Court has reviewed “Appellant’s Objection to Clerical Consolidation.” Case nos. 1814637 and 19-10865 remain CONSOLIDATED.
In light of the consolidation, “Appellant’s Request for Judicial Notice,” filed in case ho.
18-14637, is DENIED AS UNNECESSARY.
%XITED STATBSCIRCUIT JUDGE

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 1 of 15 PagelD 10209

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA w___
TAMPA DIVISION
ANGELA W. DEBOSE,

A-6
y

PlaintifF,
Case No.: 8:15-cv-2787-EAK-AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD
OF
TRUSTEES
AND
ELLUCIAN COMPANY, L.P.,
Defendants.
ORDER

Plaintiff Angela DeBose moves to amend the judgment or, alternatively, for a
new trial. (Doc. 551). Defendant University of South Florida Board of Trustees (“the
Board”) opposes. (Doc. 565). The Court will deny the motion.
I.

Background

Since the inception of this litigation, DeBose has alleged the Board retaliated
against her because she filed internal complaints of discrimination with the University
of South Florida (“USF”), charges of discrimination with the Equal Employment
Opportunity Commission (“EEOC”), and a civil action in this Court seeking a
preliminary injunction against the Board. (Doc. 45 at 1(147). DeBose has also alleged
three, discrete adverse employment actions taken by the Board in retaliation for her
protected activity: (1) DeBose’s supervisor, Paul Dosal, denied DeBose a promotion
to the position of Assistant Vice President for Enrollment Planning and Management
(“AVP EPM”); (2) USF’s Provost, Ralph Wilcox, discharged DeBose’s employment;

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 2 of 15 PagelD 10210

Case No.: 8:15-cv-2787-EAK-AEP
and (3) Wilcox provided a negative employment reference to University of North
Florida’s Provost, Earle Traynham. Id. at 1fl48.
At summary judgment, the Court dismissed for lack of causation DeBose’s
claim that she was denied a promotion to AVP EPM in retaliation for her protected
activity. (Doc. 210 at 18-21). However, the Court permitted DeBose’s retaliation
claims based on Wilcox’s discharge of DeBose’s employment and negative
employment reference to Traynham to proceed to trial. Id.
In their joint pretrial statement, DeBose and the Board represented that the only
issues of fact that remained to be litigated with respect to DeBose’s retaliation claims
were (1) whether the Board intentionally retaliated against DeBose because of her
protected activity by discharging her employment, and (2) whether the Board
intentionally retaliated against DeBose because of her protected activity by providing
a negative employment reference to Traynham. (Doc. 361 at 25). Also, in describing
the nature of die action, DeBose and the Board explained, “This is an action against
[the Board] for . . . alleged retaliation based on termination/non-reappointment as
Registrar and a reference to [Traynham.]” Ids. at 1-2.
At trial, DeBose introduced evidence that (1) in July and August of 2014,
respectively, she filed internal EthicsPoint and DIEO1 complaints with USF alleging
that she had been subjected to unlawful discrimination, (2) in December of 2014, site
filed a charge of discrimination with the EEOC, and (3) on February 4,2015, she filed

1

«

DIEO” refers to USF’s Office of Diversity, Inclusion, and Equal Opportunity.

2

Case 8:15-CV-02787-EAK-AEP Document 571 Filed 04/24/19 Page 3 of 15 PagelD 10211
Case No.: 8:15-cv-2787-EAK-AEP
a civil injunction action in this Court seeking to preliminarily enjoin the Board from
discriminating against her and discharging her employment. In addition, DeBose
introduced evidence that (1) Wilcox discharged her employment on May 19, 2015,
and (2) Wilcox gave her a negative employment reference during a telephone
conversation with Traynham on May 26, 2019. The Court’s instructions to the jury
were consistent with the evidence introduced at trial. (Doc. 470 at 15-16) (“[DeBose]
claims that [the Board] discharged her and gave a negative employment reference to
[Tyanham] because [DeBose] filed a charge of discrimination with the [EEOC], filed
a petition for a preliminary injunction [in this Court], and filed internal complaints of
race discrimination with [USF].”). Although given three opportunities to do so,
DeBose never objected to any of the Court’s retaliation instructions or requested
different or additional instructions. (Docs. 387,434,453).
After a tried on the merits, the jury returned a verdict in favor of DeBose and
against the Board on DeBose’s race discrimination and retaliation claims. (Doc. 471).
However, the jury found for the Board on its “same decision” affirmative defense,
precluding an award of money damages on DeBose’s discrimination claim. Id. The
jury awarded DeBose $310,500 on her retaliation claim. Id
The Board subsequently filed its renewed motion for judgment as a matter of
law, raising several arguments in support. (Doc. 504). Upon review, the Court
determined that DeBose failed to introduce evidence sufficient to convince a
reasonable jury that her protected activity was the but-for cause of the Board’s adverse

3

Case 8:15-CV-02787-EAK-AEP Document 571 Filed 04/24/19 Page 4 of 15 PagelD 10212

Case No.: 8:15-cv-2787-EAK-AEP
employment action,2 granted the Board’s renewed motion for judgment as a matter of
law, and reversed the jury’s verdict on DeBose’s retaliation claim. (Doc. 548 at 4-8).
The Court reasoned that, based on binding Eleventh Circuit precedent, the 104 days
between DeBose’s civil injunction action (i.e., DeBose’s most recent protected activity)
and Wilcox’s decision to discharge DeBose’s employment (i.e., the earlier of the
Board’s adverse employment actions) was, without more, insufficient as a matter of law
to convince a reasonable jury that DeBose’s protected activity was the but-for cause of
the Board’s adverse employment action. Id The same day, the Clerk entered an

2 In its prior order, the Court couched its causation analysis in terms of DeBose’s pritnafade burden
to establish a causal connection between her protected activity and the Board’s adverse employment
action. (Doc. 548 at 4-8). However, because the Board countered with its own evidence that it
legitimately discharged DeBose based on findings in the Ellucian Report, whether DeBose established
a pritnafade case of retaliation “is no longer relevant.” Combs v. Plantation Patterns. 106 F.3d 1519,
1539 n. 11 (11th Cir. 1997) (“When the trier of fact has before it all the evidence needed to decide the
ultimate issue of whether the defendant intentionally discriminated against die plaintiff, the question
of whether the plaintiffproperly made out a pritnafade case is no longer relevant. ”) (internal quotations
and citation omitted). Nonetheless, the lens through which the Court examines causation is of no
moment because the plaintiff in a Title VII retaliation case always carries the ultimate burden of
proving that the defendant wouldn’t have taken the adverse employment action but for the plaintiffs
protected activity. See Smith v. City of Fort Pierce. Fla.. 565 F. App’x 774, 779 (11th Cir. 2014)
(“[E]ven assuming that [the appellant] could establish a pritnafade case ... [her] retaliation claim still
fails because she cannot establish that her alleged protected activity was the but-for cause of her
termination.”) (internal quotations and citation omitted); Whitworth v. SunTrust Banks. Inc.. No.
1:16-cv-325-ODE-CMS, 2018 WL 1634301, at *10 (N.D. Ga. Mar. 30, 2018), as amended (Apr. 3,
2018) (explaining, in a Title VII retaliation case, “[W]hether but-for causation [is] examined in the
primafade case stage, pretext stage, or as its own additional element, it must be examined closely by
the court.”); Canty-Aaron v. Bibb Cntv. Sch. Dist.. No. 5:14-cv-300-CAR, 2016 WL 3876437, at *9
(M.D. Ga. July 15, 2016) (explaining, in a Title VII retaliation case, the plaintiff has the “ultimate
burden” of proving “but-for causation”). See also Sims v. MVM. Inc.. 704 F.3d 1327,1332 (11th Cir.
2013) (reconciling “but-for” causation and the McDonnell Pnuplas framework in Age Discrimination
and Employment Act case and affirming summary judgment where the appellant could not establish
that discriminatory animus was the but-for cause of his termination). Thus, the issue here was - and
remains - whether DeBose introduced evidence sufficient for a reasonable jury to find that the Board
wouldn’t have taken adverse employment action against DeBose but for her protected activity.

4

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 5 of 15 PagelD 10213

Case No.: 8:15-cv-2787-EAK-AEP
amended judgment in favor of the Board and against DeBose on DeBose’s retaliation
claim. (Doc. 549).
IL

Legal Standard
Rule 59 of the Federal Rules of Civil Procedure permits the filing of a motion

to alter or amend a judgment after its entry. See Fed. R. Civ. P. 59(e). “The only
grounds for granting a [Rule 59(e)] motion are newly-discovered evidence or manifest
errors of law or fact.” Arthur v. King. 500 F.3d 1335, 1343 (11th Cir. 2007) (per
curiam) (quoting In re Kellogg. 197 F.3d 1116,1119 (11th Cir. 1999)).
Alternatively, Rule 59 permits the losing party to move for a new trial “on the
grounds that ‘the verdict is against the weight of the evidence, that the damages are
excessive, or that, for other reasons, the tricil was not fair... and may raise questions
of law arising out of alleged substantial errors in admission or rejection of evidence or
instructions to the jury.’” McGinnis v. Am. Home Mortg. Servicing. Inc,, 817 F.3d
1241, 1254 (11th Cir. 2016) (quoting Montgomery Ward & Co. v. Duncan. 311 U.S.
243,251 (1940)). See also Fed. R. Civ. P. 59(a).
The decision to alter or amend the judgment or, alternatively, to grant a new
trial is committed to the sound discretion of the district judge. American Home Assur.
Co. v. Glenn Estess & Assocs.. Inc.. 763 F.2d 1237,1238-39 (11th Cir. 1985); Burger
King Corp. v. Mason. 710 F.2d 1480, 1486 (11th Cir. 1983).
III.

Discussion
DeBose contends the Court manifestly erred, both in fact and in law, in

reversing the jury’s verdict and moves the Court to amend the judgment so as to
5

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 6 of 15 PagelD 10214
Case No.: 8:15-cv-2787-EAK-AEP
reinstate the jury’s verdict. (Doc. 551 at 8-17). Alternatively, DeBose moves for a
new trial. IdL at 17-21. DeBose levies multiple arguments in support of each request.
Id at 8-21.
A. Motion to Alter or Amend the Judgment
DeBose argues she introduced evidence sufficient to convince a reasonably jury
that her protected activity was the but-for cause of the Board’s adverse employment
action. Id. at 9-17. Specifically, DeBose contends the Court erroneously “homed in”
on only certain protected activity and adverse employment action, and that the Court
disregarded and overlooked multiple instances of adverse employment action that
were “continual and in close proximity” to DeBose protected activity. Id. at 9.
However, DeBose obfuscates the issues and distorts the record evidence. In the chart
below, the Court collects what DeBose represents though her motion to be evidence
of retaliatory animus that supports the jury’s verdict and compares those
representations to the record evidence:

DeBose’s Representations

' Record-Evidence
w

In June of 2014, DeBose informally
complained to Dosal about “possible
discrimination.” (Doc. 551 at 2). Days
later, “Dosal and Wilcox decreased
DeBose’s scope (effectively demoting
her) through a reorganization that
moved Degree Works and staff from the
Registrar’s Office to IT.” IcL Also,
Dosal failed to evaluate DeBose’s annual
performance in 2014 and 2015 and

r

V;:

DeBose introduced no evidence that
Wilcox was aware of her informal
complaint to Dosal of “possible
discrimination.”
Wilcox had no role in the decision to
move Degree Works from the Registrar’s
Office to IT.
Dosal and Sidney
Fernandez (USF’s interim Chief
Information Officer) jointly made the

6

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 7 of 15 PagelD 10215
Case No.: 8:15-cv-2787-EAK-AEP
approved a disproportionaUy low salary decision to move Degree Works from the
increase to DeBose compared to her Registrar’s Office to IT.
white counterparts. Id.
Wilcox had no role in Dosal’s decisions
not to evaluate DeBose in 2014 and
2015. Dosal made those decisions on
advice of USF’s Human Resource
Department and USF’s general counsel’s
office. Also, Wilcox had no role in
approving DeBose’s salary increase;
Dosal approved the increase.
Although DeBose argued in her opening
remarks that her white counterparts
received disproportionately higher salary
increases, she introduced no such
evidence.
In July and August of 2014, respectively,
DeBose filed an internal EthicsPoint
complaint against Dosal, Bob Sullins
(USF’s Dean of Undergraduate Studies),
Travis Thompson (USF’s former
webmaster), and Wilcox and a DIEO
complaint against Dosal. (Doc. 551 at 34). Dosal and Wilcox subsequently
retaliated against DeBose by (1) denying
DeBose a promotion to AVP EPM, (2)
denying DeBose’s request for a pay
increase, (3) assigning Tanya Suber (an
employee in USF’s Division of Human
Resources) to work with Camille Blake
(a DIEO investigator) in an effort to
“undermine
DeBose’s
[internal
complaints],” (4) broadcasting DeBose’s
complaints to “a large number of
employees that worked closely with
DeBose,” (5) excluding DeBose from
meetings, and (6) marginalizing and
disrespecting DeBose “in an openly
hostile environment.” Id.

DeBose didn’t file her EthicsPoint and
DIEO complaints until after Dosal, who
had previously consulted with Wilcox
and Judy Genshaft (USF’s President),
filled the AVP EPM position, which is
why the Court dismissed at summary
judgment for lack of causation DeBose’s
claim that she was denied a promotion to
AVP EPM in retaliation for her protected
activity.
Wilcox had no role in Dosal’s denial of
DeBose’s request for a pay increase; any
pay increase (or denial thereof) was at
Dosal’s discretion.
Wilcox had no role in Suber’s or Blake’s
assignment to or involvement in other
HR or disciplinary matters involving
DeBose.
Dosal, not Wilcox, disclosed DeBose’s
internal complaints to others at USF.
Wilcox was unaware that Dosal had
disclosed DeBose’s internal complaints
7

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 8 of 15 PagelD 10216

Case No.: 8:15-cv-2787-EAK-AEP
to anyone other than Wilcox, and
Wilcox did not disclose DeBose’s
internal complaints to anyone.
Neither Dosal nor Wilcox ever directed
others not to include DeBose in
meetings. DeBose asked Dosal for
permission to be excused from certain
meetings.
To Dosal’s knowledge,
DeBose attended all necessary meetings,
other than those she asked for permission
not to attend, until her departure in May
of2015.
Although DeBose argued in her opening
and closing remarks that she was
marginalized, disrespected, and treated
with hostility, DeBose gave no testimony
about what she perceived as
mistreatment by her colleagues or
members of leadership at USF for
complaining about discrimination.
DeBose gave no testimony about Dosal’s
demeanor or actions during or
immediately after the Shared Services
meeting.
Dosal testified that he
counseled DeBose on how to be more
collegial and collaborative. Wilcox had
no role in the Shared Services meeting.

On December 26, 2014, DeBose filed a
charge of discrimination with the EEOC.
(Doc. 551 at 4). Approximately one
month after DeBose filed her EEOC
charge, during and after a “Shared
Services” meeting with DeBose and
Alexis Mootoo (a fiscal manager and
adjunct professor at USF), Dosal
retaliated against DeBose by becoming
“increasingly
aggressive
towards
DeBose” and “talking loudly” at
DeBose. Id.

Dosal didn’t request that Mootoo report
DeBose’s “little girl” comment to Suber.
After Mootoo and other witnesses
confirmed DeBose’s “little girl”
comment, Suber recommended to Dosal
Also, “Mootoo retaliated against that he issue a written reprimand to
DeBose on behalf of Dosal” when she, at DeBose.
Dosal’s request, reported DeBose to
Suber for calling Mootoo a “little girl” at
a subsequent Shared Services meeting.
Id.

8

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 9 of 15 PagelD 10217
Case No.: 8:15-cv-2787-EAK-AEP
Dosal drafted the written reprimand
(issued to DeBose because of her calling
Mootoo “a little girl” at a Shared
Services meeting) on February 2, 2015 two days before DeBose filed her civil
injunction action. Wilcox approved the
written reprimand the same day (i.e.,
February 2, 2015).

On February 4,2015, DeBose filed a civil
injunction action in this Court seeking to
preliminarily enjoin the Board from
discriminating against DeBose and
discharging her employment. (Doc.551
at 5). “Hours after the [action] was
filed,” Dosal and Wilcox retaliated
against DeBose by (1) issuing DeBose
her “first ever written reprimand” in
violation of USF’s progressive discipline
policies, (2) rejecting DeBose’s grievance
and denying her access to the appeals
process, (3) commissioning the EUucian
Report, and (4) requesting inclusion of
the Registrar’s Office within the scope of
the EUucian Report. Also, Mootoo
visited the Registrar’s Office and used a
racial slur. Id.

Dosal and WUcox had no role in
DeBose’s grievances and appeals or the
“rejection” or “denial” of the same.
Rather, Denelta Adderley-Henry (USF’s
Associate Director of Human Resources)
referred DeBose’s grievance to DIEO, as
required by USF Regulation because
DeBose’s
grievances
concerned
aUegations of unlawful discrimination.
Wilcox did not commission EUucian to
conduct
the
post-implementation
assessment report on DegreeWorks (i.e.,
the “EUucian Report”). Rather, Carrie
Garcia (USF’s Director of AppHcation
Services in Information Technology)
began discussing with EUucian a post­
assessment
of
implementation
DegreeWorks in July of 2014. Dosal
requested funding for the assessment in
September or October of 2014. Also,
Andrea Diamond (EUucian’s consultant
and author of the EUucian Report), made
the decision to include the Registrar’s
Office in the assessment - not Dosal or
WUcox.
Mootoo flatly denied using a racial slur
in the presence of anyone in the
Registrar’s Office.

On March 16, 2015, just two months Although marked for identification as
before she was discharged, DeBose DeBose’s Exhibit 313, DeBose’s March
16, 2015 amended EEOC charge was
9

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 10 of 15 PagelD 10218
Case No.: 8:15-cv-2787-EAK-AEP
amended her EEOC charge to include never admitted into evidence, and thus
the jury never considered it.
charges of retaliation. (Doc. 551 at 7).
In April of 2015, before Diamond Wilcox never debriefed with Diamond.
finalized the Ellucian Report, Wilcox
“debriefed” with Diamond in an effort to
coax Diamond into writing a negative
review of the Registrar’s Office so that
he’d have grounds to discharge DeBose’s
employment. (Doc. 551 at 7-8).
On May 26, 2015, in retaliation for
DeBose’s protected activity, Wilcox
called Traynham in an effort to “screw
DeBose out of a job,” referred to DeBose
as “toxic,” and explained that Tranyham
would “regret it” if he hired DeBose.
(Doc. 551 at 8-9). DeBose was told by
someone at USF that, during the call,
Wilcox told Traynham he wanted
DeBose “left with nothing, not even a
shirt.” Id. at 17.

Traynham called Wilcox on May 26,
2015 - not the other way around.
Traynham was seeking Wilcox’s
assessment of DeBose’s professional
During the telephone
capabilities,
conversation, Wilcox told Traynham he
had great respect for DeBose’s technical
skills and abilities, but that DeBose
lacked collegiality, was uncollaborative,
and USF thus decided to move in a
different direction.

Dosal admitted he issued DeBose the Dosal repeatedly denied that he issued
written reprimand because of her DeBose the written reprimand because of
her protected activity.
protected activity. (Doc. 551 at 6).
Dosal and Wilcox admitted they took
adverse employment action against
DeBose, including her discharge,
because of DeBose protected activity.
(Doc. 551 at 11).

Dosal and Wilcox repeatedly denied that
they took any adverse employment
action against DeBose because of her
protected activity.

Wilcox discharged DeBose at Dosal’s Dosal was not involved in Wilcox’s
discharge
DeBose’s
decision
to
urging. (Doc. 551 at 2).
Wilcox discharged
employment.
DeBose’s employment because of
findings in the Ellucian Report.

As the chart demonstrates, DeBose fails to identify any manifest errors or
oversights by the Court. See In re Sumner. No. 10-41516, 2011 WL 7708384, at *1

10

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 11 of 15 PagelD 10219

Case No.: 8:15-cv-2787-EAK-AEP
(Bankr. S.D. Ga. July 13, 2011) (“A manifest error is one that ‘is plain and
indisputable, and that amounts to a complete disregard of the controlling law or the
credible evidence in the record.”’) (quoting Black’s Law Dictionary p. 582 (8th ed.
2004)). Instead, it appears DeBose’s motion is simply an effort to reargue the issues
decided in the Court’s order granting the Board’s renewed motion for judgment as a
matter of law and inject new issues and legal theories never previously raised or
identified in DeBose’s prior pleadings, motions, or other papers. DeBose’s arguments
and representations, however, are not supported by the record evidence. DeBose
repeatedly relies on excluded evidence or evidence that was never offered for
admission; “facts” DeBose eluded to in her opening and closing remarks; assertions
wholly without support in the record evidence; and assertions flatly contradicted by
the record evidence.
/

Additionally, DeBose argues (for the first time) that, when considered in the
aggregate, many of Dosal’s and Wilcox’s employment actions - to the extent they
don’t, by themselves, amount to unlawful retaliation - establish a “pattern of
antagonism” that, at minimum, circumstantially supports an inference of a causal
connection. (Doc. 551 at 10-12). While it’s true evidence of a pattern of antagonism
may operate as the “additional evidence” necessary to. demonstrate a causal
connection where, as here, the time between the protected activity and the adverse
employment action is insufficiently proximate, see Ward v. United Parcel Serv.. 580
Fed. App’x. 735, 739 (11th Cir. 2014), DeBose ignores the undisputed record evidence
that (1) Dosal had no role in the decision to discharge DeBose’s employment, and (2)
11

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 12 of 15 PagelD 10220

Case No.: 8:15-cv-2787-EAK-AEP
Wilcox, the ultimate decision maker, did not direct or initiate the employment actions
DeBose claims evidence a pattern of retaliatory animus towards her.
Finally, DeBose argues that the Court erred in granting the Board’s renewed
motion for judgment as a matter of law by relying on a cherry-picked paragraph from
the Court’s prior summary judgment order. (Doc. 551 at 12-13). In permitting
DeBose’s retaliation claims based on Wilcox’s discharge of DeBose’s employment and
negative employment reference to Traynham to survive summary judgment and
proceed to trial, the Court reasoned:
DeBose’s version of the facts, i.e. that she was the victim of a massive
conspiracy because she filed complaints of discrimination, may not
ultimately be accepted by a jury, but there is certainly enough
circumstantial evidence of retaliation to afford DeBose her day in Court.
Specifically, given the close temporal proximity between DeBose’s
EEOC complaint and [the Board’s] decision to engage Ellucian,
DeBose’s testimony that the Registrar’s Office was included in the scope
of Ellucian’s engagement at the request of [the Board], DeBose’s
testimony that she was treated differently following her complaints of
discrimination, and the timing and circumstances surrounding the
Traynham conversation, a reasonable jury could find that [the Board’s]
actions were retaliatory.
(Doc. 210 at 20-21). DeBose contends she proved those facts at trial and thus did
enough to convince a reasonable jury that the Board intentionally retaliated against
her. (Doc. 551 at 12-13). The Court disagrees. To be sure, none of the evidence that
enabled DeBose to evade summary judgment was introduced at trial, and the evidence
that was introduced contradicts the majority, if not all, of the “facts” DeBose injected
into the summary judgment record through her counter-affidavits and deposition
testimony.

12

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 13 of 15 PagelD 10221

Case No.: 8:15-cv-2787-EAK-AEP
Contrary to what was provided to the Court at summary judgment, the
undisputed record evidence at trial was that Garcia, not Wilcox, engaged Ellucian for
a post-implementation assessment in July of 2014, and Dosal, not Wilcox, requested
funding for the assessment in September or October of 2014 - both months before
DeBose filed her EEOC charge in December of 2014; that Diamond, alone, made the
decision to include the Registrar’s Office within the scope of the assessment and never
debriefed with Wilcox; that Traynham reached out to Wilcox, not the other way
around; and that Wilcox conveyed to Traynham only what was reflected in the
Ellucian Report. Unlike at summary judgment, DeBose gave no testimony at trial
regarding the alleged mistreatment she received after complaining of discrimination,
and DeBose’s opposing and more colorful version of the circumstances surrounding
the telephone call between Wilcox and Tryanham was similarly absent from the record
evidence at trial.
In sum, it’s without doubt that DeBose’s relationship with her colleagues and
members of leadership at USF severely deteriorated in 2014 and 2015. But that this
unfortunate turn of events was because of DeBose’s protected activity, as opposed to
the continuing pattern of hostility, lack of collaboration and collegiality, and resistance
to change identified by her colleagues and members of leadership at USF - and
ultimately confirmed by the Ellucian Report - is simply not supported by the record
evidence. Moreover, it’s contradicted by the jury’s own finding with respect to the
Board’s “same decision” affirmative defense, where the jury found that the Board had

13

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 14 of 15 PagelD 10222
Case No.: 8:15-cv-2787-EAK-AEP
legitimate business reasons (i.e., reasons other than DeBose’s race)3 for discharging
DeBose’s employment. Indeed, DeBose’s story, told both at summary judgment and
in the instant motion, is much different and, if believed, more damning than that
posited by the Board. However, DeBose neither took the stand during the eleven-day
trial to tell that story to the jury nor offered witnesses who could tell it for her. And
the evidence DeBose was able to introduce through adversarial direct- and crossexamination was exceedingly lacking and speculative.4 Consequently, and for the
reasons detailed above, the Court - again - finds that no reasonable jury could have
found that DeBose’s protected activity was the but-for cause of the Board’s adverse
employment action. The Court will deny DeBose’s motion to amend the judgment.
B. Motion for New Trial
DeBose asserts a litany of arguments in support of her alternative request for a
new trial:5 (1) the Court erred in denying her multiple motions to continue the trial
setting; (2) the “two-issue” rule precludes judgment as a matter of law on DeBose’s
retaliation claim; (3) the jury’s finding with respect to the Board’s same decision
affirmative defense was against the great weight of the evidence; (4) the Court erred in
3 An employer “may fire an employee for a good reason, a bad reason, a reason based on erroneous
facts, or for no reason at all, as long as its action is not for a discriminatory reason.” Smith. 565 F.
App’x at 779 (citation omitted).
4 DeBose did, in fact, testify, but only after the dose of her case-in-chief and only as to her alleged
damages.
5 It’s not entirely dear from the motion whether DeBose requests a new trial based on the Court’s
granting the Board’s renewed motion for judgment as a matter of law or otherwise vacating the jury’s
verdict on her retaliation claim. To the extent she does, the Court will deny such a request for die
same reasons it will deny DeBose’s request to amend the judgment.

14

-

Case 8:15-cv-02787-EAK-AEP Document 571 Filed 04/24/19 Page 15 of 15 PagelD 10223
Case No.: 8:15-cv-2787-EAK-AEP
excluding certain evidence before and at trial; (5) the Court erred by not holding a
hearing on the Board’s alleged destruction of evidence; (6) the Court erred in not re­
opening discovery; and (7) the Board’s counsel engaged in prejudicial misconduct.
DeBose’s arguments, however, are either meritless, unsubstantiated, or time-barred.
Further, several earlier orders have rejected these same arguments. The Court will
deny DeBose’s motion for a new trial.
IV.

Conclusion
Accordingly, it is
ORDERED that DeBose’s Motion for New Trial or in the Alternative, Alter or

Amend Judgment (Doc. 551) is DENIED.

d

DONE and ORDERED in Chambers, in Tampa, Florida this^^day of April,
2019.

ELIZ
UNITED STATES DISTRIC
Copies furnished to:
Counsel/Parties of Record

15

7* I

Case 8:15-cv-02787-EAK-AEP Document 550 Filed 02/15/19 Page 1 of 4 PagelD 992

I

t>

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

I

■l

ANGELA W. DEBOSE,

&

I

Plaintiff,
-

Case No.: 8:15-cv-2787-EAK-AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD
OF
TRUSTEES
AND
ELLUCIAN COMPANY, L.P.,
Defendants.
ORDER

In this Title VII case, after a trial on the merits, a jury found in favor of Plaintiff
Angela DeBose (“DeBose”) on her race discrimination and retaliation claims. With
respect to DeBose’s discrimination claim, however, the jury found that Defendant
University of South Florida Board of Trustees (the “Board”) proved its “same
decision” affirmative defense, precluding DeBose from recovering compensatory or
back pay damages on that claim. The jury awarded DeBose $310,500 on her
retaliation claim.
On October 19, 2018, the undersigned determined that, having succeeded on
her retaliation claim, DeBose was entitled to an award of front pay. (Doc. 499).
Having found for DeBose on the issue of entitlement, the undersigned referred the
ultimate issue of an appropriate award of front pay to the assigned Magistrate Judge
for an evidentiary hearing and report and recommendation.

The Magistrate Judge

heard argument and evidence on the issue of front pay on December 11, 2018. (Doc.

JI

Case 8:15-cv-02787-EAK-AEP Document 550 Filed 02/15/19 Page 2 of 4 PagelD 9927

Case No.: 8:15-cv-2787-EAK-AEP
534). Following the hearing, but prior to the issuance of a report and recommendation
by the Magistrate Judge, the undersigned granted the Board’s motion for judgment as
a matter of law, finding that DeBose failed to introduce sufficient evidence at trial for
a reasonable jury to find a causal connection between her protected activities and the
Board’s adverse employment actions, and directed a verdict in the Board’s favor on
DeBose’s retaliation claim. (Doc. 548). The Clerk subsequently entered a Second
Amended Judgment in favor of the Board. (Doc. 549).
In light of the Second Amended Judgment, the Court must now decide whether
DeBose is still entitled to an award of front pay. She is not. Although prevailing Title
VII plaintiffs are presumptively entitled to front pay, U.S. E.E.O.C, v, W&Q. Inc.. 213
F.3d 600, 619 (11th Cir. 2000), DeBose is no longer the prevailing party on her
retaliation claim. And while DeBose prevailed on her disparate treatment race
discrimination claim, see Harris v. Shelby Ctv. Bd. of Educ.. 99 F.3d 1078,1084 (11th
Cir. 1996), the jury found that the Board proved its “same decision” affirmative
defense. Where a defendant proves that it would have terminated a plaintiff’s
employment even it hadn’t taken the plaintiff’s race into account, the plaintiff’s
available damages are limited. See 42 U.S.C. § 2000e-5(g)(2)(B)(i). In such a situation,
the district court may only award “declaratory relief, injunctive relief . . . and
attorney’s fees and costs demonstrated to be directly attributable ... to the pursuit” of
the discrimination claim. 14. See also Harris. 99 F.3d at 1084; Ouigg v. Thomas City.
Sch. Dist.. 814 F.3d 1227,1239 n.9 (11th Cir. 2016) (“In Harris, we held that the‘same

2

Case 8:15-cv-02787-EAK-AEP Document 550 Filed 02/15/19 Page 3 of 4 PagelD 9928

Case No.: 8:15-cv-2787-EAK-AEP
decision’ defense . . . allow[s] an employer to avoid damages and certain forms of
equitable relief in a Title VII case.”); Pattern Civ. Jury Instr. 11th Cir. 4.5, Ann. § 11(F)
(2018) ("[I]n cases where the employer prevails on the ‘same decision’ defense, the
court may grant declaratory relief, limited injunctive relief and limited attorney’s fees
and costs; this is an issue for the court, not the jury.”) (citing 42 U.S.C. § 2000e5(g)(2)(B)) (emphasis in original). Front pay, however - a form of equitable relief, see
Ramsey v. Chrysler First. Inc.. 861 F.2d 1541,1545 (11th Cir. 1988)-is not specifically
delineated in Section 2000e-5(g)(B)(i) and is not recoverable where the defendant
proves its “same decision” affirmative defense, see Massey v. Trump’s Castle Hotel &
Casino. 828 F. Supp. 314, 324 (D.N.J. Jul. 30, 1993) (Gerry, J.) (“If the defendant
proves that it would have made the same decision, the remedies of front-pay and
reinstatement will be barred.”).
Because the jury found for the Board on its “same decision” affirmative defense,
DeBose is foreclosed from recovering amounts for front pay.
Accordingly, it is ORDERED as follows:
1.

That potion of DeBose’s Motion for Attorney’s Fees and Cost of

Litigation and Other Miscellaneous Relief (“Motion”) (Doc. 472) requesting
amounts for front pay is no longer referred to the Magistrate Judge;
2.

DeBose cannot recover amounts for front pay, and the Motion is

DENIED; and
3.

The Clerk is directed to terminate the Motion.
3

Case 8:15-cv-02787-EAK-AEP Document 550 Filed 02/15/19 Page 4 of 4 PagelD 9929
Case No.: 8:15-cv-2787-EAK-AEP
/^/day^of
DONE and ORDERED in Chambers, in Tampa, Florida this
February, 2Q19.

IStZABETHX^eVAQffi'
UNITED STATES DISTRIC’
Copies furnished to:
Counsel of Record/
Unrepresented Parties

4

jE

Case 8:15-cv-02787-VMC-AEP Document 549 Filed 02/14/19 Page 1 of 2 PagelD 9914

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA w
TAMPA DIVISION
ANGELA W. DEBOSE,

A-8

Plaintiff,
v.

Case No.: 8:15-cv-2787-EAK-AEP

UNIVERSITY OF SOUTH FLORIDA
BOARD
OF
TRUSTEES
and
ELLUCIAN COMPANY, L.P.
Defendants.
SECOND AMENDED JUDGMENT IN A CIVIL CASE
Jury Verdict.

This action came before the Court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of
Plaintiff Angela DeBose and against Defendant University of South Florida Board of
Trustees on Plaintiffs disparate treatment race discrimination claim, in accordance
with the jury’s verdict; Plaintiff takes nothing on her claim for compensatory or
back pay damages.
Decision by Court.

This action came before the Court and a decision has been
rendered.

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of
Defendant University of South Florida Board of Trustees and against Plaintiff Angela
DeBose on Plaintiffs retaliation claim, the jury’s verdict notwithstanding.

*1

Case 8:15-cv-02787-VMC-AEP Document 549 Filed 02/14/19 Page 2 of 2 PagelD 9915

Case No.: 8:15-cv-2787-EAK-AEP
IT IS FURTHER ORDERED AND ADJUDGED that, pursuant to the
Court’s Order entered on September 29, 2017, judgment is hereby entered in favor of
Defendant University of South Florida Board of Trustees and against Plaintiff on
Plaintiffs disparate treatment gender discrimination, disparate impact race and gender
discrimination, breach of contract, tortious interference, and civil conspiracy claims.
ELIZABETH M. WARREN,
CLERK
s/S.Cohn, Deputy Clerk

2

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 1 of 10 PagelD 9916

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

A-9

ANGELA W. DEBOSE,
%

Plaintiff,

Case No.: 8:15-cv-2787-EAK-AEP

v.

UNIVERSITY OF SOUTH FLORIDA
BOARD
OF
TRUSTEES
AND
ELLUCIAN COMPANY, L.P.,
Defendants.
ORDER
Pending before the Court and briefed by the parties are the following three post­
judgment motions:
1.

Defendant University of South Florida Board of Trustees’ (“the Board”)

Motion for Judgment as a Matter of Law or, in the Alternative, for New Trial
(“Motion for judgment as a Matter of Law”) (Doc. 504) and Plaintiff Angela
DeBose’s (“DeBose”) Response in Opposition to the Board’s Motion for
Judgment as a Matter of Law (Doc. 505);
2.

The Board’s Motion to Supplement Motion for New Trial or, in the

Alternative, for Relief from Judgment (“Motion to Supplement”) (Doc. 539)
and DeBose’s Response in Opposition to the Board’s Motion to Supplement
(Doc. 540); and

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 2 of 10 PagelD 9917

Case No.: 8:15-cv-2787-EAK-AEP
3.

DeBose’s Motion for Sanctions or Alternatively Relief from Judgment

(“Motion for Sanctions”) (Doc. 541) and the Board’s Opposition to DeBose’s
Motion for Sanctions (Doc. 542).
After careful consideration, the Court will grant the Board’s Motion for
Judgment as a Matter of Law. The Court will deny the Board’s Motion to Supplement
as moot. The Court will deny DeBose’s Motion for Sanctions.
I.

Background
This employment discrimination case was tried to a jury beginning on

September 10, 2018. DeBose, a licensed attorney, represented herself pro se1 against
the Board2. On September 26,2018, the jury returned its verdict. The jury found that
race was a motivating factor in the Board’s decision to discharge DeBose’s
employment as the Registrar of the University of South Florida, but also found that
the Board would have made the same decision even it hadn’t taken DeBose’s race into
account. Because the jury found that the Board had successfully proved its “same
decision” affirmative defense, DeBose was precluded from recovering compensatory
or back pay damages on her race discrimination claim. The jury further found that the
Board retaliated against DeBose for engaging in certain protected activity and awarded

1 Plaintiff has represented herself pro se in this action since her most recent counsel successfully
withdrew on March 21, 2017. Plaintiff is admitted to practice law in Wisconsin and is currently in
See State Bar of Wisconsin Lawyer Search, https: / /www.wisbar.org
good standing.
/directories/pages/lawverprofile.aspx?Memberid=1101650 (last visited Feb. 14,2019).
2 The Court granted summary judgment in favor ofDefendant Ellucian Company, L.P., on September
29,2017.

2

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 3 of 10 PagelD 9918

Case No.: 8:15-cv-2787-EAK-AEP
DeBose $310,500. The Clerk entered judgment in favor of DeBose and against the
Board on DeBose’s race discrimination and retaliation claims on October 2, 2018.3
The parties’ respective post-trial motions followed on October 29, 2018, (Doc. 504),
November 28, 2018, (Doc. 521), and December 31, 2018, (Doc. 541), respectively.
II.

Discussion
The Court will address each of the parties’ respective post-trial motions in turn:
A. The Board’s Motion for Judgment as a Matter of Law
Pursuant to Rule 50(b) of the Federal Rules of Civil Procedure, the Board

renews its Rule 50(a) motion made at the close of DeBose’s case-in-chief and
subsequently renewed after both parties rested. The Board alternatively moves for a
new trial pursuant to Rule 59. The Board levies the following arguments:
1.

The Board is entitled to judgment as a matter of law on DeBose’s

retaliation claim because DeBose failed to introduce evidence at trial that she
filed a charge of discrimination with the Equal Employment Opportunity
Commission (“EEOC”) alleging retaliatory termination or that she received a
Notice of Right to Sue regarding the same;
2.

The Board is entitled to judgment as a matter of law on DeBose’s

retaliation claim because DeBose failed to present sufficient evidence at trial to

3 The Clerk entered judgment in favor of the Board and Ellucian Company, L.P., on DeBose’s
remaining disparate treatment gender discrimination, disparate impact race and gender
discrimination, breach of contract, tortious interference, and civil conspiracy claims, which the Court
dismissed at summary judgment.

3

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 4 of 10 PagelD 9919

Case No.: 8:15-cv-2787-EAK-AEP
establish a pritna fade case of retaliation or, alternatively, a new trial should be
ordered because the verdict is against the great weight of the evidence.
3.

The Board is entitled to judgment as a matter of law on DeBose’s

retaliation claim because DeBose failed to present sufficient evidence to prove
pretext or, alternatively, a new trial should be ordered because the verdict is
against the great weight of the evidence; and
4.

The Court should order a new trial on the issue of DeBose’s damages

because the Court abused its discretion in granting DeBose leave to re-open her
case-in-chief in order to present testimony as to her damages - testimony that,
the Board argues, was based on previously undisclosed evidence.
The Court will first address the Board’s argument regarding DeBose’s failure to
establish a prima fade case of retaliation. Because the Court, as detailed more fully
below, finds that DeBose failed to introduce sufficient evidence at trial for a reasonable
jury to find a causal connection between her protected activities and the Board’s
adverse employment actions, the Court need not address the Board’s remaining
arguments.
To prevail on a Title VII retaliation case, a plaintiff must satisfy the traditional
McDonnell Douglas burden-shifting framework. Goldsmith v. City of Atmore, 996
F.2d 1155, 1162-63 (11th Cir. 1993). Under this framework, the plaintiff must first
establish & primafade case of retaliation. Id. (citations omitted). The burden then shifts
to the employer to articulate some legitimate non-retaliatory reason for the alleged

4

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 5 of 10 PagelD 9920

Case No.: 8:15-cv-2787-EAK-AEP
retaliation. Id (citations omitted). Once the employer produces such a reason, the
plaintiff must then prove that the legitimate reason was a mere pretext for retaliation.
Id. (citations omitted).
To establish a prima facie case of retaliation, a plaintiff must establish that (1)
she engaged in statutorily protected activity, (2) she suffered a materially adverse
employment action, and (3) there exists a causal link between the two. Smith v. City
of Fort Pierce. Fla.. 565 F. App’x 774, 776-77 (11th Cir. 2014) (unpublished) (per
curiam). See also Pattern Civ. Jury Instr. 11th Cir. 4.22 (2018). With respect to
causation, in order to succeed on a Title VII retaliation claim, a plaintiff must establish
“but-for” causation; the “lessened causation test” applicable to claims of unlawful
discrimination under Section 2000e-2(m) does not apply. Univ. of Texas Sw. Med.
Ctr. v. Nassar. 570 U.S. 338, 360 (2013). Put another way, a Title VH plaintiff must
prove by a preponderance of the evidence that “the unlawful retaliation would not
have occurred in the absence of the alleged wrongful action or actions of the
employer.” Id Following Nassar. the Eleventh Circuit explained that “the plaintiff
always has the burden of persuasion ‘to proffer evidence sufficient to permit a
reasonable fact finder to conclude that discriminatory animus was the ‘but-for’ cause
of the adverse employment action.’” Smith. 565 F. App’x at 778-79 (quoting Simsjv..
MVM. Inc.. 704 F.3d 1327, 1332 (11th Cir. 2013)).
To establish a causal connection, a plaintiff must show that her employer was
aware of her protected activity, and that her protected activity and the adverse

5

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 6 of 10 PagelD 9921
Case No.: 8:15-cv-2787-EAK-AEP
employment action taken by her employer “were not wholly unrelated.” Greene v,
Ala. Dep’t of Revenue. 746 F. App’x 929, 932 (11th Cir. 2018) (per curiam)
(unpublished) (quoting Shannon v. BellSouth Telecomms.. Inc.. 292 F.3d 712, 716
(11th Cir. 2002)). That the protected activity and the adverse employment action were
not wholly unrelated can be shown by establishing a “close temporal proximity”
between the protected activity and the adverse employment action. Thomas v. Cooper
Lighting. Inc.. 506 F.3d 1361, 1364 (11th Cir. 2007) (per curiam) (citing Brungart v,
BellSouth Telecomm.. Inc.. 231 F.3d 791, 798-99 (11th Cir. 2000)). “Yet while
temporal proximity between the . . . protected activity and the adverse employment
action can be enough... ‘mere temporal proximity, without more, must be very close.”'
Hogan v. S. Georgia Med. Ctr.. No. 17-14867,2018 WL 4922777, at *5 (11th Cir. Oct.
10, 2018) (per curiam) (unpublished) (emphasis added) (quoting Thomas. 506 F.3d at
1364).
At trial, DeBose attempted to prove causation by showing that “one followed
the other.” To that end, DeBose introduced evidence that she engaged in three distinct
acts qualifying as “protected activity” for purposes of a Title VII retaliation claim: (1)
in July and August of 2014, respectively, DeBose filed internal complaints with the
University of South Florida alleging that she had been subjected to unlawful
discrimination; (2) in December of 2014, DeBose filed a charge of discrimination with
the EEOC; and (3) on February 4, 2015, DeBose filed a civil action in this District
seeking to preliminarily enjoin the Board from discriminating against her and

6

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 7 of 10 PagelD 9922

Case No.: 8:15-cv-2787-EAK-AEP
terminating her employment. In addition, DeBose proffered evidence of two adverse
employment actions taken by die Board: (1) the Board’s termination of DeBose’s
employment on May 19, 2015; and (2) University of South Florida Provost Ralph
Wilcox’s negative employment reference to University of North Florida Provost Earle
Traynham on May 26, 2019. DeBose offered no direct evidence of retaliation. After
deliberation, the jury found that the Board took these adverse employment actions
because of DeBose’s protected activities.
Upon careful consideration, the Court will reverse the verdict. DeBose’s
evidence was insufficient to convince a reasonable jury that her protected activities
were the “but-for” cause of the Board’s adverse employment actions. At best, more
than three months - specifically, 104 days - passed between DeBose’s most recent
protected activity (DeBose’s federal injunction action) and the earlier of the Board’s
adverse employment actions (Wilcox’s decision to terminate DeBose’s employment).
This gap proves too large to establish a causal connection. To be sure, the Eleventh
Circuit has held that a three- to four-month disparity between the statutorily protected
activity and the adverse employment action is not enough to show “very close”
temporal proximity. Thomas, 506 F.3d at 1364. See also, e.g.. Embry v. Callahan
Eve Found. Hosp.. 147 F.App’x 819,831 (11th Cir. 2005) (per curiam) (unpublished);
Higdon v. Jackson. 393 F.3d 1211,1220-21 (11th Cir. 2004); Wascura v. City of South
Miami. 257 F.3d 1238 (11th Cir. 2001). Other circuits have held likewise. See, e.g..
Richmond v. Oveok. Inc.. 120 F.3d 205, 209 (10th Cir. 1997); Hughes v. Derwinski.

7

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 8 of 10 PagelD 9923

Case No.: 8:15-cv-2787-EAK-AEP
967 F.2d 1168, 1174-75 (7th Cir. 1992). And just recently, the Eleventh Circuit held
that, as a matter of law, even seventy-four days between the plaintiffs protected
activity and the employer’s adverse employment action, standing alone, is
insufficiently proximate. Hogan. 2018 WL 4922777, at *5. Thus, because DeBose
failed to present any “other evidence tending to show causation,” the substantial delay
between DeBose’s protected activity and the Board’s adverse employment action is
fatal to her retaliation claim as a matter of law. Thomas. 506 F.3d at 1364.
In sum, DeBose failed to present a legally sufficient evidentiary basis for a
reasonable jury to find a causal connection between her protected activities and the
Board’s adverse employment actions. Accordingly, the Court will grant the Board’s
Motion for Judgment as a Matter of Law. See Christopher v. Fla.. 449 F.3d 1360,
1364 (11th Cir. 2006) (“[Judgment as a matter of law] is appropriate when a plaintiff
presents no legally sufficient evidentiary basis for a reasonable jury to find for [her] on
a material element of [her] cause of action.”) (citation omitted).
B. The Board’s Motion to Supplement
The Board moves to supplement its Motion for Judgment as a Matter of Law
or, in the Alternative, for New Trial with new evidence related to DeBose’s benefits,
which the Board obtained, post-trial, from the Florida Department of Management
Services. The Board alternatively moves for relief from judgment Pursuant to Rule
60(b).

8

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 9 of 10 PagelD 9924

Case No.: 8:15-cv-2787-EAK-AEP
Having determined that the Board is entitled to judgment as a matter of law on
DeBose’s retaliation claim, the Court will deny the Board’s Motion to Supplement as
moot.
C. DeBose’s Motion for Sanctions
DeBose moves for sanctions against the Board or, alternatively, relief, pursuant
to Rule 60(b), from six interlocutory orders issued by the Court, (Docs. 50, 86, 144,
210, 263, 311), based on the discovery of "new” evidence and fraud. This Court and
the assigned Magistrate Judge have exhaustively addressed on multiple occasions the
issues and arguments raised by the instant Motion for Sanctions. Since the outset of
this litigation, DeBose has failed to substantiate her allegations against the Board
related to her “employment contracts,” whether it be in the form of their concealment,
destruction, or breach. The Court will deny the Motion for Sanctions for the reasons
stated in the Board’s response.
III.

Conclusion
Accordingly, it is
ORDERED as follows:
1.

The Board’s Motion for Judgment as a Matter of Law or, in the

Alternative, for New Trial (Doc. 504) is GRANTED. The jury’s verdict as to
DeBose’s retaliation claim is REVERSED. The amended final judgment (Doc.
482) is VACATED. An appropriate second amended final judgment will issue.

9

Case 8:15-cv-02787-EAK-AEP Document 548 Filed 02/14/19 Page 10 of 10 PagelD 9925

Case No.: 8:15-cv-2787-EAK-AEP
2.

The Board’s Motion to Supplement Motion for New Trial or, in the

Alternative, for Relief from Judgment (Doc. 539) is DENIED as moot.
3.

DeBose’s Motion for Sanctions or Alternatively Relief from Judgment

(Doc. 541) is DENIED.
DONE and ORDERED in-Chambers, in Tampa, Florida this
February, 2019.
K

LVICH
ELIZABE'
rE
ED STATES DISTRK
Copies furnished to:
Counsel of Record/
Unrepresented Parties

10

Case 8:15-cv-02787-VMC-AEP Document 520 Filed 11/21/18 Page 1 of 1 PagelD 91r"
r*i

AO 133

(Rev. 12/09) Bill of Costs

&

United States District Court
rH
rH

for the
Middle District of Florida
)
)
)
)
)

Angela DeBose
v.
University of South Florida Board of Trustees

Case No.: 8:15-cv-02787-EAK-AEP

&

■»

BILL OF COSTS
Judgment having been entered in the above entitled action on

10/02/2018

against

USF Board of Trustees

Dale

the Clerk is requested to tax the following as costs:
S

Fees of the Clerk

3,500.00

Fees for service of summons and subpoena............:................. ........................................

7,500.00

Fees for printed or electronically recorded transcripts necessarily obtained for use in the case.

3,460.00

Fees and disbursements for printing........................................................ ...............................

10,850.00

Fees for witnesses (itemize on page two) ..................... ............... .......................................... ......

0.00

Fees for exemplification and the costs of making copies of any materials where the copies are
necessarily obtained for use in the case.................................. ...............................................

9,015.00

Docket fees under 28 U.S.C. 1923
Costs as shown on Mandate of Court of Appeals......... ............. ..........................................
Compensation of court-appointed experts..............................................................................
Compensation of interpreters and costs of Special interpretation services under 28 U.S.C. 1828
Other costs (please itemize)...................................................................................................... .
TOTAL

$

34,325.00

SPECIAL NOTE: Attach to your bill an itemization and documentation for requested costs in all categories.
Declaration
1 declare under penalty' of perjury that the foregoing costs are correct and were necessarily incurred in this action and that the
services for which fees have been charged were actually and necessarily performed. A copy of this bill has been served on all parties
in the following manner:
~>7~[
Electronic service
| | First class mail, postage prepaid

□

Other:

____

s/ Attorney:

____

Name of Attorney:
For:

Date:

Angela'DeBose, Plaintiff

10/02/2018

Name ofClaiming Party

Taxation of Costs
Costs are taxed in the amount of

3J2/1l>335j2q

aiZABEJHJJJSABEEM
Clerk ofCourt

and included in the judgment.

By:
Deputy Clerk

W-QkiS
Date

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 1 of 14 PagelD 8
& |

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA W. DEBOSE,

I

<

&

Plaintiff,
■j

Case No.: 8:15-cv-2787-EAK-AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD
OF
TRUSTEES
AND
ELLUCIAN COMPANY, L.P.,
Defendants.
ORDER

Currently before the Court is Plaintiff’s Motion for Attorney’s Fees and Cost
of Litigation and Other Miscellaneous Relief (“Motion”) (Doc. 472). Defendant
University of South Florida Board of Trustees (“USFBOT”) responded in opposition
(“Response”) (Doc. 484). The Motion is thus ripe for decision.
I.

Background
This employment discrimination case was tried to a jury beginning on

September 10, 2018.

Plaintiff, a licensed attorney, represented herself pro sel

against Defendant USFBOT2. On September 26, 2018, the jury returned its verdict.

i

Plaintiff has represented herselfpro se in this action since her most recent counsel successfully
withdrew on March 21, 2017. (Doc. 122). Plaintiff is admitted to practice law in Wisconsin and
is currently in good standing. (Doc. 473, at Tfl).
2 The Court granted summary judgment in favor of Defendant Ellucian Company, L.P., on
'September 29, 2017. (Doc. 210).

k

Case 8:15-CV-02787-EAK-AEP Document 499 Filed 10/19/18 Page 2 of 14 PagelD 8772
Case No.: 8:15-cv-2787-EAK-AEP
(Doc. 471). The jury found that race was a motivating factor in USFBOT’s decision
to discharge Plaintiffs employment as the Registrar of the University of South
Florida, but also found that USFBOT would have made the same decision even it
hadn’t taken Plaintiffs race into account. Id. at 2. Because the jury found that
USFBOT had successfully proved its “same decision” affirmative defense, Plaintiff
was precluded from recovering compensatory or back pay damages on her race
discrimination claim.

The jury further found that USFBOT retaliated against

Plaintiff for engaging in certain protected activity and awarded Plaintiff $310,500.
Id. at 3-4. The Court entered judgment in favor of Plaintiff and against USFBOT
on Plaintiffs race discrimination and retaliation claims on October 2, 2018. (Doc.
482). Plaintiff now moves for an award of attorney’s fees and costs as the prevailing
party, in addition to an award of front pay. (Doc. 427). USFBOT opposes Plaintiff s
Motion in all respects. (Doc. 484).
II.

Discussion
By her Motion, Plaintiff requests the Court: (1) award her $712,500 as a

reasonable attorney’s fee, (Doc. 72, at 2—5); (Doc. 473, at ^3); (2) tax costs against
USFBOT in the amount of $102,520, (Doc. 472, at 5-6); and (3) award her $170,000
in front pay. (Doc. 472). The Court will address each of Plaintiff s requests, in turn,
below.

2

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 3 of 14 PagelD 8773
Case No.: 8:15-cv-2787-EAK-AEP
A. Attorney’s Fees
Although a prevailing plaintiff in a Title VII action is ordinarily entitled to
recover a reasonable attorney’s fee, see 42 U.S.C. § 2000e-5(k), a pro se plaintiff,
as a matter of law, cannot recover attorney’s fees for representing herself, even ifshe
is a licensed attorney, see Kav v. Ehrler. 499 U.S. 432, 435—38 (1991); Cofield v,
City of Atlanta, 648 F.2d 986, 987-988 (5th Cir. 1981);3 Hawkins v. 1115 Legal
Serv. Care. 163 F.3d 684, 694-95 (2d Cir. 1998); Smith v. Panera Bread. No. 0:08ev-60697-AJ, 2009 WL 10666948, at *1 (S.D. Fla. Mar. 23, 2009) (citing Stephens
v. U.S. Postal Service. No. 3:05-cv-120-TJC-TEM, 2006 WL 2729654, at * 1 (M.D.
Fla. Sept. 25,2006)); Jones v. Mem’l Med. Ctr.. Inc.. No. 4:91-cv-00311-BAE, 1992
WL 512343, at *3 (S.D. Ga. May 1, 1992) (citations omitted).
The same holds true with respect to Plaintiffs claims under Florida’s Civil
Rights Act. See State v. Jackson. 650 So.2d 24, 27 (Fla. 1995) (“[A] long-standing
rule of statutory construction in Florida recognizes that if a state law is patterned
after a federal law on the same subject, the Florida law will be accorded the same
construction as given to the federal act in the federal courts.”); Palm Beach Cnty.
Sch. Bd. v. Wright 217 So. 3d 163, 164-65 (Fla. 4th DCA 2017), review denied.
No. SC17-1186, 2017 WL 4685625 (Fla. Oct. 19, 2017) (“We and other Florida
J In Bonner v. City of Prichard. 661 F.2d 1206, 1207 (11th Cir. 1981) (en banc), the Eleventh
Circuit adopted as binding precedent all decisions of the former Fifth Circuit rendered prior to the
close of business on September 30,1981.

3

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 4 of 14 PagelD 8774
Case No.: 8:15-cv-2787-EAK-AEP
districts have recognized that [t]he [Florida Civil Rights Act] is patterned after Title
VII and that federal case law on Title VII applies to [Florida Civil Rights Act]
claims.”) (alterations added) (internal quotations and citations omitted).
Plaintiffs request for a reasonable attorney’s fee is accordingly due to be
denied.4
B. Costs
“Unlike attorney fees, however, costs of litigation can be reasonably incurred
even by a,pro se litigant[,]” Clarkson v, I.R.S., 678 F.2d 1368,1371 (llthCir. 1982)
(prevailing pro se plaintiff in Freedom of Information Act case entitled to costs); see
also United States v. Evans. 561 F. App’x 877, 880 (11th Cir. 2014) (unpublished)
(prevailing pro se plaintiff in Civil Asset Forfeiture Reform Act case entitled to
costs); Gray v. Sec’v for Den’t of Homeland Sec., 452 F. App’x 873, 875 (11th Cir.

4 The Court notes that, in the Eleventh Circuit, “pro se litigants are entitled to an award of attorney
fees only to the extent that the services of an attorney were utilized and fees incurred,” - i.e., that
the pro se litigant actually “paid [an] attorney for work related to [the lawsuit].” United States v.
Evans. 561 F. App’x 877, 880 (11th Cir. 2014) (alterations added) (internal quotations and
citations omitted). In her “Itemization of Litigation Costs,” (Doc. 473, at 3) (emphasis added),
Plaintiff requests the Court tax as costs against USFBOT expenditures for “Other Attorneys” in
the amount of $30,952.00 but provides no further information or supporting documentation. As
explained by the Court, infra, expenditures for “Other Attorneys” are not recoverable under 28
U.S.C. § 1920. With regard to an award of attorney fees, Plaintiff requests an attorneyfee award
solely for time she spent litigating this case pro se. See (Doc. 473, at f 1) (“Attorney Pro Se time
spent on case[.]”). Moreover, there is no record evidence before the Court that Plaintiff, in fact,
paid an attorney a fee for work related to her lawsuit, or that the fee charged was a reasonable one.
Therefore, Plaintiff is not entitled to an award of attorneys’ fees for time her former counsel may
(or may not) have billed for in litigating this case.

4

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 5 of 14 PagelD 8775

Case No.: 8:15-cv-2787-EAK-AEP
2011) (unpublished) (prevailing pro se plaintiff in Equal Access to Justice Act case
entitled to costs).
The general rule is that prevailing parties are presumptively entitled to costs.
Marx v. Gen. Revenue Corp., 568 U.S. 371, 377 (2013); Fed. R. Civ. P. 54(d)(1)
(“Unless a federal statute, these rules, or a court order provides otherwise, costs —
other than attorney’s fees — should be allowed to the prevailing party.”).
“Notwithstanding this presumption . . . the decision whether to award costs
ultimately lies within the sound discretion of the district court.” Marx, 568 U.S. at
377 (citations omitted).
Federal Rule of Civil Procedure 54(d) permits recovery of those costs
specifically enumerated in 28 U.S.C. § 1920.5 See Arlington Cent. Sch. Bd. of Educ.
v. Murphy. 548 U.S. 291, 301 (2006). Section 1920 provides:
A judge or clerk of any court of the United States may tax as costs the
following:
(1)

Fees of the clerk and marshal;

5 Because Plaintiff, as the prevailing party, seeks an award of attorney’s fees and costs pursuant
to Rule 54, (Doc. 472, at 1), the Court need not decide whether Plaintiff is permitted to recover as
costs “reasonable expenses incurred in case preparation, during the course of litigation, or as an
aspect of settlement of the case” pursuant to 42 U.S.C. § 1988, under which “the traditional
limitations of Rule 54(d) and 28 U.S.C. §§ 1920 and 1923(a) do not apply.” Dowdell v. City of
Apopka. Fla.. 698 F.2d 1181, 1188-89 (11th Cir. 1983). Moreover, the Eleventh Circuit permits
recovery of such costs as part ofan award ofattorney's fees, id. (holding that in civil rights cases
reasonable attorney’s fees, “must include reasonable expenses because attorneys’ fees and
expenses are inseparably intertwined as equally vital components of the cost of litigation”)
(emphasis added), which, as already explained by the Court, supra. Plaintiff, as a pro se litigant,
is not permitted to recover.

5

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 6 of 14 PagelD 8776

Case No.: 8:15-cv-2787-EAK-AEP
(2)

Fees for printed or electronically recorded transcripts necessarily
obtained for use in the case;

(3)

Fees and disbursements for printing and witnesses;

(4)

Fees for exemplification and the costs of making copies of any
materials where the copies are necessarily obtained for use in the
case;

(5)

Docket fees under section 1923 of this title; and

(6)

Compensation of court appointed experts, compensation of
interpreters, and salaries, fees, expenses, and costs of special
interpretation services under section 1828 of this title.

28 U.S.C. § 1920(l)-(6).
The party requesting that costs be taxed bears “the burden of submitting a
costs request that will allow the Court to determine which costs were incurred and
whether [the requesting party is] entitled to them.” Caballero v. Sum Yum Gai, Inc.,
No. 1:08-cv-23018-JJO, 2011 WL 1675001, *5 (S.D. Fla. May 3, 2011)
(unpublished) (alterations added) (citing Lee v. American Eagle Airlines, Inc., 93
F.Supp.2d 1322, 1335 (S.D. Fla. 2000)). The requesting party “must state and
support its request for costs with sufficient specificity so that the Court may
determine whether the costs were necessarily obtained for use in the case.” Crouch
v. Teledyne Cont'lMotors, Inc., No. l:10-cv-00072-KD-N, 2013 WL 203408, at *2
(S.D. Ala. Jan. 17, 2013).
Here, Plaintiff requests that costs be taxed against USFBOT in the amount of
$102,520 as reimbursement for the following:
6

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 7 of 14 PagelD 8777
Case No.: 8:15-cv-2787-EAK-AEP

Item

Amount

Documents copies

$8,190.00

Filing Fees

$3,500.00

Postage

$2,225.00

Process Server

$4,000.00

Miscellaneous

$2,017.00

Medical Reports

$70.00

Subpoenas

$20.00

Court Records/ECF

$1,050.00

Travel - Mileage

$2,856.00

Witness Fees — Expert

$7,500.00

Witness Fees - Regular

$50.00

Supplies

$5,145.00

Hearing Transcripts

$595.00

Deposition Transcripts

$1,500.00

Exhibits

$825.00

Parking - Vehicle

$200.00

Outside Services

$5,625.00

Other Attorneys

$30,952.00

7

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 8 of 14 PagelD 8778

Case No.: 8:15 -cv-2787-EAK-AEP
Printing/Scanning

$10,850.00

Other Fees

$7,000.00

Legal Research

$8,350.00

TOTAL

102,520.00

(Doc. 473, at 3).
Upon review, the following costs do not fall under Section 1920 are not
taxable:
Item

v;'‘-

•

Total

•

Postage

$2,225.00

Process Server

$4,000.00

Medical Reports

$70.00

Subpoenas

$20.00

Court Records/ECF

$1,050.00

Travel - Mileage

$2,856.00

Parking — Vehicle

$200.00

Other Attorneys

$30,952.00

As for the remaining costs, Plaintiff has failed to provide the Court with the
requisite information to decide whether they are appropriately taxable against

8

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 9 of 14 PagelD 8779

Case No.: 8:15-cv-2787-EAK-AEP
USFBOT, and the Court will accordingly deny Plaintiff’s request for costs without
prejudice, as detailed infra.
C. Front Pay
In addition to back pay, prevailing Title VII plaintiffs are presumptively CJ
entitled to either reinstatement or front pay. U.S. E.E.Q.C. v. W&CX Inc., 213 F.3d
600, 619 (11th Cir. 2000). “Although reinstatement is the preferred remedy in a
wrongful discharge case, when extenuating circumstances warrant, the court may
award a plaintiff front pay in lieu of reinstatement.” Armstrong v. Charlotte Cty.
Bd. of Cty. Comm’rs. 273 F.Supp.2d 1312, 1315 (M.D. Fla. 2003) (citing Farley v.
Nationwide Mutual Ins. Co.. 197 F.3d 1322, 1339 (11th Cir. 1999)). “In deciding
whether to award front pay, rather than reinstatement, courts look to whether discord
and antagonism between the parties would render reinstatement ineffective as a
make-whole remedy, the defendant’s management [had] intimidated or threatened
the plaintiff, or the termination had harmed the plaintiff s emotional well-being.”
W&O, Inc.. 213 F.3d at 619 (alterations in original) (internal quotations and citations
omitted).
Here, Plaintiff does not request reinstatement, and USFBOT does not contend
that Plaintiff should be awarded reinstatement rather than front pay. This case
involved sensitive claims for both race-based wrongful termination and retaliation.
The hostility and discord between Plaintiff and her supervisors, peers, and

9

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 10 of 14 PagelD 8780

Case No.: 8:15-cv-2787-EAK-AEP
subordinates was a prevalent theme of USFBOT throughout the trial. Further, it
appears that Plaintiff has secured satisfactory employment with another university.
Accordingly, the Court finds that reinstatement is neither feasible nor desirable to
either party. See Farley, 197 F.3d at 1339 (holding that the district court did not
abuse its discretion in awarding front pay in lieu of reinstatement because of hostility
between former employee and his supervisors). The issues, then, are (1) whether
Plaintiff is entitled to an award of front pay and (2) if so, in what amount.
As explained above, there is a presumption in favor of an award of front pay
to a prevailing Title VII plaintiff.6 W&O, Inc., 213 F.3d at 619. Nonetheless,
USFBOT contends that Plaintiff is not entitled to an award of front pay. (Doc. 484,
at 7-13). Specifically, USFBOT contends that Plaintiff waived her ability to seek
amounts for front pay because she neither disclosed that she would be seeking front
pay in her Rule 26 disclosures nor provided any computation of front pay damages
or served any documents supporting such a computation. Id. at 7-9. USFBOT
further contends that Plaintiff waived her ability to seek amounts for front pay
because she failed to provide a statement of the amount of front pay she was seeking
in the parties’ joint pretrial statement. Id. at 10. The Court rejects both contentions.

6 The Court notes that the Eleventh Circuit’s holding in W&O, Inc, cuts directly against
USFBOT’s contention that Plaintiff is not entitled to an award of front pay because “an award of
front pay is ... [a] special remedy ... warranted only by egregious circumstances.” (Doc. 484, at
10) (underline in original), and the Court accordingly rejects USFBOT’s contention.

10

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 11 of 14 PagelD 8781
Case No.: 8:15-cv-2787-EAK-AEP
Each version of Plaintiff s complaint (of which there were three) includes a request
- or can be read to include a request - for front pay. See, e.g., (Doc. 1 at f 132)
(“Except for reinstatement, DeBose demands all reliefthat is just and equitable^.]”)
(emphasis added); (Doc. 39, at ]fl) (“Plaintiff seeks equitable relief and damages
including . . . front pay[.]”); (Doc. 45, at f 1) (same). Thus, since the inception of
this case, USFBOT has been on notice of Plaintiff s desire for an award of front pay.
In any event, the Eleventh Circuit has held that an award of front pay may be
appropriate even when not specifically requested. Nord v. U.S. Steel Corp., 758
F.2d 1462, 1474 n.12 (11th Cir. 1985); see also Fitzgerald v. Sirloin Stockade, Inc.,
624 F.2d 945, 957 (10th Cir. 1980) (holding that an award of front pay was
appropriate even though the plaintiff did not request reinstatement); Austrum v. Fed.
Cleaning Contractors, Inc., No. 9:14-cv-81245-KAM, 2016 WL 3526130, at *2
(S.D. Fla. June 23, 2016) (holding that the plaintiff did not waive his request for
front pay notwithstanding his failure to identify the issue in the parties’ joint pretrial
stipulation). Accordingly, the Court finds that Plaintiff did not waive her ability to
seek amounts for front pay.
That leaves only the determination of the appropriate amount of front pay. As
a general matter, “front pay is simply money awarded for lost compensation during
the period between judgment and reinstatement or in lieu of reinstatement.” Pollard
v. E.I. du Pont de Nemours & Co.. 532 U.S. 843, 846 (2001). “The plaintiff carries

11

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 12 of 14 PagelD 8782

Case No.: 8:15-cv-2787-EAK-AEP
the initial burden to provide proof of a basis for a front pay award, and the burden
then shifts to the defendant to prove it is inappropriate.” Curtis v. Elecs. & Space
Coro., 113 F.3d 1498, 1503-04 (8th Cir. 1997) (deciding issue in the age
discrimination context) (citing Barbour v. Merrill. 48 F.3d 1270, 1280 (D.C. Cir.
1995)).
Here, Plaintiff requests an award of front pay “for an estimated 5 years,”
which she “estimates” to be “in excess of $175,000.” (Doc. 472, at 6). Regrettably,
Plaintiff has submitted no evidence to support such an award. The only evidence
the Court has is Plaintiffs trial testimony that she was earning “a little less than
$135,000” annually when she was discharged from employment at the University of
South Florida and is currently earning $124, 000 annually. (Doc. 495, at 103:1 18). Thus, questions of fact remain as to what amount of front pay, if any, is
appropriate. Accordingly, the Court will refer the issue of an appropriate award of
front pay to the assigned Magistrate Judge for an evidentiary hearing and report and
recommendation.
III.

Conclusion
Accordingly, it is
ORDERED and ADJUDGED as follows:
1.

That portion of Plaintiff s Motion requesting an award of a reasonable

attorney’s fee is DENIED.

12

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 13 of 14 PagelD 8783
Case No.: 8:15-cv-2787-EAK-AEP
2.

That portion of Plaintiff s motion requesting that the Court tax certain

costs against USFBOT is DENIED WITHOUT PREJUDICE. On or before
November 2,2018, Plaintiff shall file a proposed Bill of Costs,7 not inconsistent with
this Order, along with supporting documentation that will allow the Court to
determine which costs were actually incurred and in what amount. Failure to support
her requests for costs with sufficient specificity so that the Court may determine
whether the costs (1) as an initial matter, fall under Section 1920 and (2) were
actually incurred and in what amount will result in the Court denying those requests
outright.
3.

That that portion of Plaintiff s Motion requesting an award of front pay

is REFERRED to Magistrate Judge Anthony E. Porcelli for an evidentiary hearing,
to be set by separate notice, and a Report and Recommendation to the undersigned.
DONE and ORDERED in Chambers, in Tampa, Florida this /J day of
October, 2018.

W

^^^^ffl^ABETTTATKOVACTIEyjClT^-^
UNITED STATES DISTRICT JUDGE^IT

7 A form proposed Bill of Costs can be found at http://www.uscourts.gov/forms/other-fonns/bilIcosts-district-court.

13

Case 8:15-cv-02787-EAK-AEP Document 499 Filed 10/19/18 Page 14 of 14 PagelD 8784

Case No.: 8:15-cv-2787-EAK-AEP
Copies furnished to:
Counsel of Record
Unrepresented Parties

14

Case 8:15-cv-02787-EAK-AEP Document 482 Filed 10/05/18 Page 1 of 2 PagelD 69P"

IF
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

CO
rH

I

i

<51
ANGELA W. DEBOSE,
Plaintiff,
%

Case No.: 8:15-cv-2787-T-17AEP '

v.
UNIVERSITY OF SOUTH FLORIDA BOARD
OF TRUSTEES and ELLUCIAN COMPANY,
L.P.
Defendants.

AMENDED JUDGMENT IN A CIVIL CASE
Jury Verdict.

This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of PlaintiffAngela
DeBose in the amount of $310,500.00 and against Defendant University of South Florida Board
of Trustees on Plaintiff’s retaliation claim, in accordance with the jury’s verdict.
IT IS FURTHER ORDERED AND ADJUDGED that judgment is entered in favor of
Plaintiff and against Defendant University of South Florida Board of Trustees on her disparate
treatment race discrimination claim, in accordance with the jury’s verdict; Plaintiff takes nothing
on her claim for compensatory or back pay damages.

Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that pursuant to the Court’s Order entered
September 29,2017, judgment is hereby entered in favor of Defendant University of South Florida
Board of Trustees and against Plaintiff on Plaintiff’s disparate treatment gender discrimination,

$3>

Case 8:15-cv-02787-EAK-AEP Document 482 Filed 10/05/18 Page 2 of 2 PagelD 6985
Case No.: 8:15-CV-2787-EAK-AEP
disparate impact race and gender discrimination, breach of contract, tortious interference, and civil
conspiracy claims.
ELIZABETH M. WARREN,
CLERK
s/src, Deputy Clerk

2

Case 8:15-cv-02787-EAK-AEP Document 474 Filed 10/02/18 Page 1 of 3 PagelD 6170

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

!

A-14

ANGELA W. DEBOSE,

:'* :

Plaintiff,

'v______ _

Case No.: 8:15-cv-2787-T-17AEP

v.
UNIVERSITY OF SOUTH FLORIDA BOARD
OF TRUSTEES and ELLUCIAN COMPANY,
L.P.
Defendants.

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that pursuant to the Court’s Order entered
September 29, 2017, judgment is hereby entered in favor of Defendant Ellucian Company, L.P.,
and against Plaintiff Angela DeBose on Plaintiffs tortious interference and civil conspiracy
claims.
ELIZABETH M. WARREN,
CLERK
s/src, Deputy Clerk

Case 8:15-cv-02787-EAK-AEP Document 474 Filed 10/02/18 Page 2 of 3 PagelD 6171

CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders: Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orders pursuant to 28 U.S.C. Section 1291: Only final orders and judgments of district
courts, or final orders of bankruptcy courts which have been appealed to and fully resolved by a district court
under 28 U.S.C. Section 158, generally are appealable. A final decision is one that “ends the litigation on the
merits and leaves nothing for the court to do but execute the judgment.” Pitney Bowes. Inc. V. Mestre. 701
F.2d 1365, 1368(11th Cir. 1983). A magistrate judge’s report and recommendation is not final and appealable
until judgment thereon is entered by a district court judge. 28 U.S.C. Section 636(c).

(b)

In cases involving multiple parties or multiple claims, a judgment as to fewer than all parties or all claims
is not a final, appealable decision unless the district court has certified the judgment for immediate review
under FedJfLCiv.P. 54(b), Williams v. Bishop. 732 F.2d 885, 885-86 (11th Cir. 1984). A judgment which
resolves all issues except matters, such as attorneys’ fees and costs, that are collateral to the merits, is
immediately appealable. Budinich v. Becton Dickinson & Co.. 486 U.S. 196, 201, 108 S. Ct. 1717, 1721-22,
100 L.Ed.2d 178 (1988); LaChance v. Duffy’s Draft House. Inc.. 146 F.3d 832, 837 (11th Cir. 1998).

(C)

Appeals pursuant to 28 U.S.C. Section 1292(a): Appeals are permitted from orders “granting, continuing,
modifying, refusing or dissolving injunctions or refusing to dissolve or modify injunctions...” and from
“[ijnterlocutoiy decrees...determining the rights and liabilities of parties to admiralty cases in which appeals
from final decrees are allowed.” Interlocutoty appeals from orders denying temporary restraining orders are
not permitted.

(d)

Appeals pursuant to 28 U.S.C. Section 1292(b) and Fed.ILApp.P.5: The certification specified in 28 U.S.C.
Section 1292(b) must be obtained before a petition for permission to appeal is filed in the Court of Appeals.
The district court’s denial of a motion for certification is not itself appealable.

(e)

Appeals pursuant to judicially created exceptions to the finality rule: Limited exceptions are discussed in
cases including, but not limited to: Cohen V. Beneficial Indus. Loan Coro.. 337 U.S. 541,546,69 S.Ct. 1221,
1225-26, 93 L.Ed. 1528 (1949); Atlantic Fed. Sav. & Loan Ass’n v. Blvthe Eastman Paine Webber. Inc.. 890
F. 2d 371, 376 (11th Cir. 1989); Gillespie v. United States Steel Corn.. 379 U.S. 148, 157, 85 S. Ct. 308, 312,
13L.Ed.2d 199(1964).

Time for Filing: The timely filing of a notice of appeal is mandatory and jurisdictional. Rinaldo v. Corbett 256 F.3d
1276, 1278 (11th Cir. 2001). In civil cases, Fed.R.App.P.4(a) and (c) set the following time limits:

(a)

Fed.R-App.P. 4(a)(1): A notice of appeal in compliance with the requirements set forth in FecLILApp.P. 3
must be filed in the district court within 30 days after the entry of the order or judgment appealed from.
However, if die United States or an officer or agency thereof is a party, the notice of appeal must be filed in
the district court within 60 days after such entry. THE NOTICE MUST BE RECEIVED AND FILED IN
THE DISTRICT COURT NO LATER THAN THE LAST DAY OF THE APPEAL PERIOD - no
additional days are provided for mailing. Special filing provisions for inmates are discussed below.

(b)

Fed.RApp.P. 4(a)(3): “If one party timely files a notice of appeal, any other parly may file a notice of appeal
within 14 days after the date when the first notice was filed, or within the time otherwise prescribed by this
Rule 4(a), whichever period ends later.”

(C)

FedJLApp.P.4(a)(4): If any party makes a timely motion in the district court under the Federal Rules of Civil
Procedure of a type specified in this rule, the time for appeal for all parties runs from die date of entry of the
order disposing of the last such timely filed motion.

(d)

Fcd.R.App.P.4(a)(5) and 4(a)(6): Under certain limited circumstances, the district court may extend the time
to file a notice of appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extension is filed
within 30 days after expiration of the time otherwise provided to file a notice of appeal, upon a showing of
excusable neglect or good cause. Under Rule 4(a)(6), the time may be extended if the district court finds upon

Case 8:15-cv-02787-EAK-AEP Document 474 Filed 10/02/18 Page 3 of 3 PagelD 6172

motion that a party did not timely receive notice of the entry of the judgment or order, and that no party would
be prejudiced by an extension.

(e)

Fed.R.App.P.4(c): If an inmate confined to an institution files a notice of appeal in either a civil case or a
criminal case, the notice of appeal is timely if it is deposited in the institution’s internal mail system on or
before the last day for filing. Timely filing may be shown by a declaration in compliance with 28 U.S.C.
Section 1746 or a notarized statement, either of which must set forth the date of deposit and state that firstclass postage has been prepaid.

3.

Format of the notice of appeal: Form 1, Appendix of Forms to the Federal Rules of Appellate Procedure, is a suitable
format. See also Fed.R-App.P. 3(c). A pro se notice of appeal must be signed by the appellant

4.

Effect of a notice of appeal: A district court loses jurisdiction (authority) to act after the filing of a timely notice of
appeal, except for actions in aid of appellate jurisdiction or to rule on a timely motion of the type specified in
Fed.R.App.P. 4(a)(4).

Case 8:15-cv-02787-EAK-AEP Document 475 Filed 10/02/18 Page 1 of 1 PagelD 6173

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA W. DEBOSE,

A-15
it* ■

Plaintiff,
Case No.: 8:15-cv-2787-EAK-AEP

v.
UNIVERSITY OF SOUTH FLORIDA BOARD
OF TRUSTEES and ELLUCIAN COMPANY,
L.P.
Defendants.

JUDGMENT IN A CIVIL CASE
Jury Verdict.

This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of PlaintiffAngela
DeBose in the amount of $310,500.00 and against Defendant University of South Florida Board
of Trustees on Plaintiff’s disparate treatment race discrimination and retaliation claims, in
accordance with the jury’s verdict.
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS FURTHER ORDERED AND ADJUDGED that pursuant to the Court’s Order
entered September 29,2017, j udgment is hereby entered in favor of Defendant University of South
Florida Board of Trustees and against Plaintiff on Plaintiffs disparate treatment gender
discrimination, disparate impact race and gender discrimination, breach of contract, tortious
interference, and civil conspiracy claims.
ELIZABETH M. WARREN*
CLERK
s/src, Deputy Clerk

<-

=*!<

;

ise 8:15-cv-02787-EAK-AEP Document 471 Filed 09/26/18 Page 1 of 5 PagelD 6153
V

1

rH

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

I

<

A

ANGELA W. DEBOSE,
Plaintiff,

\£&

Case No.: 8:15-cv-2787-EAK-AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES,
Defendant.

COURT’S VERDICT FORM
Please carefully read the questions below and provide your answers in the
spaces provided:
I.

Race Discrimination
Do you find from a preponderance of the evidence:
(1)

That the University of South Florida discharged Ms. DeBose from

employment?
Answer Yes or No

Ve^

[Ifyour answer to this question is “No, ” this ends your deliberations
as to Ms. DeBose’s race discrimination claim, and you should skip to
question 11(1). Ifyour answer to this question is “Yes, ” go to the next
question.]

* Case 8:15-cv-02787-EAK-AEP Document 471 Filed 09/26/18 Page 2 of 5 PagelD 6154

Case No.: 8:15-cv-2787-EAK-AEP
(2)

That Ms, DeBose’s race was a motivating factor that prompted the

University of South Florida to take that action?
Answer Yes or No
[Ifyour answer to this question is “No, ” this ends your deliberations
Os to Ms. DeBose’s race discrimination claim, and you should skip to
question 11(1). Ifyour answer to this question is “Yes, ” go to the next
question.]

(3)

That the University of South Florida would have discharged Ms.

DeBose from employment even ifthe University of South Florida had not taken Ms.
DeBose’s race into account?

M-cs

Answer Yes or No

[Ifyour answer to this question is “Yes, “ this ends your deliberations
as to Ms. DeBose’s race discrimination claim, and you should skip to
question 11(1). Ifyour answer to this question is “No, ” go to the next
question.]

2

. Case 8:15-cv-02787-EAK-AEP Document 471 Filed 09/26/18 Page 3 of 5 PagelD 6155

Case No.: 8:15-cv-2787-EAK-AEP
(4)

That Ms. DeBose should be awarded damages to compensate for a net

loss of wages and benefits to the date of your verdict?
Answer Yes or No
If your answer is “Yes,”
$
in what amount?

II.

Retaliation
Do you find from a preponderance of the evidence:
(1)

That Ms. DeBose engaged in protected activity?
Answer Yes or No

[Ifyour answer to this question is “No, ” this ends your deliberations,
and your foreperson should sign and date the last page of this verdict
form. Ifyour answer to this question is “Yes, ” go to the next question.]

(2)

That the University of South Florida took an adverse employment

action against Ms. DeBose?
Answer Yes or No
[Ifyour answer to this question is “No, ” this ends your deliberations,
and your foreperson should sign and date the last page of this verdict
form. Ifyour answer to this question is “YeS, " go to the next question.]

3

• Case 8:15-cv-02787-EAK-AEP Document 471 Filed 09/26/18 Page 4 of 5 PagelD 6156

Case No.: 8:15-cv-2787-EAK-AEP
(3)

That the University of South Florida took the adverse employment

action because of Ms. DeBose’s protected activity?
Answer Yes or No
[Ifyour answer to this question is "No, ” this ends your deliberations,
and your foreperson should sign and date the last page of this verdict
form. Ifyour answer to this question is "Yes, ” go to the next question.]

(4)

That Ms. DeBose suffered damages because of the adverse employment

action?

N P£>

Answer Yes or No

[Ifyour answer to this question is "No, ” this ends your deliberations,
and your foreperson Should sign and date the last page of this verdict
form. Ifyour answer is "YeS, ’* go to the next question,]

(5)

That Ms. DeBose should be awarded damages to compensate for a net

loss of wages and benefits to the date of your verdict?
Answer Yes or No
If your answer is “Yes,”
$
in what amount?

4

rMQfflCUflO

. Case 8:15-cv-02787-EAK-AEP Document 471 Filed 09/26/18 Page 5 of 5 PagelD 6157

Case No.: 8:15-cv-2787-EAK-AEP

So Say We All.

0

Foreperson’s Signature

Date: *^1*

¥5

5

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 1 of 27 PagelD 3499

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
ANGELA W. DEBOSE,

*A-17
V

Plaintiff,
Case No: 8:15-cv-2787-T-17AEP

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES and ELLUCIAN
COMPANY, L.P.,
Defendants.
ORDER

This cause comes before the Court pursuant to the motions for summary judgment
(Doc. Nos. 68 and 75) (the “Summary Judgment Motions”) filed by the Defendants,
University of South Florida Board of Trustees (“USF"), and Ellucian Company, L.P.
(“Ellucian”), and the responses in opposition (Doc. Nos. 151 and 169) filed by pro se
Plaintiff, Angela W. DeBose (the “Plaintiff or “DeBose”). For the reasons set forth below,
the Summary Judgment Motions are GRANTED IN PART AND DENIED IN PART.
I.

Introduction
The Court must decide whether DeBose is entitled to a jury trial on her claims that

USF terminated her employment after 27 years due to race/gender discrimination and/or
in retaliation for her complaints of discrimination. Because DeBose has testified under
penalty of perjury that high-ranking employees at USF have admitted to her that the
person who fired her is, essentially, a virulent racist, DeBose is entitled to her day in Court
on her claim that she was fired due to her race/gender. Similariy, DeBose strings together
enough circumstantial evidence to proceed to a jury on her retaliation claims, in which

A

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 2 of 27 PagelD 3500

she contends that she was terminated and given a poor employment review for protesting
USF’s alleged acts of discrimination. The remainder of DeBose’s claims, however, are
far too speculative and unsupported to withstand summary judgment. As a result, the
Summary Judgment Motions are granted in part and denied in part.
It.

Background
A.

Plaintiffs employment history at USF

The Plaintiff was hired by USF in 1988 and became the USF Registrar on October
1, 1996. (Doc. No. 76, at 1). DeBose remained Registrar until her employment was
terminated on August 19, 2015. (Doc. No. 76, at 10).
B.

Plaintiffs tenure under the supervision of Paul Dosal

On July 1, 2010, Paul Dosal became DeBose’s direct supervisor. (Doc. No. 76, at
2). DeBose initially had a “good relationship” with Dosal. (A. DeBose Dep. Tr. 33:3-6).
So much so that during 2011 or 2012, (A. DeBose Dep. Tr. 169:11-14), Dosal allegedly
confided in her that USF’s Provost, Ralph Wilcox, is “a nasty son of a bitch,” and that
“he’s not going to think highly of you ... because ... you’re black.” (A. DeBose Dep. Tr.
167:19—168:14).
Things “changed” with Dosal, however, in late 2013 and early 2014. (A. DeBose
Dep. Tr. 33:12-14). During that time period, DeBose claims that Dosal “started being
more aggressive, edgy," “would clench his jaw,” and “just stopped being pleasant at all.”
(A. DeBose Dep. Tr. 34:10-15). According to DeBose, Dosal’s animosity towards her
spread to others at USF, including another employee named Travis Thompson, who

2

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 3 of 27 PagelD 3501

allegedly told Dosal that DeBose was not collaborative and that things were not going
well with Degree Works.1 (A. DeBose Dep. Tr. 34:18-24—35:1-16).
Bothered by these issues, Dosal allegedly met with DeBose in the spring of 2014
and counseled her to work and behave more collaboratively. (Doc. No. 76, at 3). USF
claims that DeBose's behavior did not improve and, in June of 2014, Dosal informed
DeBose that responsibility for Degree Works and ATLAS were being transferred from the
Registrar’s Office to the information technology department. (A. DeBose Dep. Tr. 55:1319). According to Dosal, the decision to transfer Degree Works and ATLAS away from
the Registrar’s Office came from USF Provost Ralph Wilcox. (A. DeBose Dep. Tr. 55:2324). Around the same time, an email circulated within USF that accused DeBose of being
responsible for the resignation of another USF employee, Caurie Waddell. (A. DeBose
Dep. Tr. 63:17-25); (P. Dosal Dep. Tr. 36:15-19). According to DeBose, she feared that
the Caurie Waddell situation was “going to be used as ... grounds for [her] termination.”
(A. DeBose Dep. Tr. 63:17-25).
C.

The AVP EPM position

During the summer of 2014, while the foregoing issues were percolating through
the school, the position of Assistant Vice President for Enrollment Planning and
Management (“AVP EPM") became vacant at USF. (Doc. No. 76, at 4). Dosal was
responsible for filling the vacant AVP EPM position and, after consultation with Ralph
Wilcox and USF President Judy Genshaft, USF employee Billie Jo Hamilton was
appointed to the AVP EPM position. (Doc. No. 76, at 5). DeBose disagreed with USF’s

1 Previously, in the spring of 2011, Dosal transferred responsibility for USF’s degree
audit system, Degree Works, and its academic tracking system, ATLAS, to the
Registrar’s Office. (Doc. No. 76, at 3).

3

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 4 of 27 PagelD 3502

decision to directly appoint Hamilton to the AVP EPM position in lieu of conducting a
national search. (A. DeBose Dep. Tr. 305:3-4). In fact, DeBose wanted the job for herself,
and believed she was “a very strong candidate for the AVP position." (A. DeBose Dep.
Tr. 310:2-4).
Dosal met with DeBose in July of 2014, ostensibly to try and patch things up. At
that meeting, Dosal allegedly promised that he would “make it clear” to the USF
community that he remained confident in DeBose, and told her he hoped she would
remain a member of his team through the end of his tenure in 2019. (A. DeBose Dep. Tr.
66:8-15, 66:16-25—67:1-15). DeBose claims that during the meeting, Dosal responded
to her request for an increase in compensation2 by “allud[ing] to . . . N****r, you already
make too much money." (A. DeBose Dep. Tr. 139:17-23). When DeBose responded that
she believed she was not selected for the AVP EPM position because of her race, he
allegedly “clenched his jaw” and denied that race was a factor, instead telling DeBose
“the provost wants this." (A. DeBose Dep. Tr. 150:22—152:21). Following the meeting,
on July 28,2014, DeBose filed an internal complaint with USF, referencing discrimination
with respect to the Degree Works/ATLAS transfer, Caurie Waddell email, and the AVP
EPM appointment incidents.
D.

DeBose’s EEOC complaint and alleged acts of retaliation

After DeBose filed her internal complaint, she claims she “got a reprieve” from
Dosal’s allegedly hostile behavior. (A. DeBose Dep. Tr. 212:19-22). However, towards
the end of the year, she filed a complaint with the EEOC, after which she alleges “things
began to ramp up to an unacceptable level.” (A. DeBose Dep. Tr. 230:6-13). For instance
2 Two days after being informed of Hamilton’s appointment to the AVP EPM position,
DeBose sent a memorandum to Dosal requesting a pay raise. (Doc. No. 76, at 6).

4

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 5 of 27 PagelD 3503

DeBose claims that after she filed the EEOC complaint she was “asked into meetings
with no agenda .. . was not treated well or respectfully or civilly.. . was marginalized ..
. berated . .. [and] treated poorly." (A. DeBose Dep. Tr. 230:6-20).
E.

The Alexis Mootoo incident and subsequent written reprimand

DeBose’s acrimony with USF worsened on January 29, 2015, when DeBose
attended a meeting with Dosal to discuss implementation of a new shared services model.
(A. DeBose Dep. Tr. 77:1 -10). Also present at the meeting was another African American
employee, Alexis Mootoo, who allegedly had a history of “making [DeBose] and other
people in [DeBose's] office uncomfortable with abusive language,” including gratuitous
use of the word “n **** r." (A. DeBose Dep. Tr. 77:11-25—78:1-21). During the meeting,
DeBose allegedly took umbrage with Mootoo’s involvement in the implementation of the
new shared services model, and referred to her as a “little girl” and told her to “stay in her
lane.” (A. DeBose Dep. Tr. 83:10-21).
While DeBose denies making those statements, Mootoo reported DeBose’s
alleged “little girl” comment to authorities at USF, who issued DeBose a written reprimand.
(A. DeBose Dep. Tr. 83:22-24) (Doc. No. 77-2, at 2). According to DeBose, Mootoo
fabricated the story in exchange for a deal with Dosal under which Mootoo would receive
more favorable “pay and position.” (A. Dep. Tr. 84:2—86:24). In support, DeBose claims
that “Alexis Mootoo [would come] into the office supposedly for budget meetings and
talking about n****r this and n****r that.. . [but that] Dosal knew about [her use of the
word *n***T]’ and didn’t have a problem with it." (A. DeBose Dep. Tr. 159:23—160:4).

F.

DeBose’s allegations of a “backdrop” of racist conduct at USF

DeBose claims that by this time in her career at USF, “[t]here were constant
references to [her as an] angry black woman, black bitch, n****r this, n****r that." (A.

5

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 6 of 27 PagelD 3504

DeBose Dep. Tr. 164:11-20). While DeBose reluctantly admits that Dosal did not call her
an “angry black woman, black bitch, [or] n **** r,” (A. DeBose Dep. Tr. 164:21—165:9), she
accuses Dosal of making veiled “racial statements” over the course of her time at USF,
including a 2010/20113 comment in which he told her he was moving out of “the hood”
and that she should do the same because they were the “only two people of color in
EPM,” (A. DeBose Dep. Tr. 166:5-16), a 20134 statement in which he asked her to attend
Black Faculty Staff Association breakfasts, but that he did not want her to "be a token,”
(A. DeBose Dep. Tr. 169:24—170:13), and another incident in which he allegedly
disparaged a “black Hispanic” person who had accused him of discrimination of having
“forgotten . . . where he came from.” (A. DeBose Dep. Tr. 172:24—173:21). DeBose
further claims that Dosal told her that “others" at USF referred to her as “an angry black
woman or black bitch or those kinds of things.” (A. DeBose Dep. Tr. 171:19-23). DeBose
claims that she asked Dosal who said those things, but that "he would not disclose" the
source of his information. (A. DeBose Dep. Tr. 171:24—172:1).5
G.

The Ellucian audit and report

Approximately one month after DeBose filed her EEOC complaint, during February
of 2015, USF engaged a consulting firm, Ellucian, to review and assess its
implementation of Degree Works. (Doc. No. 76, at 8). As part of that review, Ellucian
selected consultant Andrea Diamond to visit the USF campus and meet with several
employees, including DeBose. (Doc. No. 76, at 8).

When DeBose met with Diamond,

3 (A. DeBose Dep. Tr. 166:17—167:16).
4 (A. DeBose Dep. Tr. 171:8-12).
5 The “angry black woman” and “black bitch” comments allegedly occurred during 2014
when DeBose told Dosal about an incident in which some unknown person vandalized
her car with the derogatory phrase “wild bitch.” (A. DeBose Dep. Tr. 124:23—125:3;
172:2-19).

6

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 7 of 27 PagelD 3505

she claims that Diamond’s body language, face, and demeanor were “angry.” (A. DeBose
L)ep. Tr. 97:16-23). After the meeting, Ellucian prepared a report (the “Ellucian Report”)
stating, among other things, that the Registrar’s Office lacked an “atmosphere of working
together for the good of the institution” and was “not willing to encompass change.” (Doc.
No. 76, at 8-9).
DeBose vehemently disagrees with the conclusions and recommendations
contained in the Ellucian Report, and claims that Diamond “went out of her way ... to
cast a negative light on the registrar’s office" and that Diamond did not sincerely or
honestly believed the opinions she expressed regarding the Registrar’s Office. (A.
DeBose Dep. Tr. 98:3—99:24). Rather, DeBose believes that Ellucian colluded with USF
to give the school a non-discriminatory reason to fire her form her position. In support,
DeBose cites to evidence that the Registrar’s Office was included in the scope of
Ellucian’s review at the request or suggestion of USF. (A. DeBose Dep. Tr. 101:18-102:3).
However, DeBose also admits that she lacks any firsthand knowledge that USF was
responsible for the inclusion of negative information or opinions about her office in the
Ellucian Report. (A. DeBose Dep. Tr. 101:4-10).
H.

DeBose’s non-reappointment as Registrar

The Ellucian Report was ultimately the final nail in the coffin for DeBose’s 2/ year
career USF. After reviewing the Ellucian Report, Ralph Wilcox made the decision to nonrenew DeBose’s employment. (Doc. No. 76, at 9). On May 19,2015, DeBose was issued
a notice of non-reappointment, which effectively terminated her employment as of August
19, 2015. (Doc. No. 76, at 10).

7

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 8 of 27 PagelD 3506

I.

USF’s negative review of DeBose

Following her receipt of the notice of non-reappointment, DeBose communicated
with her friend, Albert Colom, regarding possible employment at the University of North
Florida ("UNF”). (A. DeBose Dep. Tr. 13:15-18). On or around May 20, 2015, Colom sent
a text message to DeBose stating that “depending on what you are interested in doing I
can help here at UNF. That is if you want to stay in Florida. I have a few ideas.” (Doc.
No. 79-1, at 1). DeBose responded “Love to talk about them as your time permits.” (Doc.
No. 79-1, at 1).
On May 26, 2015, Ralph Wilcox had a brief telephone call with UNF Provost Dr.
Earle Traynham regarding his assessment of DeBose’s professional capabilities for
possible employment at UNF. (Doc. No. 78, at

8-9).

Wilcox claims he was

complementary of DeBose’s technical skills and abilities, but indicated that he believed
she was not collaborative and was resistant to change. (Doc. No. 78, at

8-9). DeBose

tells a far different story, claiming that according to Colom, Wilcox told Traynham that
DeBose was ‘toxic,” “horrible," “uncollaborative,” “awful,” “if he hired [her], that he would
regret it," and “he had been trying to get rid of [her] for years." (A. DeBose Dep. Tr. 15:2325—16:1-2). DeBose further claims “a guy named Lance,” who “works at USF," told her
that Wilcox bragged to Traynham “about undoing [her]”; that he “wanted [DeBose] to have
nothing ... not even a shirt.... bare, exposed with nothing.” (A. DeBose Dep. Tr. 290:111).
J.

DeBose is not selected for employment at UNF

Following the Traynham conversation, on May 27, 2015, DeBose received a text
message from Colom stating “Hello spoke to my provost and we decided to pass on the

8

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 9 of 27 PagelD 3507

idea. I had good hope we could work together again. I am so sorry." (Doc. No. 79-1, at
2). Ultimately, DeBose did not obtain employment with UNF.
III.

Standard of Review
“Federal Rule of Civil Procedure 56 requires that summary judgment be granted if

the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any, show that there is no genuine issue as to any material fact and
that the moving party is entitled to judgment as a matter of law.” U.S. Commodity Futures
Trading Com’n v. Am. Derivatives Corp., 2008 WL 2571691, at *2 (N.D. Ga. June 23,
2008) (internal quotations omitted). “The moving party bears the initial responsibility of
informing the court of the bases for its motion, and identifying those portions of the
pleadings, depositions, answers to interrogatories, and admissions on file, together with
the affidavits, if any, which it believes demonstrate the absence of a genuine issue of
material fact.” Id. (internal quotations omitted). “Where the moving party makes such a
showing, the burden shifts to the non-movant, who must go beyond the pleadings and
present affirmative evidence to show that a genuine issue of material fact does exist.” Id.
“A fact is not material if a dispute over that fact will not affect the outcome of the suit under
the governing law." Id. “An issue is genuine when the evidence is such that a reasonable
jury could return a verdict for the non-moving party.” Id.
Importantly, on a motion for summary judgment, the Court “may consider only that
evidence which can be reduced to an admissible form.” Rowell v. BellSouth Corp., 433
F.3d 794, 800 (11th Cir. 2005). To be admissible in support of or in opposition to a
motion for summary judgment, a document must be authenticated by and attached to an
affidavit that meets the requirements of Rule 56[c][4], and the affiant must be a person
through whom the exhibits could be admitted into evidence.” Sauders v. Emory

9

Case 8:15-CV-02787-EAK-AEP Document 210 Filed 09/29/17 Page 10 of 27 PagelD 3508

Healthcare, Inc., 360 F. App’x 110, 113 (11th Cir. 2010).

Here, DeBose has not

authenticated any of the approximately 550 pages of documents attached to Doc. Nos.
165, 166, 187, and 188 and, as a result, none of those documents will be considered in
response to or in support of the Summary Judgment Motions. Instead, the Court will
restrict its analysis to those materials properly before the Court, including DeBose’s
deposition transcript and the affidavits submitted by representatives of the Defendants.
IV.

Discussion
In her third amended complaint (Doc. No. 45) (the “TAC”), DeBose asserts the

following claims: Count I - gender and/or race (primarily gender) discrimination under
Title VII6 and the FCRA7 based on USF's failure to promote her to the AVP EPM position
and her non-reappointment as Registrar; Count II - retaliation under Title VII and the
FCRA based on her gender coupled with USF’s failure to promote her to the AVP EPM
position, her non-reappointment as Registrar, and Wilcox’s poor reference to UNF; Count
III gender and/or race discrimination (primarily race) under Title VII and the FCRA based
on USF’s failure to promote her to the AVP EPM position and based on her non­
reappointment as Registrar; Count IV - retaliation under Title VII and the FCRA based on
her race coupled with USF’s failure to promote her to the AVP EPM position, her non­
reappointment as Registrar, and Wilcox’s poor reference to UNF; Count V - disparate
impact based on her gender under Title VII and the FCRA related to the direct
appointment of Hamilton to the AVP EPM position; Count VI - disparate impact based on
her race under Title VII and the FCRA related to the direct appointment of Hamilton to the
AVP EPM position; Count VII-breach of contract; Count VIII - tortious interference based
6 AH references to ‘Title VI I” are to Title VII of the Civil Rights Act of 1964 (“Title VII”).
7 All references to the “FCRA” are to Chapter 760 of the Florida Statutes (the “FCRA”).

10

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 11 of 27 PagelD 3509

on Ellucian’s conduct in drafting the Ellucian Report; Count IX - tortious interference
based on USF’s conduct in giving her a negative review to UNF; and Count X - civil
conspiracy between Ellucian and USF related to the Ellucian Report. Because both
Defendants have moved for summary judgment on ail of the Plaintiffs claims, the Court
will address each category of claims, in turn, below.
A.

Employment Discrimination Claims

In Counts I and III of the TAC, the Plaintiff asserts claims for gender and race
discrimination, respectively, under Title VII and the FCRA. “Title VII prohibits an employer
from discriminating ‘against any individual with respect to [her] compensation, terms,
conditions, or privileges of employment because of such individual’s race, color, religion,
sex, or national origin.’” Vickers v. Fed. Express. Corp., 132 F.Supp.2d 1371,1377 (S.D.
Fla. 2000) (quoting 42 U.S.C. § 2000e-2(a)). “Since the FCRA essentially mirrors Title
VII, Florida courts look to federal case law construing Title VII” when ruling on FRCA
claims. McCabe v. Excel Hospitality, Inc., 294 F.Supp.2d 1311,1313 n.1 (M.D. Fla. 2003).
Discriminatory intent, the hallmark of a claim for employment discrimination under
Title VII and the FRCA, “can be established through either direct or circumstantial
evidence.” Vickers, 132 F.Supp.2d at 1377 (S.D. Fla. 2000). Here, while the Plaintiffs
deposition testimony references a plethora of racially charged remarks during her tenure
at USF, most of those statements were remote in time from the adverse employment
actions at issue in this case and, in any event, do not specifically address USF’s reasons
for terminating DeBose’s employment. See (A. DeBose Dep. Tr. 186:11-18) (referencing
an alleged “backdrop” of statements about her “race, black woman, angry black woman,
black bitch, those kinds of things,” but not specifically linking any of the foregoing
statements to the alleged adverse employment actions). Thus, given the lack of direct

11

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 12 of 27 PagelD 3510

evidence of discrimination, the Court must consider whether there is sufficient
circumstantial evidence of USF’s alleged discriminatory intent for the Plaintiff to survive
summary judgment.
Where the “plaintiff seeks to prove intentional discrimination through circumstantial
evidence of the employer’s intent... [the] [p]lainitiff has the initial burden of establishing
a prima facie case of discrimination." Id. at 1378-79. A plaintiff makes out a prima facie
case of discrimination when she shows, by a preponderance of the evidence, that (1) she
is a member of a protected class, (2) she was qualified for the position, (3) she
experienced an adverse employment action, and (4) she was replaced by someone
outside of her protected class or received less favorable treatment than a similarly
situated person outside of her protected class.” Flowers v. Troup Cty., Ga., Sch. Dist.,
2015 WL 6081186, at *6 (11th Cir. Oct. 16, 2015).
THhe establishment of a prima facie case creates a presumption that the employer
discriminated against a plaintiff on the basis of race." Id. “[T]he burden then shifts to the
employer to produce a legitimate nondiscriminatory reason for the action taken against
the plaintiff.” Id. “Once the employer advances its legitimate, nondiscriminatory reason
the plaintiffs prima facie case is rebutted and all presumptions drop from the case.” Id.
The plaintiff then bears the “ultimate burden of persuading the court that she has been
the victim of intentional discrimination." Id. Accordingly, merely establishing a prima facie
case of racial discrimination “is not, and never was intended to be, the sine qua non for a
plaintiff to survive a summary judgment motion." Id. Rather, the “critical decision that
must be made is whether the plaintiff has created a triable issue concerning the
employer’s discriminatory intent.” Id.

12

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 13 of 27 PagelD 3511

Here, USF acknowledges that (1) DeBose is a member of a protected class, (2)
Hamilton’s promotion to AVP EPM and DeBose’s non-renewal as Registrar constituted
adverse employment actions, and (3) genuine issues of material fact exist regarding
whether DeBose was qualified for her position as Registrar. However, USF disputes that
DeBose has carried her initial burden of establishing that the written reprimand she
received following the Alexis Mootoo episode constituted an adverse employment action,
or that she received less favorable treatment than a similarly situated person outside of
her protected class. Moreover, even if DeBose can make out a prima facie case on her
promotion discrimination claim, USF contends that DeBose has failed to show that USF’s
decision to promote Hamilton was pretextual. The Court will address each issue in turn
below.
1.

Written Reprimand

For starters, Counts I and III of the TAC assert claims for employment
discrimination based on the adverse employment actions of “failure to promote” and for
“termination” of employment. (TAC, at flU 129, 142). Since the written reprimand that
DeBose received in connection with the Alexis Mootoo incident has not been identified as
an adverse employment action in either Count I or III of the TAC, DeBose has failed to
plead, much less prove, that the written reprimand was issued with discriminatory intent.
Moreover, even if the Court were to liberally construe the TAC to include such a claim,
“to prove adverse employment action ... an employee must show a serious and material
change in the terms, conditions, or privileges of employment." Anderson v. United Parcel
Serv., Inc., 248 F. App’x 97, 100 (11th Cir. 2007) (emphasis in original),

”[T]he

employee’s subjective view of the significance and adversity of the employer’s action is
not controlling; the employment action must be materially adverse as viewed by a

13

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 14 of 27 PagelD 3512

reasonable person in the circumstances.” Id. Here, DeBose has failed to demonstrate
that the written reprimand resulted in a serious and material change in the terms,
conditions, or privileges of her employment. To the contrary, the record is devoid of any
evidence that the written reprimand had any adverse effect on DeBose’s employment.
For that reason alone, USF is entitled to summary judgment on any claim for employment
discrimination based on the written reprimand.
2.

Less Favorable Treatment than a Similarly Situated Person Outside
of DeBose’s Protected Class

As part of the Title VII plaintiffs prima facie case, the plaintiff must show that “[s]he
was replaced by someone outside of [her] protected class or received less favorable
treatment than a similarly situated person outside of [her] protected class.” Flowers, 2015
WL 6081186, at *6. Importantly, “when a Title VII plaintiff alleges that an employer
discriminates against black females, the fact that. . . white females are not subject to
discrimination is irrelevant and must not form any part of the basis for a finding that the
employer did not discriminate against the black female plaintiff.” Jefferies v. Harris Cty.
Community Action Ass'n., 615 F.2d 1025, 1034 (5th Cir. 1980).
With respect to the Plaintiffs promotion discrimination claim, it is undisputed that
Hamilton is a white female. Thus, while DeBose has failed to establish a prima facie case
of gender discrimination with respect to the AVP EPM position, see Jefferies, 615 F.2d at
1030 (noting that "where both the person seeking to be promoted and the person
achieving that promotion were women, 'because the person selected was a woman, we
cannot accept sex discrimination as a plausible explanation for (the promotion) decision.’”
(quoting Adams v. Reed, 567 F.2d 1283,1287 (5th Cir. 1978))), the Plaintiff has made a
prima facie case of intersectional race and gender discrimination with respect to

14

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 15 of 27 PagelD 3513

Hamilton’s promotion. See (A. DeBose Dep. Tr. 127:21-24) (stating that Debose Deneves
"race/gender” was the reason for her failure to be promoted the AVP EPM position).
As to the Plaintiff’s termination claim, the record contains an unverified statement
in DeBose’s statement of disputed facts that Carrie Garcia, a white female, “was
appointed by Wilcox and Dosal as Acting University Registrar following DeBose’s
termination.” (Doc. No. 170, at 33). Since USF does not appear to contest that DeBose’s
position was filled by someone outside of her protected class as a black female, and it is
likely that DeBose would properly support this assertion of fact if “give[n] an opportunity
to properly support or address the fact” under Rule 56(e)(1), the Court will presume for
purposes of this order that the Acting University Registrar position was filled by a white
female. Interestingly, however, at her deposition, DeBose testified that race, and race
alone, was the reason for her termination. (A. DeBose Dep. Tr. 128:12-23). Since it is
undisputed that the Registrar position was filed by a female, and DeBose appears to have
abandoned her claim of intersectional discrimination with respect to her termination claim,
USF is entitled to summary judgment on DeBose’s termination claim based on gender
discrimination. However, because the Registrar position was filled by a white female,
DeBose has carried her burden of establishing a prima facie claim for race discrimination
on her termination claim.
3.

Whether USF’s Decisions to Promote Hamilton and Terminate
DeBose were Pretextual

USF has proffered a legitimate, non-discriminatory reason for its decision to
promote Hamilton, and not DeBose, to the position of AVP EPM, as well as for its decision
to terminate DeBose’s employment as Registrar. See (Doc. No. 77, at Tf 17) (stating that
DeBose was not selected for the AVP EPM position because she was not as qualified for

15

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 16 of 27 PagelD 3514

the position as Hamilton); (Doc. No. 78, at

6) (stating that DeBose was terminated for

not acting in a collaborative manner and based on the opinions stated in the Ellucian
Report). The question thus becomes whether DeBose has identified sufficient evidence
of intentional discrimination to create a triable issue on her claims for employment
discrimination. See Wheatfall v. Bd. of Regents of Urtiv. System ofGa., 9 F.Supp.3d 1342,
1356 (N.D. Ga. 2014) (“[T]he ultimate question in every employment discrimination case
involving a claim of disparate treatment is whether the plaintiff was the victim of intentional
discrimination.”).
With respect to the AVP EPM position, DeBose supports her claim that she was
subjected to race/gender discrimination on the fact that (1) Dosal gave Hamilton the
opportunity to “go back to her position exclusively as director of financial aid” if she didn’t
do well as AVP EPM; (2) “the [AVP EPM] position was not posted or advertised and that
. . . people [including DeBose] were given no knowledge or awareness of the position”;
and (3) Dosal attempted to make “concessions” to DeBose regarding her salary and job
title if she would “go along” with Hamilton’s appointment. (A. DeBose Dep. Tr. 147:2—
148:20). Frankly, DeBose’s own testimony demonstrates that USF’s decision to promote
Hamilton over her had nothing to do with the fact that she is a black female. Perhaps
Dosal exercised poor judgment by not conducting a nationwide search or hand-picking
DeBose for the position.

Perhaps he made the right choice.

Regardless, whether

promoting Hamilton was the right or wrong choice is unimportant because DeBose herself
does not cite race or gender as a reason for Hamilton’s promotion.
To the contrary, DeBose obfuscates the true reasons for Hamilton’s selection by
making vague references to a handful of allegedly racial statements uttered by Dosal and

16

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 17 of 27 PagelD 3515

Wilcox during her tenure at USF. Most of these statements, including Dosal’s statements
about “leaving the hood” and not wanting DeBose to be a “token" were remote in time
from Hamilton’s promotion. Moreover, even if Wilcox is “a nasty son of a bitch” who was
never “going to think highly of [DeBose].. . because .. . [she is] black,” it is undisputed
that Dosal, not Wilcox, promoted Hamilton to the AVP EPM position. See (Doc. No. 76,
at 5) (stating that Dosal appointed Hamilton); (Doc. No. 170, at 12) (failing to dispute that
Dosal appointed Hamilton). Since the record is devoid of evidence that race and gender
played a role in Dosal’s decision to appoint Hamilton to the AVP EPM position, or that
Wilcox’s alleged racial animus towards DeBose influenced Dosal’s hiring decision,
DeBose has failed to show that USF’s proffered non-discriminatory reason for not
promoting DeBose was pretextual.
As for DeBose’s claim of race-based termination discrimination, it is undisputed
that Wilcox made the decision to terminate DeBose. See (Doc. No. 68, at If 6) (stating
that Dosal “was not involved in the decision to non-renew DeBose’s employment). While
Wilcox claims that he made the decision to non-renew DeBose’s employment after
reviewing the Ellucian Report, USF does not attempt to deal with the so-called evidentiary
elephant in the room: DeBose’s deposition testimony that Dosal told her that Wilcox was
never “going to think highly of [DeBose]... because ... [she is] black.” At this stage of
the proceedings, the Court is required to draw all reasonable inferences in favor of the
non-moving party, DeBose, and given DeBose’s testimony that Wilcox harbored racial
animus towards her, she is entitled to a reasonable inference that her termination was
discriminatory. This is true even though Dosal’s alleged statement that Wilcox harbored
racist views towards DeBose was remote in time from her termination. Stated simply,

17

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 18 of 27 PagelD 3516

DeBose’s sworn testimony that Wilcox is a virulent racist cannot be discounted on
summary judgment and, as a result, is enough to get her to a jury on her claim for racebased termination discrimination.
B.

Retaliation Claims

“Title Vll’s retaliation provision makes it unlawful to discriminate against any
individual because she has opposed any practice made an unlawful practice by the Act.”
Demers v. Adams Homes of Nw. Fla., Inc., 321 F. App’x 847, 852 (11th Cir. 2009). “To
. establish a prima facie case of retaliation, the plaintiff must show: (1) that [s]he engaged
in statutorily protect expression; (2) that [s]he suffered an adverse employment action;
and (3) that there is some causal relationship between the two events." Holifield v. Reno,
115 F.3d 1555,1566 (11th Cir. 1997). Once the plaintiff establishes her prima facie case,
the employer must proffer a legitimate, non-discriminatory reason for the adverse
employment action. Id. “If the employer offers legitimate reasons for the employment
action, the plaintiff must then demonstrate that the employer’s proffered explanation is a
pretext for retaliation.” Id.
In Counts II and IV of the TAC, the Plaintiff asserts claims for retaliation based on
her gender and race, respectively.

Specifically, the Plaintiff alleges that she was

retaliated against for filing internal complaints with USF, charges of discrimination with
the EEOC, and an action seeking a preliminary injunction before this Court. See (Doc.
No. 45, at

147). DeBose claims that because she engaged in the foregoing protected

activities, she was denied a promotion to the AVP EPM position, terminated from her
position as Registrar, and given a poor reference to the Provost of UNF. (Doc. No. 45,a t
U 148).

18

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 19 of 27 PagelD 3517

For starters, the Plaintiffs claims that she was denied the AVP EPM promotion due
to unlawful retaliation are without merit. It is undisputed that DeBose did not engage in
any statutorily protected activity until after she learned that Hamilton had been appointed
to the AVP EPM position. Compare (Doc. No. 79-8) (demonstrating that DeBose’s first
ethics point complaint was submitted on July 28,2014), with (Doc. No. 77, at U19) (stating
that Dosal notified DeBose of Hamilton’s appointment to the AVP EPM position on July
15,2014). Thus, Counts II and IV, to the extent they are based on Hamilton’s promotion
to AVP EPM, fail as a matter of law due to a lack of causation. See Univ. of Tex. Sw. Med.
Center v. Nassar, 133 S.Ct. 2517, 2534 (2013) (stating that to satisfy the causation
element, the plaintiff “must establish that his or her protected activity was a but for cause
of the alleged adverse action by the employer.’’).
The Plaintiffs claims that she was terminated and given a poor reference in
retaliation for engaging in statutorily protected activities, however, require a more
thorough analysis. USF does not dispute that the Plaintiff engaged in statutorily protected
activity, or that she suffered an adverse employment action when she was terminated
and given a negative reference to the Provost of UNF. To the contrary, USF attacks the
Plaintiffs ability to establish the causation element of her prima facie case and, to the
extent she can make out a prima facie case, USF contends that DeBose cannot show
that her termination and any poor review were pretext for retaliation.
Prior to the Supreme Court’s Nassar decision, a plaintiff could satisfy this
requirement by showing, among other things, “close temporal proximity" between the
protected activity and the adverse employment action. Higdon v. Jackson, 393 F.3d 1211,
1220 (11th Cir. 2004).

Following Nassar, however, a plaintiff must show more than

19

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 20 of 27 PagelD 3518

temporal proximity between the protected activity and their termination. Cf. Smith v. City
of New Smyrna Beach, 588 F. App’x 965, 981-82 (11th Cir. 2014). Instead, to establish
a claim for retaliation, the plaintiff must present evidence “that the unlawful retaliation
would not have occurred in the absence of the alleged wrongful action or actions of the
employer." Nassar, 133 S.Ct. at 2533.
Here, the record contains testimonial evidence that after DeBose filed her EEOC
complaint on January 15, 2015, (Doc. No. 76, at 6), she was “asked into meetings with
no agenda." (A. DeBose Dep. Tr. 230:6-20).

Shortly thereafter, the Alexis Mootoo

incident occurred, which DeBose claims was part of a deal in which Dosal promised
Mootoo more favorable “pay and position.” (A. Dep. Tr. 84:2—86:24). Approximately one
month later, in February of 2015, USF engaged Ellucian to review and assess its
implementation of Degree Works. (Doc. No. 76, at 8). This, as we now know, ultimately
culminated in the Ellucian Report, which USF cited as its basis for its decision not to
renew DeBose’s employment. Shortly thereafter, Ralph Wilcox acknowledges that he
told UNF Provost Earle Traynham that DeBose was “not collaborative and that she was
resistant to change.” (Doc. No. 78, at

9). DeBose’s version of the negative reference is

far more colorful, with DeBose claiming that people at USF and elsewhere told her Ralph
Wilcox told Traynham he wanted DeBose “to have nothing ... not even a shirt.... bare,
exposed with nothing.” (A. DeBose Dep. Tr. 290:1-11).
Clearly, things between DeBose and USF went sideways between 2014 and 2015,
and during that period of time, DeBose filed multiple internal and external complaints
alleging discrimination. DeBose’s version of the facts, i.e. that she was the victim of a
massive conspiracy because she filed complaints of discrimination, may not ultimately be

20

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 21 of 27 PagelD 3519

accepted by a jury, but there is certainly enough circumstantial evidence of retaliation to
afford DeBose her day in Court. Specifically, given the close temporal proximity between
DeBose’s EEOC complaint and USF's decision to engage Ellucian, DeBose’s testimony
that the Registrar’s Office was included in the scope of Ellucian’s engagement at the
request of USF, DeBose’s testimony that she was treated differently following her
complaints of discrimination, and the timing and circumstances surrounding the
Traynham conversation, a reasonable jury could find that USF’s actions were retaliatory.
Thus, USF’s motion for summary judgment is denied as to DeBose’s claims that her
termination and poor reference were retaliatory.
C.

Disparate Impact Claims

A disparate impact theory of discrimination “prohibits neutral employment practices
which, while non-discriminatory on their face, visit an adverse, disproportionate impact on
a statutorily-protected group.” E.E.O.C. v. Joe’s Stone Crab, Inc., 220 F.3d 1263, 1274
(11th Cir. 2000) (emphasis in original). To prove a disparate impact claim, the plaintiff
must show: (1) there is a significant statistical disparity between the proportion of
minorities available in the labor pool and the proportion of minorities hired by the
employer; (2) there is a specific, facially-neutral employment practice causing the
disparity; and (3) that a causal nexus exists between the identified employment practice
and the statistical disparity. Id. Importantly, to prevail on a claim for disparate impact, “the
plaintiff must offer statistical evidence of a kind and degree sufficient to show that the
practice in question has caused the exclusion of applicants for jobs or promotions
because of their membership in a protected group.” Id. At 1274-75.
Here, the only statistical evidence offered in support of the Plaintiffs disparate
impact claims is an "Affidavit of Expert Opinion" offered by Saba Baptiste-Alkebu-Lan, a

21

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 22 of 27 PagelD 3520

purported subject matter expert on employment discrimination, (Doc. No. 177), and an
unauthenticated spreadsheet attached to Doc. No. 188. See (Doc. No. 188, at 179).
Since Ms. Baptiste-Alkebu-Lan’s report is dated September 5, 2017, well after the
deadline to disclose expert reports and the close of discovery, the affidavit is untimely
and inadmissible in response to USF’s motion for summary judgment. The same holds
true for the spreadsheets submitted by the Plaintiff, which have not been authenticated
and, as a result, are not admissible in response to summary judgment.

Given, the

Plaintiff’s failure to support her disparate impact claims with admissible evidence in
response to summary judgment, USF is entitled to summary judgment on Counts V and
VIoftheTAC.
D.

Breach of Contract

To recover damages for breach of contract, the plaintiff must prove: (1) the plaintiff
and defendant entered into a contract, (2) the plaintiff did what the contract required, (3)
all conditions required by the contract for defendant’s performance occurred, (4) the
defendant failed to perform under the contract, and (5) the plaintiff was harmed by that
failure. Atlantica One, LLC v. Adragna, 177 So. 3d 89, 91 (Fla. 5th DCA 2015). The Court
previously dismissed DeBose's claims for breach of contract not based on an express
contract. (Doc. No. 50, at 3-4). While DeBose previously represented that USF withheld
a copy of her written employment agreement, (Doc. No. 49, at 6), discovery is now
complete, and no written employment agreement has been shown to exist. For this
reason alone, DeBose’s breach of contract claim fails as a matter of law.
Moreover, it appears that in actuality DeBose was employed pursuant to USF
Regulation 10.210, which states that “employment is at will and . . . employees may be
non-reappointed upon written notice from the CAO.” (Doc. No. 206-1, at 2).

22

Under

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 23 of 27 PagelD 3521

Regulation 10.201, “the [required] period of notification prior to the effective date of non­
reappointment is . .. [tjhree (3) months’... for employees with two (2) or more years of
continuous employment.” (Doc. No. 206-1, at 2). “Following receipt of the notice of non­
reappointment, the CAO has the option to assign the employee other duties and
responsibilities and/or to require the employee to use accrued annual leave.” (Doc. No.
206-1, at 3). It is undisputed that this is exactly what happened here: DeBose was given
three months’ notice of her non-renewal, and was required to use accrued annual leave
during the three month period following receipt of the notice of non-reappointment. As a
result, DeBose has failed to prove that USF breached any of its non-reappointment
procedures.
E.

Tortious Interference

Under Florida law, the elements of a claim for tortious interference are: “(1) the
existence of a business relationship that affords the plaintiff existing or prospective rights;
(2) the defendant’s knowledge of the business relationship; (3) the defendant’s intentional
and unjustified interference with the relationship; and (4) damage to the plaintiff.” Int’l
Sales & Serv., Inc. v. Austral Insulated Products, Inc., 262 F.3d 1152, 1154 (11th Cir.
2001). In the TAC, the Plaintiff asserts claims for tortious interference against USF and
Ellucian, claiming that Ralph Wilcox’s negative review of her performance cost her a
prospective employment opportunity at UNF, and that Ellucian's statements criticizing the
Registrar’s Office in its report caused her termination from USF. Neither claim holds
water for one very simple reason: despite DeBose’s plethora of allegations concerning
USF and Ellucian’s improper behavior, the record is devoid of evidence that either entity
intentionally interfered with her existing or prospective rights of employment.

23

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 24 of 27 PagelD 3522

With respect to USF, the only person who could have intentionally interfered with
DeBose’s prospective rights of employment at UNF is Wilcox. While DeBose claims
Wilcox told Traynham he wanted DeBose “to have nothing... not even a shirt.... bare
exposed with nothing,” (A. DeBose Dep. Tr. 290:1-11), during her deposition DeBose was
unable to clearly articulate who informed her of Wilcox's alleged “not even a shirt”
statement. (A. DeBose Dep. Tr. 290:12-20). The best DeBose could do was to identify
“a guy named Lance... who works at USF." (A. DeBose Dep. Tr. 290:18-20). Given the
lack of information regarding the proponent of the “not even a shirt” comment, DeBose
has failed to demonstrate that the testimony can be reduced to an admissible form. The
same holds true for any statements regarding Wilcox’s conversation with Traynham that
were relayed to her by her friend Albert Colom. Mr. Colom is not a USF employee and,
as a result, anything he told DeBose in May of 2015 is hearsay, and does not qualify as
an admission of a party opponent or under any other exception to the rule against
hearsay.

Thus, DeBose’s recitation of Colom’s alleged version of the Traynham

conversation is inadmissible in opposition to USF’s summary judgment motion. Since
DeBose lacks any firsthand knowledge regarding Wilcox’s intentions pertaining to the
Traynham conversation, and Wilcox unequivocally denies interfering with DeBose’s
prospective rights of employment, USF is entitled to summary judgment on Count V of
the TAC.
As for Ellucian, DeBose similarly lacks any firsthand knowledge regarding why
Ellucian was critical of the Registrar’s Office in its report. DeBose claims that Diamond’s
body language, face, and demeanor was “angry," (A. DeBose Dep. Tr. 97:16-23), that
she “went out of her way... to cast a negative light on the registrar’s office,” and she that

24

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 25 of 27 PagelD 3523

did not sincerely or honestly believe the opinions she expressed regarding the Registrar’s
Office. (A. DeBose Dep. Tr. 98:3—99:24). However, having an “angry” demeanor does
not equate to tortious interference, and DeBose’s beliefs regarding Diamond’s alleged
targeting of her office and lack of sincerity are pure conjecture. As a result, Ellucian is
entitled to summary judgment on Count VI of the TAC.
F.

Civil Conspiracy

To prove a claim for civil conspiracy, the plaintiff must show: (1) the existence of
an agreement between two or more parties, (2) to do an unlawful act, (3) the doing of
some overt act in furtherance of the conspiracy, and (4) damages. United Techs. Corp.
v. Mazer, 556 F.3d 1260,1271 (11th Cir. 2009). In the TAC, DeBose accuses USF and
Ellucian of conspiring “to terminate Plaintiffs employment for pretextual reasons by
knowingly including inaccurate and improper information in the Ellucian Report with the
intent of damaging Plaintiff.” (Doe. No. 45, at 230). The problem for DeBose, however,
is that there is absolutely no record evidence of any agreement between USF and Ellucian
to include information critical of the Registrar’s Office in the Ellucian Report. There are
no emails, letters, or alleged oral statements that show any anti-DeBose collusion
between USF and Ellucian. Any belief by DeBose that such collusion occurred is pure
conjecture and has not been properly supported for purposes of opposing the Defendants’
summary judgment motions. As a result, DeBose’s civil conspiracy claims fail as a matter
of law.
V.

Conclusion
Accordingly, it is
ORDERED that the Summary Judgment Motions are GRANTED IN PART AND

DENIED IN PART AS FOLLOWS:

25

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 26 of 27 PagelD 3524

(1) USF’s motion for summary judgment is GRANTED with respect to DeBose’s
claims of gender discrimination (Count I);
(2) USF’s motion for summary judgment is GRANTED with respect to DeBose’s
claims of race and gender discrimination based on Hamilton’s promotion to
AVP EPM (Count I and III);
(3) USF’s motion for summary judgment is DENIED with respect to DeBose’s
claims of race discrimination based on DeBose’s non-reappointment as
Registrar (Counts I and ill);
(4) USF’s motion for summary judgment is GRANTED with respect to DeBose’s
claims of retaliation based on Hamilton’s promotion to AVP EPM (Counts II and
IV);
(5) USF’s motion for summary judgment is DENIED as to DeBose’s claims of
retaliation based on her non-reappointment as Registrar and Wilcox’s poor
reference to UNF (Counts II and IV);
(6) USF’s motion for summary judgment is GRANTED as to DeBose’s claims for
disparate impact, breach of contract, tortious interference, and civil conspiracy
(Counts V, VI, VII, IX, X);
(7) Ellucian’s motion for summary judgment is GRANTED as to DeBose’s claims
for tortious interference and civil conspiracy (Counts VIII and X).
It is further ORDERED that DeBose and USF are directed to confer and file a status
report within 30 days that contains the following information:
(1) The status or result of any previously or currently scheduled mediation and, if
already concluded, the result of such mediation;

26

Case 8:15-cv-02787-EAK-AEP Document 210 Filed 09/29/17 Page 27 of 27 PagelD 3525

(2) Proposed dates for the mediation (if not already conducted) and trial of tns
remaining claims in this matter; and
(3) Any remaining issues to be addressed by the Court.
DONE and ORDERED in Chambers, in Tampa, Florida this 29th day of
September; 2017.

ELIZABETHAKUVAtJHEVp
UNITED STATES DISTRICT J
Copies furnished to:
Counsel of Record
Unrepresented Parties

27

&

? .

h' 18

&

V. . .

Case No: 8:15-cv-2787-T-17AEP
UNITED STATES DISTRICT COURT MIDDLE DISTRICT OF FLORIDA TAMPA DIVISION

DeBose v. Univ. of S. Fla. Bd. of Trs.
Decided Sep 29,2017

Case No: 8:15-cv-2787-T-17AEP
09-29-2017
ANGELA W. DEBOSE, Plaintiff, v. UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES and
ELLUCIAN COMPANY, L.P., Defendants.
ELIZABETH A. KOVACHEV1CH UNITED STATES DISTRICT JUDGE
ORDER
This cause comes before the Court pursuant to the motions for summary judgment (Doc. Nos. 68 and 75) (the
"Summary Judgment Motions") filed by the Defendants, University of South Florida Board of Trustees
("USF"), and Ellucian Company, L.P. ("Ellucian"), and the responses in opposition (Doc. Nos. 151 and 169)
filed by pro se Plaintiff, Angela W. DeBose (the "Plaintiff or "DeBose"). For the reasons set forth below, the
Summary Judgment Motions are GRANTED IN PART AND DENIED IN PART.

I. Introduction

2

The Court must decide whether DeBose is entitled to a jury trial on her claims that USF terminated her
employment after 27 years due to race/gender discrimination and/or in retaliation for her complaints of
discrimination. Because DeBose has testified under penalty of perjury that high-ranking employees at USF
have admitted to her that the person who fired her is, essentially, a virulent racist, DeBose is entitled to her day
in Court on her claim that she was fired due to her race/gender. Similarly, DeBose strings together enough
circumstantial evidence to proceed to a jury on her retaliation claims, in which *2 she contends that she was
terminated and given a poor employment review for protesting USF's alleged acts of discrimination. The
remainder of DeBose's claims, however, are far too speculative and unsupported to withstand summary
judgment. As a result, the Summary Judgment Motions are granted in part and denied in part.

II. Background
A. Plaintiffs employment history at USF
The Plaintiff was hired by USF in 1988 and became the USF Registrar on October 1, 1996. (Doc. No. 76, at 1).
DeBose remained Registrar until her employment was terminated on August 19, 2015. (Doc. No. 76, at 10).
B. Plaintiffs tenure under the supervision of Paul Dosal
On July 1,2010, Paul Dosal became DeBose's direct supervisor. (Doc. No. 76, at 2). DeBose initially had a
"good relationship" with Dosal. (A. DeBose Dep. Tr. 33:3-6). So much so that during 2011 or 2012, (A.
DeBose Dep. Tr. 169:11-14), Dosal allegedly confided in her that USF's Provost, Ralph Wilcox, is "a nasty son

casetext

1

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

of a bitch," and that "he's not going to think highly of you ... because ... you're black." (A. DeBose Dep. Tr.
167:19—168:14).

3

Things "changed" with Dosal, however, in late 2013 and early 2014. (A. DeBose Dep. Tr. 33:12-14). During
that time period, DeBose claims that Dosal "started being more aggressive, edgy," "would clench his jaw," and
"just stopped being pleasant at all." (A. DeBose Dep. Tr. 34:10-15). According to DeBose, Dosal's animosity
towards her spread to others at USF, including another employee named Travis Thompson, who *3 allegedly
told Dosal that DeBose was not collaborative and that things were not going well with Degree Works.1 (A.
DeBose Dep. Tr. 34:18-24—35:1-16).
l

Previously, in the spring of2011, Dosal transferred responsibility for USF's degree audit system, Degree Works, and its
academic tracking system, ATLAS, to the Registrar's Office. (Doc. No. 76, at 3).

Bothered by these issues, Dosal allegedly met with DeBose in the spring of 2014 and counseled her to work
and behave more collaboratively. (Doc. No. 76, at 3). USF claims that DeBose's behavior did not improve and,
in June of 2014, Dosal informed DeBose that responsibility for Degree Works and ATLAS were being
transferred from the Registrar's Office to the information technology department. (A. DeBose Dep. Tr. 55:1319). According to Dosal, the decision to transfer Degree Works and ATLAS away from the Registrar's Office
came from USF Provost Ralph Wilcox. (A. DeBose Dep. Tr. 55:23-24). Around the same time, an email
circulated within USF that accused DeBose of being responsible for the resignation of another USF employee,
Caurie Waddell. (A. DeBose Dep. Tr. 63:17-25); (P. Dosal Dep. Tr. 36:15-19). According to DeBose, she feared
that the Caurie Waddell situation was "going to be used as ... grounds for [her] termination." (A. DeBose Dep.
Tr. 63:17-25).
C. The AVP EPM position

4

During the summer of 2014, while the foregoing issues were percolating through the school, the position of
Assistant Vice President for Enrollment Planning and Management ("AVP EPM") became vacant at USF.
(Doc. No. 76, at 4). Dosal was responsible for filling the vacant AVP EPM position and, after consultation with
Ralph Wilcox and USF President Judy Genshaft, USF employee Billie Jo Flamilton was appointed to the AVP
EPM position. (Doc. No. 76, at 5). DeBose disagreed with USF's *4 decision to directly appoint Hamilton to
the AVP EPM position in lieu of conducting a national search. (A. DeBose Dep. Tr. 305:3-4). In fact, DeBose
wanted the job for herself, and believed she was "a very strong candidate for the AVP position." (A. DeBose
Dep. Tr. 310:2-4).
Dosal met with DeBose in July of 2014, ostensibly to try and patch things up. At that meeting, Dosal allegedly
promised that he would "make it clear" to the USF community that he remained confident in DeBose, and told
her he hoped she would remain a member of his team through the end of his tenure in 2019. (A. DeBose Dep.
Tr. 66:8-15, 66:16-25—67:1-15). DeBose claims that during the meeting, Dosal responded to her request for an
increase in compensation2 by "allud[ing] to ... N****r, you already make too much money." (A. DeBose Dep.
Tr. 139:17-23). When DeBose responded that she believed she was not selected for the AVP EPM position
because of her race, he allegedly "clenched his jaw" and denied that race was a factor, instead telling DeBose
"the provost wants this." (A. DeBose Dep. Tr. 150:22—152:21). Following the meeting, on July 28,2014,
DeBose filed an internal complaint with USF, referencing discrimination with respect to the Degree
Works/ATLAS transfer, Caurie Waddell email, and the AVP EPM appointment incidents.
2 Two days after being informed of Hamilton's appointment to the AVP EPM position, DeBose sent a memorandum to
Dosal requesting a pay raise. (Doc. No. 76, at 6).

casetext

2

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

D. DeBose's EEOC complaint and alleged acts of retaliation

5

After DeBose filed her internal complaint, she claims she "got a reprieve" from Dosal's allegedly hostile
behavior. (A. DeBose Dep. Tr. 212:19-22). However, towards the end of the year, she filed a complaint with the
EEOC, after which she alleges "things began to ramp up to an unacceptable level." (A. DeBose Dep. Tr. 230:613). For instance, *5 DeBose claims that after she filed the EEOC complaint she was "asked into meetings with
no agenda ... was not treated well or respectfully or civilly ... was marginalized ... berated ... [and] treated
poorly." (A. DeBose Dep. Tr. 230:6-20).
E. The Alexis Mootoo incident and subsequent written reprimand
DeBose's acrimony with USF worsened on January 29,2015, when DeBose attended a meeting with Dosal to
discuss implementation of a new shared services model. (A. DeBose Dep. Tr. 77:1-10). Also present at the
meeting was another African American employee, Alexis Mootoo, who allegedly had a history of "making
[DeBose] and other people in [DeBose's] office uncomfortable with abusive language," including gratuitous
use of the word "n****r." (A. DeBose Dep. Tr. 77:11-25—78:1-21). During the meeting, DeBose allegedly
took umbrage with Mootoo's involvement in the implementation of the new shared services model, and referred
to her as a "little girl" and told her to "stay in her lane." (A. DeBose Dep. Tr. 83:10-21).
While DeBose denies making those statements, Mootoo reported DeBose's alleged "little girl" comment to
authorities at USF, who issued DeBose a written reprimand. (A. DeBose Dep. Tr. 83:22-24) (Doc. No, 77-2, at
2). According to DeBose, Mootoo fabricated the story in exchange for a deal with Dosal under which Mootoo
would receive more favorable "pay and position." (A. Dep. Tr. 84:2—86:24). In support, DeBose claims that
"Alexis Mootoo [would come] into the office supposedly for budget meetings and talking about n****r this
and n****r that... [but that] Dosal knew about [her use of the word 'n****r]' and didn't have a problem with
it." (A. DeBose Dep. Tr. 159:23—160:4).
F. DeBose's allegations of a "backdrop" of racist conduct at USF

6

DeBose claims that by this time in her career at USF, "[t]here were constant references to [her as an] angry
black woman, black bitch, n****r this, n****r that." (A. *6 DeBose Dep. Tr. 164:11 -20). While DeBose
reluctantly admits that Dosal did not call her an "angry black woman, black bitch, [or] n****r," (A. DeBose
Dep. Tr. 164:21—165:9), she accuses Dosal of making veiled "racial statements" over the course of her time at
USF, including a 2010/20113 comment in which he told her he was moving out of "the hood" and that she
should do the same because they were the "only two people of color in EPM," (A. DeBose Dep. Tr. 166:5-16),
a 20134 statement in which he asked her to attend Black Faculty Staff Association breakfasts, but that he did
not want her to "be a token," (A. DeBose Dep. Tr. 169:24—170:13), and another incident in which he allegedly
disparaged a "black Hispanic" person who had accused him of discrimination of having "forgotten ... where he
came from." (A. DeBose Dep. Tr. 172:24—173:21). DeBose further claims that Dosal told her that "others" at
USF referred to her as "an angry black woman or black bitch or those kinds of things." (A. DeBose Dep. Tr.
171:19-23). DeBose claims that she asked Dosal who said those things, but that "he would not disclose" the
source of his information. (A. DeBose Dep. Tr. 171:24—172:1).5
3 (A. DeBose Dep. Tr. 166:17—167:16).
4 (A. DeBose Dep. Tr. 171:8-12).

casetext

3

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

5 The "angry black woman" and "black bitch" comments allegedly occurred during 2014, when DeBose told Dosal about
an incident in which some unknown person vandalized her car with the derogatory phrase "wild bitch." (A. DeBose
Dep. Tr. 124:23—125:3; 172:2-19).

G. The Ellucian audit and report

7

Approximately one month after DeBose filed her EEOC complaint, during February of 2015, USF engaged a
consulting firm, Ellucian, to review and assess its implementation of Degree Works. (Doc. No. 76, at 8). As
part of that review, Ellucian selected consultant Andrea Diamond to visit the USF campus and meet with
several employees, including DeBose. (Doc. No. 76, at 8). When DeBose met with Diamond, *7 she claims that
Diamond's body language, face, and demeanor were "angry." (A. DeBose Dep. Tr. 97:16-23). After the
meeting, Ellucian prepared a report (the "Ellucian Report") stating, among other things, that the Registrar's
Office lacked an "atmosphere of working together for the good of the institution" and was "not willing to
encompass change." (Doc. No. 76, at 8-9).
DeBose vehemently disagrees with the conclusions and recommendations contained in the Ellucian Report, and
claims that Diamond "went out of her way ... to cast a negative light on the registrar's office" and that
Diamond did not sincerely or honestly believed the opinions she expressed regarding the Registrar's Office. (A.
DeBose Dep. Tr. 98:3—99:24). Rather, DeBose believes that Ellucian colluded with USF to give the school a
non-discriminatory reason to fire her form her position. In support, DeBose cites to evidence that the
Registrar's Office was included in the scope of Ellucian's review at the request or suggestion of USF. (A.
DeBose Dep. Tr. 101:18-102:3). However, DeBose also admits that she lacks any firsthand knowledge that
USF was responsible for the inclusion of negative information or opinions about her office in the Ellucian
Report. (A. DeBose Dep. Tr. 101:4-10).
H. DeBose's non-reappointment as Registrar

8

The Ellucian Report was ultimately the final nail in the coffin for DeBose's 27 year career USF. After
reviewing the Ellucian Report, Ralph Wilcox made the decision to non-renew DeBose's employment. (Doc.
No. 76, at 9). On May 19, 2015, DeBose was issued a notice of non-reappointment, which effectively
terminated her employment as of August 19, 2015. (Doc. No. 76, at 10). *8
1. USF's negative review of DeBose
Following her receipt of the notice of non-reappointment, DeBose communicated with her friend, Albert
Colom, regarding possible employment at the University of North Florida ("UNF"). (A. DeBose Dep. Tr.
13:15-18). On or around May 20, 2015, Colom sent a text message to DeBose stating that "depending on what
you are interested in doing 1 can help here at UNF. That is if you want to stay in Florida. 1 have a few ideas."
(Doc. No. 79-1, at 1). DeBose responded "Love to talk about them as your time permits." (Doc. No. 79-1, at 1).
On May 26,2015, Ralph Wilcox had a brief telephone call with UNF Provost Dr. Earle Traynham regarding his
assessment of DeBose’s professional capabilities for possible employment at UNF. (Doc. No. 78, at ff 8-9).
Wilcox claims he was complementary of DeBose's technical skills and abilities, but indicated that he believed
she was not collaborative and was resistant to change. (Doc. No. 78, at 8-9). DeBose tells a far different
story, claiming that according to Colom, Wilcox told Traynham that DeBose was "toxic," "horrible,"
"uncollaborative," "awful," "if he hired [her], that he would regret it," and "he had been trying to get rid of [her]
for years." (A. DeBose Dep. Tr. 15:23-25—16:1-2). DeBose further claims "a guy named Lance," who "works
at USF," told her that Wilcox bragged to Traynham "about undoing [her]"; that he "wanted [DeBose] to have
nothing ... not even a shirt.... bare, exposed with nothing." (A. DeBose Dep. Tr. 290:1-11).

casetext

4

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

J. DeBose is not selected for employment at UNF

9

Following the Traynham conversation, on May 27,2015, DeBose received a text message from Colom stating
"Hello spoke to my provost and we decided to pass on the *9 idea. I had good hope we could work together
again. 1 am so sorry." (Doc. No. 79-1, at 2). Ultimately, DeBose did not obtain employment with UNF.

III. Standard of Review
"Federal Rule of Civil Procedure 56 requires that summary judgment be granted if the pleadings, depositions,
answers to interrogatories, and admissions on file, together with the affidavits, if any, show that there is no
genuine issue as to any material fact and that the moving party is entitled to judgment as a matter of law." U.S.
Commodity Futures Trading Com'n v. Am. Derivatives Corp., 2008 WL 2571691, at *2 (N.D. Ga. June 23,
2008) (internal quotations omitted). "The moving party bears the initial responsibility of informing the court of
the bases for its motion, and identifying those portions of the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if any, which it believes demonstrate the absence of a
genuine issue of material fact." Id. (internal quotations omitted). "Where the moving party makes such a
showing, the burden shifts to the non-movant, who must go beyond the pleadings and present affirmative
evidence to show that a genuine issue of material fact does exist." Id. "A fact is not material if a dispute over
that fact will not affect the outcome of the suit under the governing law." Id. "An issue is genuine when the
evidence is such that a reasonable jury could return a verdict for the non-moving party." Id.
Importantly, on a motion for summary judgment, the Court "may consider only that evidence which can be
reduced to an admissible form." Rowell v. BellSouth Corp., 433 F.3d 794, 800 (11th Cir. 2005). "To be
admissible in support of or in opposition to a motion for summary judgment, a document must be authenticated
by and attached to an affidavit that meets the requirements of Rule 56[c][4], and the affiant must be a person
10 through whom the exhibits could be admitted into evidence." Sauders v. Emory * 10 Healthcare, Inc., 360 F.
App'x 110, 113 (11th Cir. 2010). Here, DeBose has not authenticated any of the approximately 550 pages of
documents attached to Doc. Nos. 165,166,187, and 188 and, as a result, none of those documents will he
considered in response to or in support of the Summary Judgment Motions. Instead, the Court will restrict its
analysis to those materials properly before the Court, including DeBose's deposition transcript and the
affidavits submitted by representatives of the Defendants.

IV. Discussion
In her third amended complaint (Doc. No. 45) (the "TAC"), DeBose asserts the following claims: Count I gender and/or race (primarily gender) discrimination under Title VII6 and the FCRA7 based on USF's failure to
promote her to the AVP EPM position and her non-reappointment as Registrar; Count II - retaliation under Title
VII and the FCRA based on her gender coupled with USF's failure to promote her to the AVP EPM position,
her non-reappointment as Registrar, and Wilcox's poor reference to UNF; Count m gender and/or race
discrimination (primarily race) under Title VII and the FCRA based on USF's failure to promote her to the AVP
EPM position and based on her non-reappointment as Registrar; Count IV - retaliation under Title VII and the
FCRA based on her race coupled with USF's failure to promote her to the AVP EPM position, her non­
reappointment as Registrar, and Wilcox's poor reference to UNF; Count V - disparate impact based on her
gender under Title VII and the FCRA related to the direct appointment of Hamilton to the AVP EPM position;
Count VI - disparate impact based on her race under Title VII and the FCRA related to the direct appointment
of Hamilton to the AVP EPM position; Count VII - breach of contract; Count VIII - tortious interference based
11 *11 on Ellucian's conduct in drafting the Ellucian Report; Count IX - tortious interference based on USF's

casetext

5

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

conduct in giving her a negative review to UNF; and Count X - civil conspiracy between Ellucian and USF
related to the Ellucian Report. Because both Defendants have moved for summary judgment on all ofthe
Plaintiffs claims, the Court will address each category of claims, in turn, below.
6 All references to "Title VII" are to Title VII of the Civil Rights Act of 1964 ("Title VII").
7 All references to the "FCRA" are to Chapter 760 of the Florida Statutes (the "FCRA").-----

A. Employment Discrimination Claims
In Counts 1 and 111 of the TAC, the Plaintiff asserts claims for gender and race discrimination, respectively,
under Title VII and the FCRA. "Title VII prohibits an employer from discriminating 'against any individual
with respect to [her] compensation, terms, conditions, or privileges of employment because of such individual's
race, color, religion, sex, or national origin.'" Vickers v. Fed. Express. Corp., 132 F.Supp.2d 1371, 1377 (S.D.
Fla. 2000) (quoting 42 U.S.C. § 2000e-2(a)). "Since the FCRA essentially mirrors Title VII, Florida courts look
to federal case law construing Title VII" when ruling on FRCA claims. McCabe v. Excel Hospitality, Inc., 294
F.Supp.2d 1311, 1313 n.l (M.D. Fla. 2003).
Discriminatory intent, the hallmark of a claim for employment discrimination under Title VII and the FRCA,
"can be established through either direct or circumstantial evidence." Vickers, 132 F.Supp.2d at 1377 (S.D. Fla.
2000). Here, while the Plaintiffs deposition testimony references a plethora of racially charged remarks during
her tenure at USF, most of those statements were remote in time from the adverse employment actions at issue
in this case and, in any event, do not specifically address USF's reasons for terminating DeBose's employment.
See (A. DeBose Dep. Tr. 186:11-18) (referencing an alleged "backdrop” of statements about her "race, black
woman, angry black woman, black bitch, those kinds of things," but not specifically linking any of the
12 foregoing statements to the alleged adverse employment actions). Thus, given the lack of direct * 12 evidence of
discrimination, the Court must consider whether there is sufficient circumstantial evidence of USF's alleged
discriminatory intent for the Plaintiff to survive summary judgment.
Where the "plaintiff seeks to prove intentional discrimination through circumstantial evidence of the employer's
intent... [the] [pjlainitiff has the initial burden of establishing a prima facie case of discrimination." Id. at
1378-79. A plaintiff makes out a prima facie case of discrimination when she shows, by a preponderance of the
evidence, that (1) she is a member of a protected class, (2) she was qualified for the position, (3) she
experienced an adverse employment action, and (4) she was replaced by someone outside of her protected class
or received less favorable treatment than a similarly situated person outside of her protected class." Flowers v.
Troup Cty., Ga., Sch. Disk, 2015 WL 6081186, at *6 (11th Cir. Oct. 16, 2015).
"[T]he establishment of a prima facie case creates a presumption that the employer discriminated against a
plaintiff on the basis of race." Id. "[T]he burden then shifts to the employer to produce a legitimate
nondiscriminatory reason for the action taken against the plaintiff." Id. "Once the employer advances its
legitimates nondiscriminatory reason the plaintiffs prima facie case is rebutted and all presumptions drop from
the case." Id. The plaintiff then bears the "ultimate burden of persuading the court that she has been the victim
of intentional discrimination." Id. Accordingly, merely establishing a prima facie case of racial discrimination
"is not, and never was intended to be, the sine qua non for a plaintiff to survive a summary judgment motion."
Id. Rather, the "critical decision that must be made is whether the plaintiff has created a triable issue concerning
13 the employer's discriminatory intent." Id. *13

casetext

6

DeBose v. Univ. ofS. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

Here, USF acknowledges that (1) DeBose is a member of a protected class, (2) Hamilton's promotion to AVP
EPM and DeBose's non-renewal as Registrar constituted adverse employment actions, and (3) genuine issues of
material fact exist regarding whether DeBose was qualified for her position as Registrar. However, USF
disputes that DeBose has carried her initial burden of establishing that the written reprimand she received
following the Alexis Mootoo episode constituted an adverse employment action, or that she received less
favorable treatment than a similarly situated person outside of her protected class. Moreover, even if DeBose
can make out a prima facie case on her promotion discrimination claim, USF contends that DeBose has failed
to show that USF's decision to promote Hamilton was pretextual. The Court will address each issue in turn
below.
1. Written Reprimand
For starters, Counts I and III of the TAC assert claims for employment discrimination based on the adverse
employment actions of "failure to promote" and for "termination" of employment. (TAC, at ^ 129,142). Since
the written reprimand that DeBose received in connection with the Alexis Mootoo incident has not been
identified as an adverse employment action in either Count I or Ill of the TAC, DeBose has failed to plead,
much less prove, that the written reprimand was issued with discriminatory intent. Moreover, even if the Court
were to liberally construe the TAC to include such a claim, "to prove adverse employment action ... an
employee must show a serious and material change in the terms, conditions, or privileges of employment."
Anderson v. United Parcel Serv., Inc., 248 F. App'x 97, 100 (11th Cir. 2007) (emphasis in original). ”[T]he
employee's subjective view of the significance and adversity of the employer's action is not controlling; the
14 employment action must be materially adverse as viewed by a *14 reasonable person in the circumstances." Id.
Here, DeBose has failed to demonstrate that the written reprimand resulted in a serious and material change in
the terms, conditions, or privileges of her employment. To the contrary, the record is devoid of any evidence
that the written reprimand had any adverse effect on DeBose's employment. For that reason alone, USF is
entitled to summary judgment on any claim for employment discrimination based on the written reprimand.
2. Less Favorable Treatment than a Similarly Situated Person Outside ofDeBose's Protected Class
As part of the Title VII plaintiffs prima facie case, the plaintiff must show that "[s]he was replaced by someone
outside of [her] protected class or received less favorable treatment than a similarly situated person outside of
[her] protected class." Flowers, 2015 WL 6081186, at *6. Importantly, "when a Title Vll plaintiff alleges that
an employer discriminates against black females, the fact that... white females are not subject to
discrimination is irrelevant and must not form any part of the basis for a finding that the employer did not
discriminate against the black female plaintiff." Jefferies v. Harris Cty. Community Action Ass'n., 615 F.2d
1025, 1034 (5th Cir. 1980).
With respect to the Plaintiffs promotion discrimination claim, it is undisputed that Hamilton is a white female.
Thus, while DeBose has failed to establish a prima facie case of gender discrimination with respect to the AVP
EPM position, see Jefferies, 615 F.2d at 1030 (noting that "where both the person seeking to be promoted and
the person achieving that promotion were women, 'because the person selected was a woman, we cannot accept
sex discrimination as a plausible explanation for (the promotion) decision.'" (quoting Adams v. Reed, 567 F.2d
1283, 1287 (5th Cir. 1978))), the Plaintiff has made a prima facie case of intersectional race and gender
15 discrimination with respect to *15 Hamilton's promotion. See (A. DeBose Dep. Tr. 127:21-24) (stating that
DeBose believes "race/gender" was the reason for her failure to be promoted the AVP EPM position).

casetext

7

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

As to the Plaintiffs termination claim, the record contains an unverified statement in DeBose's statement of
disputed facts that Carrie Garcia, a white female, "was appointed by Wilcox and Dosal as Acting University
Registrar following DeBose's termination." (Doc. No. 170, at 33). Since USF does not appear to contest that
DeBose's position was filled by someone outside of her protected class as a black female, and it is likely that
DeBose would properly support this assertion of fact if "give[n] an opportunity to properly support or address
the fact" under Rule 56(e)(1), the Court will presume for purposes of this order that the Acting University
Registrar position was filled by a white female. Interestingly, however, at her deposition, DeBose testified that
race, and race alone, was the reason for her termination. (A. DeBose Dep. Tr. 128:12-23). Since it is undisputed
that the Registrar position was filed by a female, and DeBose appears to have abandoned her claim of
intersectional discrimination with respect to her termination claim, USF is entitled to summary judgment on
DeBose's termination claim based on gender discrimination. Flowever, because the Registrar position was filled
by a white female, DeBose has carried her burden of establishing a prima facie claim for race discrimination on
her termination claim.
3. Whether USF's Decisions to Promote Hamilton and Terminate DeBose were Pretextual
USF has proffered a legitimate, non-discriminatory reason for its decision to promote Hamilton, and not
DeBose, to the position of AVP EPM, as well as for its decision to terminate DeBose's employment as
Registrar. See (Doc. No. 77, at f 17) (stating that DeBose was not selected for the AVP EPM position because
16 she was not as qualified for *16 the position as Hamilton); (Doc. No. 78, at 6) (stating that DeBose was
terminated for not acting in a collaborative manner and based on the opinions stated in the Ellucian Report).
The question thus becomes whether DeBose has identified sufficient evidence of intentional discrimination to
create a triable issue on her claims for employment discrimination. See Wheatfall v. Bd. ofRegents of Univ.
System ofGa., 9 F.Supp.3d 1342, 1356 (N.D. Ga. 2014) ("[T]he ultimate question in every employment
discrimination case involving a claim of disparate treatment is whether the plaintiff was the victim of
intentional discrimination.").
With respect to the AVP EPM position, DeBose supports her claim that she was subjected to race/gender
discrimination on the fact that (1) Dosal gave Hamilton the opportunity to "go back to her position exclusively
as director of financial aid" if she didn't do well as AVP EPM; (2) "the [AVP EPM] position was not posted or
advertised and that... people [including DeBose] were given no knowledge or awareness of the position"; and
(3) Dosal attempted to make "concessions" to DeBose regarding her salary and job title if she would "go along"
with Hamilton's appointment. (A. DeBose Dep. Tr. 147:2—148:20). Frankly, DeBose's own testimony
demonstrates that USF's decision to promote Hamilton over her had nothing to do with the fact that she is a
black female. Perhaps Dosal exercised poor judgment by not conducting a nationwide search or hand-picking
DeBose for the position. Perhaps he made the right choice. Regardless, whether promoting Hamilton was the
right or wrong choice is unimportant because DeBose herself does not cite race or gender as a reason for
Hamilton's promotion.
To the contrary, DeBose obfuscates the true reasons for Hamilton's selection by making vague references to a
17 handful of allegedly racial statements uttered by Dosal and *17 Wilcox during her tenure at USF. Most of these
statements, including Dosal’s statements about "leaving the hood" and not wanting DeBose to be a "token"
were remote in time from Hamilton's promotion. Moreover, even if Wilcox is "a nasty son of a bitch" who was
never "going to think highly of [DeBose]... because ... [she is] black," it is undisputed that Dosal, not
Wilcox, promoted Hamilton to the AVP EPM position. See (Doc. No. 76, at 5) (stating that Dosal appointed
Hamilton); (Doc. No. 170, at 12) (failing to dispute that Dosal appointed Hamilton). Since the record is devoid

casetext

8

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

of evidence that race and gender played a role in Dosal's decision to appoint Hamilton to the AVP EPM
position, or that Wilcox's alleged racial animus towards DeBose influenced Dosal's hiring decision, DeBose has
failed to show that USF's proffered non-discriminatory reason for not promoting DeBose was pretextual.
As for DeBose's claim of race-based termination discrimination, it is undisputed that Wilcox made the decision
to terminate DeBose. See (Doc. No. 68, at ^ 6) (stating that Dosal "was not involved in the decision to nonrenew DeBose's employment). While Wilcox claims that he made the decision to non-renew DeBose's
employment after reviewing the Ellucian Report, USF does not attempt to deal with the so-called evidentiary
elephant in the room: DeBose's deposition testimony that Dosal told her that Wilcox was never "going to think
highly of [DeBose]... because ... [she is] black." At this stage of the proceedings, the Court is required to
draw all reasonable inferences in favor of the non-moving party, DeBose, and given DeBose's testimony that
Wilcox harbored racial animus towards her, she is entitled to a reasonable inference that her termination was
discriminatory. This is true even though Dosal's alleged statement that Wilcox harbored racist views towards
18 DeBose was remote in time from her termination. Stated simply, *18 DeBose's sworn testimony that Wilcox is
a virulent racist cannot be discounted on summary judgment and, as a result, is enough to get her to a jury on
her claim for race-based termination discrimination.
B. Retaliation Claims
"Title Vll's retaliation provision makes it unlawful to discriminate against any individual because she has
opposed any practice made an unlawful practice by the Act." Demers v. Adams Homes ofNw. Fla., Inc., 321 F.
App'x 847, 852 (11th Cir. 2009). "To establish a prima facie case of retaliation, the plaintiff must show: (1) that
[s]he engaged in statutorily protect expression; (2) that [s]he suffered an adverse employment action; and (3)
that there is some causal relationship between the two events." Holifield v. Reno, 115 F.3d 1555, 1566 (11th Cir.
1997). Once the plaintiff establishes her prima facie case, the employer must proffer a legitimate, nondiscriminatory reason for the adverse employment action. Id. "If the employer offers legitimate reasons for the
employment action, the plaintiff must then demonstrate that the employer's proffered explanation is a pretext
for retaliation." Id.
In Counts 11 and IV of the TAC, the Plaintiff asserts claims for retaliation based on her gender and race,
respectively. Specifically, the Plaintiff alleges that she was retaliated against for filing internal complaints with
USF, charges of discrimination with the EEOC, and an action seeking a preliminary injunction before this
Court. See (Doc. No. 45, at ^ 147). DeBose claims that because she engaged in the foregoing protected
activities, she was denied a promotion to the AVP EPM position, terminated from her position as Registrar, and
19 given a poor reference to the Provost of UNF. (Doc. No. 45,a t T[ 148). *19
For starters, the Plaintiff's claims that she was denied the AVP EPM promotion due to unlawful retaliation are
without merit. It is undisputed that DeBose did not engage in any statutorily protected activity until after she
learned that Hamilton had been appointed to the AVP EPM position. Compare (Doc. No. 79-8) (demonstrating
that DeBose's first ethics point complaint was submitted on July 28,2014), with (Doc. No. 77, at f 19) (stating
that Dosal notified DeBose of Hamilton's appointment to the AVP EPM position on July 15, 2014). Thus,
Counts II and IV, to the extent they are based on Hamilton's promotion to AVP EPM, fail as a matter of law due
to a lack of causation. See Univ. of Tex. Sw.Med. Center v.Nassar, 133 S.Ct. 2517,2534 (2013) (stating that to
satisfy the causation element, the plaintiff "must establish that his or her protected activity was a but for cause
of the alleged adverse action by the employer.").

tMt casetext

9

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

The Plaintiff’s claims that she was terminated and given a poor reference in retaliation for engaging in
statutorily protected activities, however, require a more thorough analysis. USF does not dispute that the
Plaintiff engaged in statutorily protected activity, or that she suffered an adverse employment action when she
was terminated and given a negative reference to the Provost of UNF. To the contrary, USF attacks the
Plaintiffs ability to establish the causation element of her prima facie case and, to the extent she can make out a
prima facie case, USF contends that DeBose cannot show that her termination and any poor review were
pretext for retaliation.
Prior to the Supreme Court's Nassar decision, a plaintiff could satisfy this requirement by showing, among
other things, "close temporal proximity" between the protected activity and the adverse employment action.
Higdon v. Jackson, 393 F.3d 1211, 1220 (11th Cir. 2004). Following Nassar, however, a plaintiff must show
20 more than *20 temporal proximity between the protected activity and their termination. Cf. Smith v. City ofNew
Smyrna Beach, 588 F. App'x 965, 981-82 (11th Cir. 2014). Instead, to establish a claim for retaliation, the
plaintiff must present evidence "that the unlawful retaliation would not have occurred in the absence of the
alleged wrongful action or actions of the employer." Nassar, 133 S.Ct. at 2533.
Here, the record contains testimonial evidence that after DeBose filed her EEOC complaint on January 15,
2015, (Doc. No. 76, at 6), she was "asked into meetings with no agenda." (A. DeBose Dep. Tr. 230:6-20).
Shortly thereafter, the Alexis Mootoo incident occurred, which DeBose claims was part of a deal in which
Dosal promised Mootoo more favorable "pay and position." (A. Dep. Tr. 84:2—86:24). Approximately one
month later, in February of 2015, USF engaged Ellucian to review and assess its implementation of Degree
Works. (Doc. No. 76, at 8). This, as we now know, ultimately culminated in the Ellucian Report, which USF
cited as its basis for its decision not to renew DeBose's employment. Shortly thereafter, Ralph Wilcox
acknowledges that he told UNF Provost Earle Traynham that DeBose was "not collaborative and that she was
resistant to change." (Doc. No. 78, at f 9). DeBose's version of the negative reference is far more colorful, with
DeBose claiming that people at USF and elsewhere told her Ralph Wilcox told Traynham he wanted DeBose
"to have nothing ... not even a shirt.... bare, exposed with nothing." (A. DeBose Dep. Tr. 290:1-11).
Clearly, things between DeBose and USF went sideways between 2014 and 2015, and during that period of
time, DeBose filed multiple internal and external complaints alleging discrimination. DeBose's version of the
facts, i.e. that she was the victim of a massive conspiracy because she filed complaints of discrimination, may
21 not ultimately be *21 accepted by a jury, but there is certainly enough circumstantial evidence of retaliation to
afford DeBose her day in Court. Specifically, given the close temporal proximity between DeBose's EEOC
complaint and USF's decision to engage Ellucian, DeBose's testimony that the Registrar's Office was included
in the scope of Ellucian's engagement at the request of USF, DeBose's testimony that she was treated differently
following her complaints of discrimination, and the timing and circumstances surrounding the Traynham
conversation, a reasonable jury could find that USF's actions were retaliatory. Thus, USF's motion for summary
judgment is denied as to DeBose's claims that her termination and poor reference were retaliatory.
C. Disparate Impact Claims
A disparate impact theory of discrimination "prohibits neutral employment practices which, while nondiscriminatory on their face, visit an adverse, disproportionate impact on a statutorily-protected group."
E.E.O.C. v. Joe's Stone Crab, Inc., 220 F.3d 1263, 1274 (11th Cir. 2000) (emphasis in original). To prove a
disparate impact claim, the plaintiff must show: (1) there is a significant statistical disparity between the
proportion of minorities available in the labor pool and the proportion of minorities hired by the employer; (2)
there is a specific, facially-neutral employment practice causing the disparity; and (3) that a causal nexus exists

casetext

10

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

between the identified employment practice and the statistical disparity. Id. Importantly, to prevail on a claim
for disparate impact, "the plaintiff must offer statistical evidence of a kind and degree sufficient to show that
the practice in question has caused the exclusion of applicants for jobs or promotions because of thenmembership in a protected group." Id. At 1274-75.
Here, the only statistical evidence offered in support of the Plaintiffs disparate impact claims is an "Affidavit of
22 Expert Opinion" offered by Saba Baptiste-Alkebu-Lan, a *22 purported subject matter expert on employment
discrimination, (Doc. No. 177), and an unauthenticated spreadsheet attached to Doc. No. 188. See (Doc. No.
188, at 179). Since Ms. Baptiste-Alkebu-Lan's report is dated September 5,2017, well after the deadline to
disclose expert reports and the close of discovery, the affidavit is untimely and inadmissible in response to
USF's motion for summary judgment. The same holds true for the spreadsheets submitted by the Plaintiff,
which have not been authenticated and, as a result, are not admissible in response to summary judgment Given,
the Plaintiffs failure to support her disparate impact claims with admissible evidence in response to summary
judgment, USE is entitled to summary judgment on Counts V and VI of the TAC.
D. Breach of Contract
To recover damages for breach of contract, the plaintiff must prove: (1) the plaintiff and defendant entered into
a contract, (2) the plaintiff did what the contract required, (3) all conditions required by the contract for
defendant's performance occurred, (4) the defendant failed to perform under the contract, and (5) the plaintiff
was harmed by that failure. Atlantica One, LLC v. Adragna, 177 So. 3d 89, 91 (Fla. 5th DCA 2015). The Court
previously dismissed DeBose's claims for breach of contract not based on an express contract. (Doc. No. 50, at
3-4). While DeBose previously represented that USF withheld a copy of her written employment agreement,
(Doc. No. 49, at 6), discovery is now complete, and no written employment agreement has been shown to exist.
For this reason alone, DeBose's breach of contract claim fails as a matter of law.
Moreover, it appears that in actuality DeBose was employed pursuant to USF Regulation 10.210, which states
that "employment is at will and ... employees may be non-reappointed upon written notice from the CAO."
23 (Doc. No. 206-1, at 2). Under *23 Regulation 10.201, "the [required] period of notification prior to the effective
date of non-reappointment is ... [tjhree (3) months'... for employees with two (2) or more years of
continuous employment." (Doc. No. 206-1, at 2). "Following receipt of the notice of non-reappointment, the
CAO has the option to assign the employee other duties and responsibilities and/or to require the employee to
use accrued annual leave." (Doc. No. 206-1, at 3). It is undisputed that this is exactly what happened here:
DeBose was given three months' notice of her non-renewal, and was required to use accrued annual leave
during the three month period following receipt of the notice of non-reappointment. As a result, DeBose has
failed to prove that USF breached any of its non-reappointment procedures.
E. Tortious Interference
Under Florida law, the elements of a claim for tortious interference are: "(1) the existence of a business
relationship that affords the plaintiff existing or prospective rights; (2) the defendant's knowledge of the
business relationship; (3) the defendant's intentional and unjustified interference with the relationship; and (4)
damage to the plaintiff." Int'l Sales & Serv., Inc. v. Austral Insulated Products, Inc., 262 F.3d 1152, 1154 (11 th
Cir. 2001). In the TAC, the Plaintiff asserts claims for tortious interference against USF and Ellucian, claiming
that Ralph Wilcox's negative review of her performance cost her a prospective employment opportunity at
UNF, and that Ellucian's statements criticizing the Registrar's Office in its report caused her termination from

scasetext

11

DeBose v. Univ. of S. Fla. Bd. ofTrs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

USF. Neither claim holds water for one very simple reason: despite DeBose's plethora of allegations concerning
USF and Ellucian's improper behavior, the record is devoid of evidence that either entity intentionally
24 interfered with her existing or prospective rights of employment. *24
With respect to USF, the only person who could have intentionally interfered with DeBose's prospective rights
of employment at UNF is Wilcox. While DeBose claims Wilcox told Traynham he wanted DeBose "to have
nothing ... not even a shirt.... bare, exposed with nothing," (A. DeBose Dep. Tr. 290:1-11), during her
deposition DeBose was unable to clearly articulate who informed her of Wilcox's alleged "not even a shirt"
statement. (A. DeBose Dep. Tr. 290:12-20). The best DeBose could do was to identify "a guy named Lance ...
who works at USF." (A. DeBose Dep. Tr. 290:18-20). Given the lack of information regarding the proponent of
the "not even a shirt" comment, DeBose has failed to demonstrate that the testimony can be reduced to an
admissible form. The same holds true for any statements regarding Wilcox's conversation with Traynham that
were relayed to her by her friend Albert Colom. Mr. Colom is not a USF employee and, as a result, anything he
told DeBose in May of 2015 is hearsay, and does not qualify as an admission of a party opponent or under any
other exception to the rule against hearsay. Thus, DeBose's recitation of Colom's alleged version of the
Traynham conversation is inadmissible in opposition to USF's summary judgment motion. Since DeBose lacks
any firsthand knowledge regarding Wilcox's intentions pertaining to the Traynham conversation, and Wilcox
unequivocally denies interfering with DeBose's prospective rights of employment, USF is entitled to summary
judgment on Count V of the TAC.
As for Ellucian, DeBose similarly lacks any firsthand knowledge regarding why Ellucian was critical of the
Registrar's Office in its report. DeBose claims that Diamond's body language, face, and demeanor was "angry,"
(A. DeBose Dep. Tr. 97:16-23), that she "went out of her way ... to cast a negative light on the registrar's
25 office," and she that *25 did not sincerely or honestly believe the opinions she expressed regarding the
Registrar's Office. (A. DeBose Dep. Tr. 98:3—99:24). However, having an "angry" demeanor does not equate
to tortious interference, and DeBose's beliefs regarding Diamond's alleged targeting of her office and lack of
sincerity are pure conjecture. As a result, Ellucian is entitled to summary judgment on Count VI of the TAC.
F. Civil Conspiracy
To prove a claim for civil conspiracy, the plaintiff must show: (1) the existence of an agreement between two or
more parties, (2) to do an unlawful act, (3) the doing of some overt act in furtherance of the conspiracy, and (4)
damages. United Techs. Corp. v. Mazer, 556 F.3d 1260, 1271 (11th Cir. 2009). In the TAC, DeBose accuses
USF and Ellucian of conspiring "to terminate Plaintiffs employment for pretextual reasons by knowingly
including inaccurate and improper information in the Ellucian Report with the intent of damaging Plaintiff."
(Doc. No. 45, at ^ 230). The problem for DeBose, however, is that there is absolutely no record evidence of any
agreement between USF and Ellucian to include information critical of the Registrar's Office in the Ellucian
Report. There are no emails, letters, or alleged oral statements that show any anti-DeBose collusion between
USF and Ellucian. Any belief by DeBose that such collusion occurred is pure conjecture and has not been
properly supported for purposes of opposing the Defendants' summary judgment motions. As a result, DeBose's
civil conspiracy claims fail as a matter of law.

V. Conclusion
Accordingly, it is
ORDERED that the Summary Judgment Motions are GRANTED IN PART AND DENIED IN PART AS
26 FOLLOWS: *26

s^jSj casetext

12

DeBose v. Univ. of S. Fla. Bd. of Trs.

Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)

(1) USF's motion for summary judgment is GRANTED with respect to DeBose's claims of gender
discrimination (Count I);
(2) USF's motion for summary judgment is GRANTED with respect to DeBose's claims of race and
gender discrimination based on Hamilton's promotion to AVP EPM (Count 1 and 111);
(3) USF's motion for summary judgment is DENIED with respect to DeBose's claims of race
discrimination based on DeBose's non-reappointment as Registrar (Counts I and III);
(4) USF's motion for summary judgment is GRANTED with respect to DeBose's claims of retaliation
based on Hamilton's promotion to AVP EPM (Counts 11 and IV);
(5) USF's motion for summary judgment is DENIED as to DeBose's claims of retaliation based on her
non-reappointment as Registrar and Wilcox's poor reference to UNF (Counts II and IV);
(6) USF's motion for summary judgment is GRANTED as to DeBose's claims for disparate impact,
breach of contract, tortious interference, and civil conspiracy (Counts V, VI, VII, IX, X);
(7) Ellucian's motion for summary judgment is GRANTED as to DeBose's claims for tortious
interference and civil conspiracy (Counts VIII and X).
It is further ORDERED that DeBose and USF are directed to confer and file a status report within 30 days that
contains the following information:
(1) The status or result of any previously or currently scheduled mediation and, if already concluded,
the result of such mediation;
27

*27

(2) Proposed dates for the mediation (if not already conducted) and trial of the remaining claims in this
matter; and
(3) Any remaining issues to be addressed by the Court.
DONE and ORDERED in Chambers, in Tampa, Florida this 29th day of September, 2017.
/s/
ELIZABETH A. KOVACHEVICH
UNITED STATES DISTRICT JUDGE Copies furnished to: Counsel of Record
Unrepresented Parties

casetext

13

